No. 20-____
IN THE

Supreme Court of the United States
————
COCHLEAR CORPORATION, COCHLEAR LTD.,
Petitioners,
v.
ALFRED E. MANN FOUNDATION FOR
SCIENTIFIC RESEARCH, ADVANCED BIONICS, LLC,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
KATHLEEN M. SULLIVAN
Counsel of Record
THOMAS D. PEASE
KEVIN A. SMITH
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
51 Madison Avenue
22nd Floor
New York, NY 10010
(212) 849-7000
kathleensullivan@
quinnemanuel.com
Counsel for Petitioners
September 14, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
1. Whether the Federal Circuit has misapplied the
“book of wisdom” set forth in Sinclair Refining Co. v.
Jenkins Petroleum Process Co., 289 U.S. 689 (1933), by
allowing a reasonable royalty for patent infringement
under the Patent Act, 35 U.S.C. § 284, to be determined by evidence arising long after the hypothetical
negotiation on which that royalty is based?
2. Whether Maryland v. Baldwin, 112 U.S. 490 (1884),
forecloses an award of damages under a general
damages verdict where some claims underlying that
award are overturned after trial, and if so, whether a
party may challenge such a result notwithstanding
agreement to a general damages verdict?
3. Whether Garretson v. Clark, 111 U.S. 120, 121
(1884), requires apportionment of patent damages to
the inventive contribution of the claimed technology?

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Cochlear Americas (f/k/a Cochlear
Corporation) was a defendant-appellant below.
Petitioner Cochlear Ltd. was a defendant-appellant
below.
Respondent Alfred E. Mann Foundation for Scientific
Research was a plaintiff-appellee below.
Respondent Advanced Bionics, LLC was a plaintiffappellee below.

iii
RULE 29.6 STATEMENT
Cochlear Ltd. is a publicly traded corporation.
Cochlear Ltd. owns 10 percent or more of the stock of
Cochlear Americas.

iv
RELATED PROCEEDINGS
United States District Court (C.D. Cal.):
Alfred E. Mann Found. For Scientific Research v.
Cochlear Corp., No. 2:07-cv-08108 (Nov. 4, 2018).
United States Court of Appeals (Fed. Cir.):
Alfred E. Mann Found. For Scientific Research v.
Cochlear Corp., No. 2019-1201 (Mar. 16, 2020).
Alfred E. Mann Found. For Scientific Research v.
Cochlear Corp., Nos. 2015-1580, 2015-1606, 2015-1607
(Nov. 17, 2016).

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDINGS BELOW ........... ii
RULE 29.6 STATEMENT .......................................... iii
RELATED PROCEEDINGS ...................................... iv
TABLE OF AUTHORITIES ...................................... vii
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 3
JURISDICTION .......................................................... 3
PERTINENT STATUTORY PROVISIONS ............... 3
STATEMENT OF THE CASE .................................... 3
A. Background ....................................................... 3
B. Proceedings Below ............................................ 4
REASONS FOR GRANTING THE WRIT ............ 10
I. The Decision Below Warrants Review
For Its Misplaced Reliance On The “Book
of Wisdom” ...................................................... 10
A. The Decision Below Misapplies This
Court’s Precedent ...................................... 10
B. The Book of Wisdom Presents An
Exceptionally Important Issue Of
Patent Damages Law ................................ 17
C. This Case Is An Ideal Vehicle To
Address The Book of Wisdom.................... 20

(v)

vi
TABLE OF CONTENTS—Continued
Page
II. The Decision Below Warrants Review
For Its Deviation From The General
Verdict Rule .................................................... 21
A. The Decision Below Conflicts With
This Court’s Precedent .............................. 21
B. The Circuits Are Deeply Divided On
Application Of The General Verdict
Rule ............................................................ 24
C. Application Of The General Verdict
Rule Presents An Exceptionally
Important Question of Post-Trial
Procedure ................................................... 29
D. The Lower Court’s Waiver Ruling
Further Deepens The Circuit Split ..... ..... 30
III. This Court Should Summarily Reverse
The Lower Court’s Failure To Require
Apportionment ................................................ 32
CONCLUSION .......................................................... 34
APPENDIX
APPENDIX A – Federal Circuit Opinion,
March 16, 2020 ..................................................... 1a
APPENDIX B – Federal Circuit Opinion,
November 17, 2016 ............................................... 3a
APPENDIX C – District Court Opinion &
Order, November 4, 2018 ................................... 37a
APPENDIX D – Federal
Circuit
Order
Denying Rehearing, May 18, 2020 .................. 137a

vii
TABLE OF AUTHORITIES
United States Supreme Court Cases

Page(s)

Am. Tradition P’ship v. Bullock,
567 U.S. 516 (2012) ......................................... 32
Bonito Boats, Inc. v. Thunder Craft Boats, Inc.,
489 U.S. 141 (1989) ......................................... 18
City of Columbia v. Omni Outdoor Adver. Inc.,
499 U.S. 365 (1991) ......................................... 22
Exxon Shipping Co. v. Baker,
554 U.S. 471 (2008) ................................... 21, 23
Fitzgerald v. Barnstable Sch. Comm.,
555 U.S. 246 (2009) ......................................... 31
Garretson v. Clark,
111 U.S. 120 (1884) ............................. i, 2, 32-33
Greenbelt Coop. Publ’g Ass’n v. Bresler,
398 U.S. 6 (1970) ........................................ 22-23
Halo Elecs., Inc. v. Pulse Elecs., Inc.,
136 S. Ct. 1923 (2016) ..................................... 19
Maryland v. Baldwin,
112 U.S. 490 (1884) .......................... i, 1-2, 21-22
Memphis Cmty. Sch. Dist. v. Stachura,
477 U.S. 299 (1986) ......................................... 22
New York Times Co. v. Sullivan,
376 U.S. 254 (1964) ......................................... 22
Newport v. Fact Concerts, Inc.,
453 U.S. 247 (1981) ......................................... 22
Octane Fitness, LLC v. ICON Health &
Fitness, Inc.,
572 U.S. 545 (2014) ......................................... 19

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Oil States Energy Services, LLC v.
Greene’s Energy Group, LLC,
138 S. Ct. 1365 (2018) ..................................... 20
Retractable Techs., Inc. v.
Becton Dickinson & Co.,
757 F.3d 1366 (Fed. Cir. 2014) ......................... 7
Samsung Elecs. Co., Ltd. v. Apple Inc.,
137 S. Ct. 429 (2016) ....................................... 19
Sinclair Refining Co. v. Jenkins Petroleum
Process Co.,
289 U.S. 689 (1933) ................... i, 1, 8, 10-15, 17
Spectrum Sports, Inc. v. McQuillan,
506 U.S. 447 (1993) ......................................... 22
Sunkist Growers, Inc. v. Winckler & Smith
Citrus Prods. Co.,
370 U.S. 19 (1962) ...................................... 22-23
United New York & New Jersey Sandy
Hook Pilots Ass’n v. Halecki,
358 U.S. 613 (1959) ......................................... 23
United States v. Gonzalez-Lopez,
548 U.S. 140 (2006) ......................................... 23
Vasquez v. Hillery,
474 U.S. 254 (1986) ......................................... 23
Wearry v. Cain,
136 S. Ct. 1002 (2016) ..................................... 32

ix
TABLE OF AUTHORITIES—Continued
Page(s)
WesternGeco LLC v. ION Geophysical Corp.,
138 S. Ct. 2129 (2018) ..................................... 19
Wilmington Star Mining Co. v. Fulton,
205 U.S. 60 (1907) ........................................... 23
Court Of Appeals Cases
Alfred E. Mann Found. For Scientific
Research v. Cochlear Corp.,
841 F.3d 1334 (Fed. Cir. 2016) ......................... 7
Alfred E. Mann Found. For Scientific
Research v. Cochlear Corp.,
798 F. App’x 643 (Fed. Cir. 2020) ..................... 9
Anixter v. Home-Stake Prod. Co.,
77 F.3d 1215 (10th Cir. 1996) ................... 27, 31
Aqua Shield v. Inter Pool Cover Team,
774 F.3d 766 (Fed. Cir. 2014) ................... 13, 17
Brokerage Concepts, Inc. v.
U.S. Healthcare, Inc.,
140 F.3d 494 (3d Cir. 1998) ............................ 31
Bruneau ex rel. Schofield v. S. Kortright
Central Sch. Dist.,
163 F.3d 749 (2d Cir. 1998) ............................ 31
Chowdhury v. Worldtel Bangladesh
Holding, Ltd.,
746 F.3d 42 (2d Cir. 2014) .............................. 27
Davis v. Rennie,
264 F.3d 86 (1st Cir. 2001) ............................. 27
Dudley v. Dittmer,
795 F.2d 669 (8th Cir. 1986) ........................... 28

x
TABLE OF AUTHORITIES—Continued
Page(s)
Farrell v. Klein Tools, Inc.,
866 F.2d 1294 (10th Cir. 1989) ....................... 27
Fox v. Hayes,
600 F.3d 819 (7th Cir. 2010) ........................... 31
Friedman & Friedman, Ltd. v.
Tim McCandless, Inc.,
606 F.3d 494 (8th Cir. 2010) ..................... 28, 31
Fromson v. Western Litho Plate & Supply Co.,
853 F.2d 1568 (Fed. Cir. 1988) ................. 12, 15
Gillespie v. Sears, Roebuck & Co.,
386 F.3d 21 (1st Cir. 2004) ....................... 28, 31
Hanson v. Alpine Valley Ski Area, Inc.,
718 F.2d 1075 (Fed. Cir. 1983) ................. 12, 17
Hurley v. Atl. City Police Dep’t,
174 F.3d 95 (3d Cir. 1999) .............................. 27
Interactive Pictures Corp. v.
Infinite Pictures, Inc.,
274 F.3d 1371 (Fed. Cir. 2001) ....................... 16
Joshua v. United States,
17 F.3d 378 (Fed. Cir. 1994) ........................... 20
Kern v. Levolor Lortenzen, Inc.,
899 F.2d 772 (9th Cir. 1990) ........................... 26
Knapp v. Ernst & Whinney,
90 F.3d 1431 (9th Cir. 1996) ........................... 26
Knorr-Bremse Systeme Fuer
Nutzfahrzeuge GmbH v. Dana Corp.,
383 F.3d 1337 (Fed. Cir. 2004) ....................... 12

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Loesel v. City of Frankenmuth,
692 F.3d 452 (6th Cir. 2012) ........................... 28
Lucent Techs., Inc. v. Gateway, Inc.,
580 F.3d 1301 (Fed. Cir. 2009) ....................... 12
Maccabees Mut. Life Ins. Co. v. Morton,
941 F.2d 1181 (11th Cir. 1991) ....................... 28
McCord v. Maguire,
873 F.2d 1271 (9th Cir. 1989) ......................... 31
McGrath v. Zenith Radio Corp.,
651 F.2d 458 (7th Cir. 1981) ........................... 26
Muth v. Ford Motor Co.,
461 F.3d 557 (5th Cir. 2006) ........................... 27
N. Am. Graphite Corp. v. Allan,
184 F.2d 387 (D.C. Cir. 1950) ......................... 28
Portland Feminist Women’s Health Center
v. Advocates for Life, Inc.,
62 F.3d 280 (9th Cir. 1995) ............................. 25
Radio Steel & Mfg. Co. v. MTD Prods., Inc.,
788 F.2d 1554 (Fed. Cir. 1986) ....................... 17
Saltzman v. C.I.R.,
131 F.3d 87 (2d Cir. 1997) .............................. 16
Skidmore v. Baltimore & Ohio R.R. Co.,
167 F.2d 54 (2d Cir. 1948) .............................. 24
Tire Eng’g & Distribution, LLC v.
Shandong Linglong Rubber Co., Ltd.,
682 F.3d 292 (4th Cir. 2012) ........................... 27
Traver v. Meshriy,
627 F.2d 934 (9th Cir. 1980) ....................... 9, 26

xii
TABLE OF AUTHORITIES—Continued
Page(s)
TWM Mfg. Co., Inc. v. Dura Corp.,
789 F.2d 895 (Fed. Cir. 1986) ......................... 17
Virtual Maintenance, Inc. v.
Prime Computer, Inc.,
11 F.3d 660 (6th Cir. 1993) ............................. 28
Walden v. United States Steel Corp.,
759 F.2d 834 (11th Cir. 1985) ......................... 28
Wellogix, Inc. v. Accenture, L.L.P.,
716 F.3d 867 (5th Cir. 2013) ........................... 31
WesternGeco L.L.C. v. ION Geophysical
Corp.,
913 F.3d 1067 (Fed. Cir. 2019) ....................... 25
Other Cases
Alfred E. Mann Found. For Sci. Research
v. Cochlear Corp.,
No. 07-cv-8108 2015 WL 12644568 (C.D.
Cal. Mar. 31, 2015) .......................................... 7
Potente v. Cnty. of Hudson,
900 A.2d 787 (N.J. 2006) ................................ 27
Federal Statutory Authorities
28 U.S.C. § 1254(1) ............................................... 3
35 U.S.C. § 112 ..................................................... 6
35 U.S.C. § 284 .................................. i, 1, 3, 10, 17

xiii
TABLE OF AUTHORITIES—Continued
Other Authorities

Page(s)

Jonathan H. Ashtor, et al., Patents at Issue:
The Data Behind the Patent Troll Debate,
21 George Mason L. Rev. 957 (2014) ............. 30
David Axelrad & Loren Kraus, The Federal
General Verdict Rule: Conflict in the
Courts of Appeal, 43 Fed. Law. 43 (June
1996) ..................................................... 25-26, 29
Thomas F. Cotter, Four Principles for
Calculating Reasonable Royalties in
Patent Infringement Litigation, 27 Santa
Clara Computer & High Tech. L.J. 725
(2011) .............................................................. 18
FTC, The Evolving IP Marketplace 148
(March 2011) .................................................. 19
Mark A. Glick, et al., The “Book of Wisdom”
Contains Little Wisdom And Creates
Significant Risk of Bias, 27 Fed. Cir. B.J.
1 (2017) ............................................................ 16
Nathan Jack, Comment, Toward a Uniform
Rule: The Collapse of the Civil-Criminal
Divide in Appellate Review of Multitheory
General Verdicts, 81 U. Chi. L. Rev. 757
(2014) ......................................................... 26-27
Brian J. Love, Note, Patentee Overcompensation and the Entire Market Value
Rule, 860 Stan. L. Rev. 263 (2007) ................. 18
Robert A. Matthews, Jr., 4 Annotated
Patent Digest § 30:87 (Aug. 2020) ................. 16

xiv
TABLE OF AUTHORITIES—Continued
Page(s)
Suzanne Michel, Bargaining for RAND
Royalties in the Shadow of Patent Remedies
Law, 77 Antitrust L.J. 889 (2011) ............ 18-19
Elizabeth C. Moore, Note, General Verdicts
in Multi-Claim Litigation, 21 Mem. St.
U. L. Rev. 705 (1991) ..................................... 29
Ryan P. Phair, Appellate Review of MultiClaim General Verdicts: The Life and
Premature Death of the Baldwin Principle, 4 J. App. Prac. & Process 89 (2002)... 24, 26
PricewaterhouseCoopers, 2018 Patent Litigation Study (2018)......................................... 30
Edson R. Sunderland, Verdicts, General
and Special, 29 Yale L.J. 253 (1920) .............. 24
Wright & Miller, Federal Practice &
Procedure § 2501 (3d ed. 2020) .................. 29-30

INTRODUCTION
This petition arises from a decision of the Federal
Circuit that allowed a $268 million patent infringement judgment to stand even though untethered to the
inventive contribution of the patent claims at issue.
That judgment raises three issues that warrant this
Court’s review.
First, the underlying $134 million jury verdict was
nearly trebled by the Federal Circuit’s misapplication
of the “book of wisdom” set forth in Sinclair Refining
Co. v. Jenkins Petroleum Process Co., 289 U.S. 689
(1933). Sinclair allowed later-arising evidence to be
used as a “book of wisdom” informing a contract case.
The Federal Circuit, however, has lifted that term
out of context to allow systematic inflation of the
“reasonable royalty” provided for patent infringement
under the Patent Act, 35 U.S.C. § 284. Such a royalty
is often calculated, as here, by use of a “hypothetical
negotiation” that posits the royalty rate a willing
infringer would have paid a willing patent holder to
use the asserted patent on the date of the first infringement. But the Federal Circuit’s “Book of Wisdom”
allows such a royalty to be determined using evidence
that arises long after the hypothetical negotiation date
and thus was unknown and unforeseeable to the
parties. In this case, the supposed reasonable royalty
was based on a stock price in a transaction that took
place six years after the date of first infringement.
The Federal Circuit’s misapplication of Sinclair
conflicts with the Patent Act and warrants the Court’s
review.
Second, the judgment below conflicts with the
general verdict rule set forth in Maryland v. Baldwin,
112 U.S. 490 (1884), which holds that a judgment
based on a general damages verdict must be vacated

2
where, as here, the verdict was based in part on
grounds for liability that are later overturned. Here
the district court, reversing its own prior order,
declined to hold a new damages trial even though the
Federal Circuit affirmed the invalidity of one of the
two patents on which the jury’s general damages
verdict was based. The district court, again reversing
its own prior order, then doubled the original damages
amount based on a finding of willful infringement that
greatly multiplied the impact that the misapplication
of the Book of Wisdom had on this case.
The Federal Circuit’s affirmance of that judgment
deepens an already fractured circuit split. Several
circuits follow Baldwin. Others have imposed conflicting “harmless error” exceptions of their own devising.
Only this Court can dispel this conflict and resolve the
confusion over whether a general damages verdict
should be recalculated when its underlying legal basis
has been overturned. Further deepening this circuit
split, the courts of appeals are also divided on whether
the parties’ agreement to use a general damages verdict
form waives any later objection to the denial of a
damages retrial.
Third, the judgment below warrants review, and
summary reversal, because the lower courts’ failure to
require apportionment “between the patented feature
and the unpatented features” of the infringing technology, as this Court has required under the Patent Act
for over a century “in every case.” Garretson v. Clark,
111 U.S. 120, 121 (1884).
The petition should be granted.

3
OPINIONS BELOW
The opinion of the U.S. Court of Appeals for the
Federal Circuit is unreported and is reproduced at
App. 1a-2a. The district court’s opinion is available at
2018 WL 6190604 and reproduced at App. 37a-136a.
JURISDICTION
The court of appeals denied rehearing on May 18,
2020. App. 137a. This Court has jurisdiction under
28 U.S.C. § 1254(1).
PERTINENT STATUTORY PROVISIONS
35 U.S.C. § 284 directs that “[u]pon finding for the
claimant the court shall award the claimant damages
adequate to compensate for the infringement, but in
no event less than a reasonable royalty for the use
made of the invention by the infringer, together with
interest and costs as fixed by the court.”
STATEMENT OF THE CASE
A. Background
Petitioners Cochlear Americas (f/k/a Cochlear Corp.)
and Cochlear Ltd. (collectively “Cochlear”) manufacture
cochlear implants, which are medical devices that
restore hearing. Human hearing requires the body
to convert sound waves from the environment into
electrical signals processed by the brain. Sound enters
the ear and causes the ear drum to vibrate, which
stimulates hair cells in the cochlea. The movement of
these hair cells activates nerve impulses that travel
to the brain, where they are interpreted as sound.
Cochlear’s skull-implanted systems restore hearing by
bypassing inoperable parts of the inner ear and
stimulating the hearing nerve indirectly.

4
B. Proceedings Below
The Alfred Mann Foundation (“AMF”) filed this case
in the Central District of California in 2007 alleging
infringement by Cochlear of multiple patents related
to cochlear implants. Prior to trial, AMF narrowed its
allegations to two patents: U.S. Patent Nos. 5,609,616
(“the ’616 patent”) and 5,938,691 (“the ’691 patent”).
The patents describe inventions related to a system
that includes an external headpiece with a sound processor and an antenna that transmits processed sound
information wirelessly to an implanted apparatus
under the patient’s skin.
The district court held a jury trial on these allegations. AMF introduced expert testimony from Ms.
Cate Elsten, who testified that damages should be
awarded in the form of a reasonable royalty for use of
the patents. She calculated that rate using a “hypothetical negotiation” methodology, which attempts to
ascertain the royalty that the patent holder and the
infringer would have agreed to in a hypothetical
negotiation on the date of first infringement, which
was alleged to be June 1998.
To determine the result of that hypothetical negotiation, Ms. Elsten relied on a 1999 exclusive patent
license agreement between AMF and its licensee,
Advanced Bionics, which she opined was analogous to
the license that AMF and Cochlear would have agreed
upon in a hypothetical negotiation. In that agreement,
AMF licensed thirteen patents to Advanced Bionics,
including the two patents-in-suit, as well as two
patent applications and certain “know how.” All
parties agreed that the license had value beyond
that attributable solely to the two patents asserted by
AMF against Cochlear. In return, Advanced Bionics
agreed to pay AMF a 2-3% royalty rate on sales and

5
one million shares of Advanced Bionics stock, valued
by AMF and Advanced Bionics at $2.80 per share for
purposes of their transaction, financial reporting, and
the sale of company stock to Advanced Bionics employees.
Although Ms. Elsten made certain adjustments to
the royalty rate in the Advanced Bionics license, she
declined to adjust downward the amount Cochlear
would allegedly need to pay to reflect the fact that only
two of the thirteen licensed patents were at issue in
the case and thus Cochlear would have received a
license to far less intellectual property than Advanced
Bionics. Nor did Ms. Elsten adjust the royalty rate to
account for the fact that Advanced Bionics received an
exclusive patent license, while the hypothetical
negotiation with Cochlear would have required only a
non-exclusive license.
Moreover, rather than relying on the contemporaneous 1999 valuation of $2.80 per share for Advanced
Bionics stock, Ms. Elsten relied on a stock valuation
from 2004―six years after the hypothetical negotiation date and five years after the Advanced Bionics
license was signed. This stock price was based not
on the value of the two patents-in-suit, but rather on
a potential offer from a third party, Boston Scientific,
to acquire Advanced Bionics. That offer resulted in
a favorable but unforeseeable deal for Advanced
Bionics. Boston Scientific offered AMF two options
for sale of the Advanced Bionics stock: (1) $21 per
share, or (2) $11 per share plus earnout payments.
This was roughly seven and a half times greater
than the $2.80 valuation given to the same stock
near the time of the hypothetical negotiation. Even
AMF’s founder testified that AMF received a “very

6
rich” price for the stock because he “personally did not
see [the deal] as having that much value” for Boston
Scientific.
Using the unforeseeable 2004 valuation of Advanced
Bionics stock to inform a hypothetical 1999 negotiation, Ms. Elsten opined that damages should be measured
by applying a 7.5% royalty rate to Cochlear’s sales.
Had Ms. Elsten used the 1999 price of the Advanced
Bionics stock, the royalty rate instead would have
been between 2.5% and 3%, reducing her damages
number by nearly two-thirds from over $130 million to
around $50 million.
At trial, the jury found that Cochlear was liable for
infringement of both patents. Consistent with Ms.
Elsten’s calculation, the jury awarded damages of
$131,216,235, a single general damages amount covering liability for both patents. Neither party requested
a verdict form that would have required the jury to
award damages separately for each patent.
The district court then held a bench trial on
Cochlear’s equitable defenses. At its conclusion, the
court held one claim of the ’616 patent and all asserted
claims of the ’691 patent invalid as indefinite under 35
U.S.C. § 112. The court found that only one claim of
the ’616 patent had not been shown to be indefinite
and entered judgment of liability solely on that claim.
In light of that ruling, Cochlear filed post-trial
motions in the district court seeking a new trial
limited to damages for infringing only the ’616 patent,
the sole patent for which liability had been established. Cochlear argued that a new trial was warranted
because the jury’s damages award was premised on

7
liability for infringing multiple claims of both patents,
while the court’s post-trial rulings limited its liability
to only one clam of the ’616 patent. The invalidated
claims of the ’691 patent covered an entire cochlear
implant during all phases of operation, while the
claims of the ’616 patent related only to a system and
method for a doctor to test the implant. Cochlear also
argued that a new trial on damages was appropriate
because Ms. Elsten’s damages opinion was improperly
admitted. The district court granted that motion for a
new damages trial, holding that, “[w]here the jury
rendered a single verdict on damages, without breaking down the damages attributable to each patent, the
normal rule would require a new trial as to damages.”
Alfred E. Mann Found. For Sci. Research v. Cochlear
Corp., No. 07-cv-8108 2015 WL 12644568, at *10 (C.D.
Cal. Mar. 31, 2015) (quoting Retractable Techs., Inc. v.
Becton Dickinson & Co., 757 F.3d 1366, 1370 (Fed. Cir.
2014)). The district court did not address Cochlear’s
arguments regarding the propriety of Ms. Elsten’s
testimony.
The parties cross-appealed to the Federal Circuit,
which affirmed the judgment that all asserted claims
of the ’691 patent were invalid but reversed the
judgment of invalidity of claim 1 of the ’616 patent.
Alfred E. Mann Found. For Scientific Research v.
Cochlear Corp., 841 F.3d 1334, 1337, 1345 (Fed. Cir.
2016) (App. 3a-36a). The court vacated and remanded
for further proceedings limited to the ’616 patent. Id.
at 1348.
On remand, AMF moved to reinstate the jury verdict
and forego a new trial, despite the district court’s prior
order granting a new damages trial limited to the ’616
patent. In opposition, Cochlear contended that the
royalty rate could not be based on the price Boston

8
Scientific offered to AMF for Advanced Bionics stock
in 2004, well after the date of the hypothetical negotiation, because that price was unrelated to the value of
the single patent it was found to infringe, and was not
known or foreseeable at the time of the hypothetical
negotiation between Cochlear and AMF in 1998.
Cochlear also reiterated that a new damages trial was
necessary because the jury’s general damages verdict
included damages for the now-invalid ’691 patent. It
further contended that the damages award violated
this Court’s requirement that patent damages be apportioned because it was based on the entire, unapportioned
royalty rate from the Advanced Bionics license applied
to the entire, unapportioned value of Cochlear’s accused
products.
The district court reinstated the jury verdict, abandoning its prior decision to grant a new damages trial.
App. 136a. The district court rejected Cochlear’s
argument that the admission of Ms. Elsten’s testimony
concerning the 2004 valuation of Advanced Bionics
stock had been erroneous, relying on the Federal
Circuit’s misapplication of Sinclair Refining Co. v.
Jenkins Petroleum Process Co., 289 U.S. 689, 698
(1933), a case concerning, not damages for patent
infringement, but instead damages for breach of a
contract to assign a patent application. App. 81a.
The district court also rejected Cochlear’s apportionment arguments. The court held there was substantial evidence that the entire value of the thirteenpatent Advanced Bionics license was attributable to
the two patents in suit in light of the supposed
importance of the patented technology. App. 77a-88a.
The court also held that Cochlear was not entitled
to a new damages trial for infringement of the ’616
patent. The district court interpreted this argument

9
as a challenge to “[a]lleged [d]efects in the [v]erdict
[f]orm,” which did not ask the jury to award damages
specific to each claim for relief. App. 58a. In light
of that interpretation, the district court ruled that
Cochlear had waived this argument by requesting a
general verdict form.
The district court also ruled that, even if the argument was not waived, the court had discretion under
Traver v. Meshriy, 627 F.2d 934, 938 (9th Cir. 1980),
to interpret the general damages verdict as wholly
attributable to the ’616 patent and deny a new trial.
App. 70a. In that decision, the Ninth Circuit crafted
its own idiosyncratic four-factor exception to this Court’s
general verdict rule. Applying that unique test, the
district court reinstated the full amount of the jury
verdict. It then doubled the award based on a finding
of willful infringement and entered judgment in favor
of AMF for $268,057,078. App. 136a.
Cochlear again appealed to the Federal Circuit. It
argued in part that the reinstatement of the jury
verdict was erroneous. The Federal Circuit affirmed
without written opinion, Alfred E. Mann Found. For
Scientific Research v. Cochlear Corp., 798 F. App’x 643
(Fed. Cir. 2020) (App.1a-2a), and denied Cochlear’s
timely petition for rehearing (App. 137a).

10
REASONS FOR GRANTING THE WRIT
I. The Decision Below Warrants Review For
Its Misplaced Reliance On The “Book of
Wisdom”
The Patent Act requires that, “[u]pon finding for the
claimant the court shall award the claimant damages
adequate to compensate for the infringement, but in
no event less than a reasonable royalty for the use
made of the invention by the infringer, together
with interest and costs as fixed by the court.” 35
U.S.C. § 284. Here, the patent holder employed the
“hypothetical negotiation” construct for calculating
that royalty. That approach posits a “hypothetical
negotiation” between the patentee and the alleged
infringer that would occur on the date of first infringement of the asserted patent. But here, the district
court permitted the patent holder to calculate damages
based on a stock price from a transaction six years
later. There can be no dispute that such information
would not have been known or foreseeable to the
parties at the time of the hypothetical negotiation.
But that stock price still drove the overwhelming
majority of the damages award, which was several
times greater than the valuation of that stock at the
time of the hypothetical negotiation. This disparity
presents a recurring problem in patent damages law
that warrants this Court’s review.
A. The Decision Below Misapplies This
Court’s Precedent
The district court relied on the Federal Circuit’s
application of the Book of Wisdom and Sinclair, 289
U.S. 689, in allowing damages to be calculated based
on a stock value long post-dating the relevant hypothetical negotiation. But the so-called Book of Wisdom,

11
as the Federal Circuit has applied it, is inconsistent
with Sinclair.
Sinclair did not concern the calculation of damages
for patent infringement. Indeed, Sinclair did not
involve patent infringement at all. The case began
when Jenkins Petroleum sued Sinclair Refining for
breach of a contract to assign a patent application. Id.
at 690. To prove the value of the patent application
and therefore the damages from breach of contract,
Jenkins Petroleum sought discovery—then uncommon—
concerning the number of products the defendant had
manufactured that used the patent and the extent of
their use. Id. at 691-92. The district court denied that
discovery as irrelevant to the loss the plaintiff suffered
from not receiving an assignment of the patent
application pursuant to the contract, but the court of
appeals reversed. Sinclair reviewed the propriety of
that discovery ruling.
After an exegesis on the history and law of discovery
in cases at law and equity, Sinclair held that the
evidence was discoverable and relevant to breach of
contract damages. Writing for the Court, Justice
Cardozo observed, “The use that has been made of the
patented device is a legitimate aid to the appraisal of
the value of the patent at the time of the breach.” Id.
at 697. This was true under the facts of Sinclair
because it was “not a case where the recovery can be
measured by the current prices of a market.” Id. In
light of the absence of evidence of a market price for
the patent application, Sinclair reasoned that the
defendant’s use of the invention following the breach
could “bring out and expose of light the elements of
value that were there” in the patent application at the
time of the breach. Id. at 698. Sinclair colorfully
employed a metaphorical flourish to describe the

12
requested discovery as “a book of wisdom that courts
may not neglect.” Id. at 698.
Using Sinclair’s rhetorical flourish as a springboard, the Federal Circuit has created its own body of
patent damages law that bears little resemblance to
the reasonable royalty-based inquiry required by the
Patent Act. The Federal Circuit has stated that the
hypothetical negotiation methodology should not “be
determined on the basis of a hindsight evaluation of
what actually happened, but on the basis of what the
parties to the hypothetical negotiations would have
considered at the time of the negotiations.” Hanson v.
Alpine Valley Ski Area, Inc., 718 F.2d 1075, 1081 (Fed.
Cir. 1983). But at the same time, the Federal Circuit
has created a Book of Wisdom exception for patent
owners that swallows the rule. As illustrated by the
judgment below, that approach “permits and often
requires a court to look to events and facts that
occurred [after the date of the hypothetical negotiation] and that could not have been known to or
predicted by the hypothesized negotiators.” Fromson
v. Western Litho Plate & Supply Co., 853 F.2d 1568,
1575 (Fed. Cir. 1988) (overruled in part on other
grounds by Knorr-Bremse Systeme Fuer Nutzfahrzeuge
GmbH v. Dana Corp., 383 F.3d 1337 (Fed. Cir. 2004)).
The Federal Circuit has cautioned that the propriety
of the Book of Wisdom may require “appropriate circumstance” and “depend[] on the case,” Lucent Techs.,
Inc. v. Gateway, Inc., 580 F.3d 1301, 1333-34 (Fed. Cir.
2009), but it has provided little to no guidance on
what circumstances render application of the rule
inappropriate.
Although the Federal Circuit’s misapplication of the
Book of Wisdom derives its name from a rhetorical
flourish in Sinclair, the Federal Circuit’s rule bears no

13
fidelity to that decision. It is, in fact, inconsistent with
and contrary to Sinclair for multiple reasons.
First, Sinclair did not involve damages for patent
infringement, but rather whether evidence should be
discoverable in an action alleging breach of a contract
to assign a patent application. Sinclair thus involved
a patent application, but did not analyze damages for
patent infringement as constrained by the statutory
language of the Patent Act’s damages provision. The
Federal Circuit has nevertheless characterized Sinclair
as holding that “post-infringement evidence can be a
relevant ‘book of wisdom’” to consider in assessing
patent damages. Aqua Shield v. Inter Pool Cover
Team, 774 F.3d 766, 772 (Fed. Cir. 2014).
Second, Sinclair did not apply its rule to a hypothetical negotiation method for determining damages.
Instead, Sinclair cautioned against using a hypothetical negotiation damages methodology that imagined
a forced sale of the patent application that was the
subject of the contract at the time of the breach. See
289 U.S. at 699 (“An imaginary bid by an imaginary
buyer, acting upon the information available at the
moment of the breach, is not the limit of recovery
where the subject of the bargain is an undeveloped
patent.”). Sinclair permitted discovery of the defendant’s post-breach use of the invention precisely because
it rejected a hypothetical negotiation for a sale of the
patent application, finding such a “market test failing”
as a methodology for calculating damages. Id. Thus,
far from permitting discovery because later-arising
evidence was relevant to a hypothetical negotiation
methodology, Sinclair rejected any such methodology
given the facts of that case. The Federal Circuit,
nevertheless, misapplies the Book of Wisdom as an

14
adjunct to a “market test” for damages, namely its
“hypothetical negotiation” methodology.
Third, the concerns that motivated Sinclair to
conclude that the defendant’s post-breach of contract
use of the patent was relevant are not applicable to the
Federal Circuit’s hypothetical negotiation methodology. Sinclair concerned discovery related to damages
for breach of a contract to assign a patent application.
By virtue of that breach, the plaintiff was denied all
ownership rights in the property that was the subject
of the contract. Under those circumstances, Sinclair
stated that using a hypothetical negotiation to calculate damages was inappropriate: “The promisee of the
patent has less than fair compensation if the criterion
of value is the price that he would have received if he
had disposed of it at once, irrespective of the value that
would have been uncovered if he had kept it as his
own.” Id. at 699 (emphasis added). Such reasoning
has no bearing on an award of reasonable royalty
damages based on a hypothetical negotiation methodology, which typically assumes that a patent holder
will grant a license to the patent in exchange for
royalties, leaving the patent holder with ownership
and the ability to further exploit, use, license, and sell
the patent to others.
Fourth, Sinclair made clear that later-arising evidence
was appropriately considered in the unique circumstances of the case because there was no evidence of
“the current prices of a market” for the patent that
could be relied upon. Id. at 697. The Federal Circuit,
in contrast, allows resort to the Book of Wisdom
even if market prices at the time of the hypothetical
negotiation are available in the form of royalty rates
that had previously been paid in arms-length negotiations for prior licenses to the patent. Indeed, the

15
district court here permitted the Book of Wisdom to
inflate share valuation despite undisputed evidence of
the $2.80 per-share value of the Advanced Bionics
stock near the time of the hypothetical negotiation.
Fifth, in Sinclair, the after-arising evidence showed
the extent of the defendant’s use of the patent. Such
evidence may be closely tied to the value of the patent,
since valuable inventions are generally used more
than those that are valueless. The Federal Circuit
has not, however, limited application of the Book of
Wisdom to evidence of the use of the invention or
other evidence closely tied to the patent in question
at or around the relevant time. In this case, for
example, the district court permitted the outcome of
the hypothetical negotiation to be driven largely by the
change in price of Advanced Bionics stock as of an
arbitrary date six years in the future. That change in
price was not shown to be attributable to the single
patent Cochlear was determined after appeal to have
infringed.
Sixth, the Federal Circuit has, under the guise of the
Book of Wisdom, instructed lower courts to consider
post-hypothetical negotiation evidence that “could
not have been known to or predicted by the hypothesized negotiators.” Fromson, 853 F.2d at 1575. Even
assuming Sinclair applied to calculating a reasonable
royalty for patent infringement under a hypothetical
negotiation construct, it nowhere instructs courts to
consider unforeseeable evidence. In this case, for
example, there was no showing that the price of
Advanced Bionics stock in 2004, which drove the
damages methodology, was foreseeable at the time of
the hypothetical negotiation in 1998. Notably, other
damages and valuation methods that rely on a
hypothetical sale typically exclude such unforeseeable

16
post-hypothetical negotiation evidence.
See, e.g.,
Saltzman v. C.I.R., 131 F.3d 87, 93 (2d Cir. 1997)
(“However, subsequent events are not considered in
fixing fair market value except to the extent that they
were reasonably foreseeable on the date of the gift.”).
Seventh, the Federal Circuit has in practice applied
the Book of Wisdom as a one-way ratchet that allows
patent holders to inflate their damages by relying on
later-arising evidence, but restricts defendants’ ability
to introduce later-arising evidence that weighs in
favor of a lower royalty.1 In Interactive Pictures
Corp. v. Infinite Pictures, Inc., 274 F.3d 1371, 1384-85
(Fed. Cir. 2001), for example, the patentee based its
damages demand on a projection of future sales the
defendant had made near the time of the hypothetical
negotiation. The defendant contended that basing
damages on that projection was not reasonable because,
following the hypothetical negotiation date, its actual
sales fell considerably short of those projections. On
appeal, the Federal Circuit held that the defendant’s
later-arising evidence was simply “irrelevant to [the
defendant’s] state of mind at the time of the hypothetical negotiation,” emphasizing that the “negotiation must
be hypothesized as of the time infringement began.”
1

See Robert A. Matthews, Jr., 4 Annotated Patent Digest
§ 30:87 (Aug. 2020) (“Generally, only the patentee may use
hindsight to modify its proof of the hypothetical negotiation.”);
Mark A. Glick, et al., The “Book of Wisdom” Contains Little
Wisdom And Creates Significant Risk of Bias, 27 Fed. Cir. B.J. 1,
29 n.180 (2017) (“[T]he doctrine appears to be disproportionately
applied to permit post-hypothetical negotiation facts to be considered when they benefit the hypothetical willing licensor, while
strictly holding to the rule that only information known or
reasonably foreseeable to the parties at the time of the hypothetical negotiation is relevant when post-negotiation events
would otherwise benefit the hypothetical willing licensee.”).

17
Id. Similarly, in Hanson, 718 F.2d at 1081, the
Federal Circuit affirmed an award of a royalty based
on one-third of the infringer’s anticipated cost savings
from using the patent at the time of the hypothetical
negotiation, despite the defendant’s evidence that
such cost savings were not actually achieved and that
the royalty left it with no profit, deeming such posthypothetical negotiation evidence simply “irrelevant.”2
Sinclair, however, did not suggest that later-arising
evidence was a “Book of Wisdom” that only plaintiffs
could read.
B. The Book of Wisdom Presents An
Exceptionally Important Issue Of Patent
Damages Law
The Patent Act provides that a reasonable royalty is
the minimum needed to compensate for the unlicensed
use of a patented invention, but nowhere provides that
patent holders should receive a windfall. See 35
U.S.C. § 284 (providing that a plaintiff that proves
2

See also Aqua Shield, 774 F.3d at 772 (defendant who
attempted to invoke the Book of Wisdom to argue for lower damages sought to “incorrectly replace[] the hypothetical inquiry into
what the parties would have anticipated, looking forward when
negotiating, with a backward-looking inquiry into what turned
out to have happened”); TWM Mfg. Co., Inc. v. Dura Corp., 789
F.2d 895, 900 (Fed. Cir. 1986) (holding that the district court did
not abuse its discretion by relying on an infringer’s profit forecasts near the date of first infringement in determining a
reasonable royalty rate and not considering later evidence that
those forecasts were not realized); Radio Steel & Mfg. Co. v. MTD
Prods., Inc., 788 F.2d 1554, 1557 (Fed. Cir. 1986) (upholding a
10% royalty rate despite evidence that it exceeded the infringer's
actual post-hypothetical negotiation profits because “a reasonable royalty rate . . . is based not on the infringer’s profit, but on
the royalty to which a willing licensor and a willing licensee
would have agreed at the time of infringement”).

18
infringement of a valid patent shall be awarded
“damages adequate to compensate for the infringement,” which may take the form of “a reasonable
royalty for the use made of the invention by the
infringer”). As this Court has long recognized, the
Patent Act thus strikes a balance between protection
for existing invention and incentives for future innovation. See Bonito Boats, Inc. v. Thunder Craft Boats,
Inc., 489 U.S. 141, 150-51 (1989) (noting that the
patent system represents “a carefully crafted bargain
for encouraging the creation and disclosure of new,
useful, and nonobvious advances in technology and
design”).
Scholars have likewise recognized, “[w]hen patentees
are compensated for more than their invention is
worth . . . there is a corresponding disincentive for
potential infringers to engage in beneficial commercial
activity.” Brian J. Love, Note, Patentee Overcompensation
and the Entire Market Value Rule, 60 Stan. L. Rev.
263, 279 (2007). Increased liability “effectively raises
the potential infringer’s marginal cost, which in
turn raises the price of the infringer’s products and
reduces its level of output”; the result “is a deadweight
economic loss to society.” Id.; see Thomas F. Cotter,
Four Principles for Calculating Reasonable Royalties
in Patent Infringement Litigation, 27 Santa Clara
Computer & High Tech. L.J. 725, 737 (2011) (arguing
that excessive patent damages awards “raise[] the
social costs of the patent system, including monopoly
costs (if any) and (perhaps more likely) the costs of
investing in and marketing follow-up improvements”
and “may threaten to over deter would-be users from
lawfully designing around in ways that come close to,
but do not, constitute infringement”); Suzanne Michel,
Bargaining for RAND Royalties in the Shadow of
Patent Remedies Law, 77 Antitrust L.J. 889, 895

19
(2011) (“[I]nflated damage awards can discourage
innovation by raising the costs of product development
and increasing the risks of investment for other
innovators and manufacturers.”); FTC, The Evolving
IP Marketplace 148 (March 2011) (“Patent damages
that either under or overcompensate patentees for
infringement compared to the market can have
detrimental effects on innovation and competition.”).
The Federal Circuit’s misapplication of the Book
of Wisdom raises an issue of exceptional national
importance because, as applied, it deviates from these
basic principles. The Federal Circuit allows evidence
based on events long after a hypothetical negotiation
to inflate damages awards even where it has little,
if any connection to the patented invention. At the
same time, it constrains defendants’ ability to rely on
such later-acquired evidence to reduce hypothetical
negotiation-based royalties. See supra Part I.A.
This Court has frequently granted certiorari to
review the law of patent infringement damages to
maintain the statutorily required balance between
ownership and innovation. See, e.g., WesternGeco LLC
v. ION Geophysical Corp., 138 S.Ct. 2129 (2018)
(damages for foreign lost profits); Samsung Elecs. Co.,
Ltd. v. Apple Inc., 137 S.Ct. 429 (2016) (relevant
“article of manufacture” for design patent infringement damages); Halo Elecs., Inc. v. Pulse Elecs., Inc.,
136 S.Ct. 1923 (2016) (enhanced patent damages
under Section 284); Octane Fitness, LLC v. ICON
Health & Fitness, Inc., 572 U.S. 545 (2014) (attorney’s
fees in patent infringement cases). The Book of
Wisdom presents the same need as was presented in
those cases for reconciling the Federal Circuit’s selfmade patent damages rules with the text and purpose
of the Patent Act.

20
C. This Case Is An Ideal Vehicle To
Address The Book of Wisdom
The decision below squarely presents the Book of
Wisdom question in an ideal context, free from legal or
factual obstacles to resolution by this Court. In light
of the Federal Circuit’s exclusive jurisdiction over
patent cases, there can be no circuit split, and no
further development of the issue can reasonably be
expected or required. The Book of Wisdom has percolated through the decisions of the Federal Circuit for
many years. See supra Part I.A.
Rather than making this case unsuitable for review,
the Federal Circuit’s summary affirmance confirms
that it has spoken definitively on this question. This
Court has not hesitated to review important questions
that arise from a Federal Circuit summary affirmance,
as it did recently in Oil States Energy Services, LLC v.
Greene’s Energy Group, LLC, 138 S. Ct. 1365 (2018).
The summary affirmance, in fact, makes review more
appropriate. Summary affirmance in the Federal
Circuit is limited to cases “when the position of one
party is so clearly correct as a matter of law that no
substantial question regarding the outcome of the
appeal exists.” Joshua v. United States, 17 F.3d 378,
380 (Fed. Cir. 1994). The summary affirmance here
demonstrates that the misapplication of Sinclair is so
established that the Federal Circuit no longer views
the rule or its application as warranting any reasoned
opinion. There is no need to wait for another case to
come along before granting review of the Federal
Circuit’s ongoing misapplication of Sinclair.

21
II. The Decision Below Warrants Review For
Its Deviation From The General Verdict
Rule
The Court should also grant the petition on the
second question presented, for the decision below conflicts with this Court’s longstanding precedent that a
general damages verdict must be vacated and damages
recalculated where one of the grounds that might have
supported the verdict is later eliminated. As the
decision below exemplifies, the courts of appeals crafted
a multitude of conflicting “harmless error” exceptions
to that rule, warranting this Court’s review and
guidance.
A. The Decision Below Conflicts With This
Court’s Precedent
This Court has long held that a judgment based on
a general damages verdict in a multi-claim suit should
be vacated if liability for one of the claims is later
found legally unsupported. See Baldwin, 112 U.S. at
493 (“[The verdict’s] generality prevents us from
perceiving upon which plea they found. If, therefore,
upon any one issue error was committed, either in the
admission of evidence or the charge of the court, the
verdict cannot be upheld.”). Thus, where a court
partially reverses a general damages verdict premised
on multiple claims, judgment on that verdict may
not be entered, and a new damages trial is generally
required.
The general verdict rule is premised on the principle
that only the jurors who rendered a verdict understand the reasons behind it. Once one of the grounds
upon which the jury could have relied is rejected after
trial, “it is impossible to know, in view of the general
verdict returned whether the jury imposed liability on

22
a permissible or an impermissible ground[.]” Exxon
Shipping Co. v. Baker, 554 U.S. 471, 482 n.3 (2008)
(quoting Greenbelt Coop. Publ’g Ass'n v. Bresler, 398
U.S. 6, 11 (1970)). Respect for the role of the jury
under the Seventh Amendment thus dictates that “the
judgment be reversed and the case remanded.” Id.
(quoting Greenbelt Coop. Publ’g Ass’n, 398 U.S. at 482
n.3)).
In the 130 years since Baldwin, this Court has
repeatedly reaffirmed the general verdict rule in civil
cases. See, e.g., Spectrum Sports, Inc. v. McQuillan,
506 U.S. 447, 459-60 (1993) (reversing where general
“verdict did not negate the possibility that [it] rested
on” invalidated ground); City of Columbia v. Omni
Outdoor Adver. Inc., 499 U.S. 365, 384 (1991) (“The
jury’s general verdict . . . cannot be permitted to stand
(since it was based on instructions that erroneously
permitted liability . . .).”); Memphis Cmty. Sch. Dist. v.
Stachura, 477 U.S. 299, 312-13 (1986) (where “the
verdict does not reveal the means by which the jury
calculated damages,” an error in one theory supporting the verdict “‘is difficult, if not impossible, to correct
without retrial, in light of the jury’s general verdict’”)
(quoting Newport v. Fact Concerts, Inc., 453 U.S. 247,
256 n.12 (1981)); Greenbelt Coop. Publ’g Ass’n, 398
U.S. at 11 (“[W]hen ‘it is impossible to know, in view
of the general verdict returned,’ whether the jury
imposed liability on a permissible or an impermissible
ground, ‘the judgment must be reversed and the case
remanded.’” (quoting New York Times Co. v. Sullivan,
376 U.S. 254, 284 (1964)); New York Times, 376 U.S.
at 284 (reversal of punitive damages award required
vacatur of damages judgment, which did not differentiate between punitive and compensatory damages);
Sunkist Growers, Inc. v. Winckler & Smith Citrus
Prods. Co., 370 U.S. 19, 29-30 (1962) (reversing “one

23
theory of liability upon which [] general verdict may
have rested” and finding it “unnecessary . . . to explore
the legality of the other theories” as a result); United
New York & New Jersey Sandy Hook Pilots Ass’n v.
Halecki, 358 U.S. 613, 619 (1959) (“a new trial will be
required, for there is no way to know that the invalid
claim . . . was not the sole basis for the verdict”);
Wilmington Star Mining Co. v. Fulton, 205 U.S. 60, 7879 (1907) (reversing general verdict, reasoning it was
“impossible to say that prejudicial effort did not result”
even though no evidence had been introduced to
support the inadequate claims).
This Court has never suggested that a “harmless
error” exception applies to the general verdict rule.
To the contrary, this Court has stated that, “when it
is impossible to know, in view of the general verdict
returned whether the jury imposed liability on a permissible or an impermissible ground, the judgment
must be reversed and the case remanded.” Exxon
Shipping, 554 U.S. at 482 n.3 (quoting Greenbelt Coop.
Publ’g Ass’n, 398 U.S. at 11 (internal quotation marks
omitted; emphasis added)). This Court has also stated
that harmless error analysis does not apply in cases in
which it is too difficult to assess the effect of the error.
See, e.g., Vasquez v. Hillery, 474 U.S. 254, 263 (1986)
(“[W]hen a petit jury has been selected upon improper
criteria or has been exposed to prejudicial publicity,
we have required reversal of the conviction because
the effect of the violation cannot be ascertained.”);
United States v. Gonzalez-Lopez, 548 U.S. 140, 149 n.4
(2006) (“[W]e rest our conclusion of structural error
upon the difficulty of assessing the effect of the error.”).
That principle applies equally to cases involving
general verdicts premised in part on claims later
determined to be legally invalid. “No one but the

24
jurors can tell what was put into it and the jurors will
not be heard to say. The general verdict is as
inscrutable and essentially mysterious as the judgment which issued from the ancient oracle of Delphi.”
Skidmore v. Baltimore & Ohio R.R. Co., 167 F.2d 54,
60 (2d Cir. 1948) (quoting Edson R. Sunderland,
Verdicts, General and Special, 29 Yale L.J. 253, 258
(1920)). This Court has, therefore, never applied
harmless error analysis and scrutinized general
verdicts in an effort to discern what the jury would
have done in the absence of an invalid claim for relief.
Nor would application of harmless error analysis be
warranted here, where the invalidated claims of the
’691 patent covered an entire cochlear implant during
all phases of operation, while the claims of the ’616
patent related only to a system and method for a
doctor to test the implant.
B. The Circuits Are Deeply Divided On
Application Of The General Verdict
Rule
The courts of appeals are deeply divided over
whether a general damages verdict tainted by a legally
invalid claim may nonetheless be upheld based on
some type of harmless error exception. Some courts
have adhered to this Court’s general verdict rule and
required a new trial. But several, including the
district court as affirmed by the Federal Circuit in this
case, have engrafted various conflicting harmless
error exceptions onto the general verdict rule. Those
lower court decisions are “highly inconsistent in their
reasoning.” Ryan P. Phair, Appellate Review of MultiClaim General Verdicts: The Life and Premature
Death of the Baldwin Principle, 4 J. App. Prac. &
Process 89, 111 (2002).

25
The district court in this case first ruled that
Cochlear was entitled to a new damages trial under
the “normal rule” in light of the invalidation of one of
the patents in suit. It was only after remand from the
Federal Circuit that it reversed course and applied the
Ninth Circuit’s unique and idiosyncratic harmless
error exception,3 not followed by any other circuit. See
David Axelrad & Loren Kraus, The Federal General
Verdict Rule: Conflict in the Courts of Appeal, 43 Fed.
Law. 43, 43 (June 1996) (“The Ninth Circuit’s discretionary rule is in direct conflict with the general
verdict rule applied in the other circuit courts of
appeals.”). The Ninth Circuit holds that the decision
whether to grant a new trial under the general verdict
rule is discretionary and that this discretion should be
guided by four factors:
(1) the potential for confusion of the jury; (2)
whether the losing party’s defenses apply to
the count upon which the verdict is being
sustained; (3) the strength of the evidence
supporting the count relied upon to sustain
the verdict; and (4) the extent to which the
same disputed issues of fact apply to the
various legal theories.

3

Although appeal of this case was to the Federal Circuit, the
district court applied regional circuit law to this procedural issue.
The Federal Circuit has not decided whether regional circuit or
Federal Circuit law governs application of the general verdict
rule in patent cases. See WesternGeco L.L.C. v. ION Geophysical
Corp., 913 F.3d 1067, 1073-74 (Fed. Cir. 2019) (holding, without
addressing whether regional circuit law applied, that harmless
error review could sustain a general verdict if “there was no
dispute that the technology covered by [the valid claim], independent of the technology covered by the now-invalid claims . . . was
required to perform” the allegedly infringing acts).

26
Portland Feminist Women’s Health Center v. Advocates
for Life, Inc., 62 F.3d 280, 285-86 (9th Cir. 1995)
(quoting Traver, 627 F.2d at 938). When the Ninth
Circuit announced this test in Traver, it cited no
relevant precedent from this Court. Unsurprisingly,
the rule has been “controversial from the start.” Phair,
supra at 103. It has been criticized from within the
Ninth Circuit as contrary to this Court’s precedent, see
Kern v. Levolor Lortenzen, Inc., 899 F.2d 772, 790-92
(9th Cir. 1990) (Kozinski, J., dissenting), and been “the
target of vigorous and persuasive criticism,” Knapp v.
Ernst & Whinney, 90 F.3d 1431, 1439 (9th Cir. 1996).4
The Seventh Circuit also imposes its own unique
gloss on the general verdict rule. The Seventh Circuit
places the burden on the party seeking a new trial to
show the absence of harmless error. See McGrath v.
Zenith Radio Corp., 651 F.2d 458, 464 (7th Cir. 1981)
(jury verdict upheld unless defendant can “show that
under none of the [charged] rationales was plaintiff
entitled to the award of . . . damages”). This is “a
maverick rule precisely the opposite of that repeatedly
announced by the Supreme Court, . . . makes no sense
at all, never mind that it contravenes Supreme Court
authority,” Kern, 899 F.2d at 790-91 (Kozinski, J.,

4

See also Nathan Jack, Comment, Toward a Uniform Rule:
The Collapse of the Civil-Criminal Divide in Appellate Review of
Multitheory General Verdicts, 81 U. Chi. L. Rev. 757, 779 (2014)
(concluding that the Ninth Circuit “disregarded Baldwin entirely”);
Axelrad & Kraus, supra at 43-44 (“The Ninth Circuit’s general
verdict rule cannot be harmonized or reconciled with the Supreme
Court’s unqualified requirement that a judgment founded upon a
general verdict tainted by error must be reversed. . . . The
discretionary Ninth Circuit rule is completely incompatible with
the Supreme Court’s unqualified rule . . . .”).

27
dissenting), and “turn[s] Baldwin on its head,” Jack,
supra at 780.
The Tenth and Third Circuits have adopted a
narrower harmless error rule that applies only when
it is perfectly clear that the verdict did not rest on
the invalid theory. See, e.g., Anixter v. Home-Stake
Prod. Co., 77 F.3d 1215, 1229-31 (10th Cir. 1996)
(holding that even “remote” chance that jury was
influenced by erroneous legal instruction compels
remand under general verdict rule); Farrell v. Klein
Tools, Inc., 866 F.2d 1294, 1300-01 (10th Cir. 1989)
(requiring a new trial in the absence of “absolute
certainty” that the invalid claim did not influence the
verdict); Hurley v. Atl. City Police Dep’t, 174 F.3d 95,
122 (3d Cir. 1999) (the general verdict may stand only
where the invalid theory “could not by any stretch of
the imagination change the verdict”), abrogated on
other grounds by Potente v. Cnty. of Hudson, 900 A.2d
787, 794 (N.J. 2006). This rule has been criticized as
“contrary to precedent and exceedingly unwise.”
Hurley, 174 F.3d at 132 (Cowen, J., concurring in part
and dissenting in part).
The First, Second, Fourth, and Fifth Circuits apply
a less stringent harmless error analysis. Those courts
affirm the judgment when they are “sufficiently confident” or “reasonably sure” that the verdict was not
affected by the invalid claim. See Chowdhury v.
Worldtel Bangladesh Holding, Ltd., 746 F.3d 42, 50
(2d Cir. 2014) (applying “sufficiently confident” standard); Davis v. Rennie, 264 F.3d 86, 106 (1st Cir. 2001)
(applying “reasonably certain” standard); Tire Eng’g &
Distribution, LLC v. Shandong Linglong Rubber Co.,
Ltd., 682 F.3d 292, 314 (4th Cir. 2012) (similar); Muth
v. Ford Motor Co., 461 F.3d 557, 564-65 (5th Cir. 2006)

28
(similar). Rather than being a narrow exception to the
general verdict rule, these courts “have generously
applied the harmless error concept to rescue verdicts.”
Gillespie v. Sears, Roebuck & Co., 386 F.3d 21, 30 (1st
Cir. 2004).
The Sixth, Eighth, Eleventh, and D.C. Circuits, in
contrast, apply this Court’s rule of automatic reversal.
For example, in Loesel v. City of Frankenmuth, 692
F.3d 452, 468 (6th Cir. 2012), the Sixth Circuit held
that, when two claims were submitted to the jury, one
of which was insufficient, reversal was required. The
court noted that it had “consistently adhered” to the
“longstanding civil general verdict rule.” Id. (quoting
Virtual Maintenance, Inc. v. Prime Computer, Inc., 11
F.3d 660, 667 (6th Cir. 1993). Similarly, in Friedman
& Friedman, Ltd. v. Tim McCandless, Inc., 606 F.3d
494, 502-03 (8th Cir. 2010), the court reversed a jury
verdict in which “the verdict form did not differentiate
between damages for each of [the plaintiff’s] two claims,”
stating that, “when one of two theories has erroneously been submitted to the jury, a general verdict
cannot stand.” Id. (quoting Dudley v. Dittmer, 795
F.2d 669, 673 (8th Cir. 1986)). Accord Maccabees Mut.
Life Ins. Co. v. Morton, 941 F.2d 1181, 1184 (11th Cir.
1991) (reversing and remanding where the jury returned
a general verdict on three theories, and holding that
“this court must affirm that all three theories were
properly submitted to the jury to sustain the court
below”) (quoting Walden v. United States Steel Corp.,
759 F.2d 834, 838 (11th Cir. 1985)); N. Am. Graphite
Corp. v. Allan, 184 F.2d 387, 389 (D.C. Cir. 1950)
(“[S]ince there was a verdict without specification as
to which of the two counts it rested upon plaintiff must
be able to show that it was proper to submit both
counts to the jury; that is to say, failure to support
either would lead to reversal.”).

29
The circuits are, thus, applying five distinct standards to the question presented, four of which are
inconsistent with this Court’s precedent. Such conflict
and the uncertainty it generates warrant this Court’s
review.
C. Application Of The General Verdict
Rule
Presents
An
Exceptionally
Important Question of Post-Trial
Procedure
The second question also warrants review because it
presents an issue of exceptional nationwide importance.
“Whether an appellate court applies the correct or
incorrect standard for reviewing a general verdict
may determine whether the judgment is affirmed or
reversed, and can affect the outcome of an appeal more
dramatically and fundamentally than virtually any
other rule applied in the course of the litigation.”
Axelrad & Kraus, supra at 43; see also id. at 43-44
(“The problem presented by the Ninth Circuit’s
general verdict rule is of considerable importance. . . .
At some point, the Supreme Court should intervene
and articulate a clear standard to guide the lower
courts’ implementation of this fundamental rule of
federal procedure.”).
That every circuit has addressed this issue, often
many times, demonstrates how frequently it recurs.
Rarely has a legal issue resulted in the circuits applying five conflicting rules. See Elizabeth C. Moore,
Note, General Verdicts in Multi-Claim Litigation,
21 Mem. St. U. L. Rev. 705, 732 (1991) (“Given this
uncertainty among the circuits, the Supreme Court
should resolve this question . . . .”).
Indeed, the majority of federal civil cases are
decided by means of general verdicts. See Wright &

30
Miller, Federal Practice & Procedure § 2501 (3d ed.
Apr. 2020) (“Most jury-tried civil cases in federal
courts are resolved, and always have been, by a general verdict[.]”). The federal rules’ permissive approach
to joinder means that trials often involve multiple
claims for relief. The issue occurs especially frequently in patent cases because patentees often assert
multiple patents and/or multiple claims from each
patent. See Jonathan H. Ashtor, et al., Patents at
Issue: The Data Behind the Patent Troll Debate, 21
George Mason L. Rev. 957, 971 (2014) (“On average,
[patent assertion entities] assert 3.85 patents per case,
while other plaintiffs assert 2.22 patents per case.”).
Further, some portion of liability in patent cases is
very often vacated after trial or reversed on appeal.5
D. The Lower Court’s Waiver Ruling
Further Deepens The Circuit Split
The district court denied Cochlear’s request for a
new trial based on the general verdict on two grounds.
First, the district court concluded that Cochlear could
not meet the Ninth Circuit’s harmless error standard
for challenges to the general verdict. For the reasons
stated above, that issue calls for this Court’s consideration. Second, the district court, applying Ninth
Circuit law, concluded that Cochlear had waived the
argument by requesting a verdict form that required
the jury to return a general damages verdict rather
than particularizing damages on a claim-by-claim basis.

5

See PricewaterhouseCoopers, 2018 Patent Litigation Study
16 (2018), available at https://www.pwc.com/us/en/forensicserv
ices/publications/assets/2018-pwc-patent-litigation-study.html (concluding that, in 20-38% of appeals to the Federal Circuit of trial
decisions, “the appeal was both affirmed in part and reversed,
vacated or remanded in part”).

31
Rather than providing a basis to deny this petition,
the lower courts’ waiver ruling underscores the need
for guidance from this Court. This Court has never
found reliance on the general verdict rule waived or
waivable. Nevertheless, the circuit courts are hopelessly split on the standard for such waiver. The Fifth,
Seventh, Ninth, and Tenth Circuits have all required
the party relying on the general verdict rule to have
requested a special verdict form in order to avoid
waiver. Wellogix, Inc. v. Accenture, L.L.P., 716 F.3d
867, 878 (5th Cir. 2013); Fox v. Hayes, 600 F.3d 819,
847 (7th Cir. 2010); Anixter, 77 F.3d at 1231; McCord
v. Maguire, 873 F.2d 1271, 1274 (9th Cir. 1989).
The First, Second, Third, and Eighth Circuits, however, do not require the party seeking to rely on the
general verdict rule to have objected to the use of a
general verdict form. Friedman & Friedman, 606 F.3d
at 502 n.4; Gillespie, 386 F.3d at 30-31 (1st Cir. 2004);
Brokerage Concepts, Inc. v. U.S. Healthcare, Inc., 140
F.3d 494, 534-35 (3d Cir. 1998). In the Second Circuit,
for example, a party may rely on the general verdict
rule even where it affirmatively requested a general
verdict. Bruneau ex rel. Schofield v. S. Kortright
Central Sch. Dist., 163 F.3d 749, 759 (2d Cir. 1998),
abrogated on other grounds by Fitzgerald v. Barnstable
Sch. Comm., 555 U.S. 246 (2009).
Thus, both grounds for the lower court’s refusal to
grant a new trial raise important questions concerning
this Court’s general verdict rule on which the circuit
courts are deeply split. Neither of these circuit splits
is likely to be resolved absent this Court’s intervention. This Court should dispel these conflicts and
bring uniformity to the federal courts’ application of the
general verdict rule.

32
III. This Court Should Summarily Reverse
The Lower Court’s Failure To Require
Apportionment
This Court has required apportionment of damages
in patent cases for over 130 years. Garretson v. Clark,
111 U.S. 120 (1884). A patentee “must in every case
give evidence tending to separate or apportion the
defendant’s profits and the patentee’s damages between
the patented feature and the unpatented features.”
Id. at 121 (emphasis added). The Federal Circuit violated that bedrock rule by affirming a judgment based
on the unapportioned royalty from the Advanced
Bionics license applied to the unapportioned value of
Cochlear’s infringing products.
Summary reversal is appropriate because “[t]here
can be no serious doubt” that the decision below is
wrong, and the arguments in support of the judgment
below “were already rejected” elsewhere. Am. Tradition
P’ship v. Bullock, 567 U.S. 516, 516-17 (2012) (per
curiam). When a lower court has clearly “misapplied
settled law,” this Court “has not shied away from”
summarily reversing. Wearry v. Cain, 136 S. Ct. 1002,
1007 (2016) (per curiam).
The decision below violates Garretson’s apportionment requirement in two respects. First, AMF relied
on the Advanced Bionics license, which included
thirteen patents, two patent applications, and certain
“know-how.” While this agreement included a license
to the single patent Cochlear was found to infringe,
it also covered other technologies that all parties
agreed had value. AMF’s damages expert, Ms. Elsten,
however, did not apportion the value of the AMF
license, instead attributing the value of all of the
license’s royalty payments solely to the two patents

33
asserted in this case, one of which was later found to
be invalid.
Second, the judgment is based on damages calculated by applying the unapportioned royalty rate derived
from the Advanced Bionics license to an unapportioned
royalty base that included the entire value of Cochlear’s
infringing products. Ms. Elsten did not limit application of the royalty rate to only revenue attributable
to the patented invention by, for example, excluding
value attributable to non-infringing features of Cochlear’s
products. The damages award is, therefore, impermissibly based on the value of non-infringing features,
in plain violation of the apportionment required in
Garretson.
When this Court announced that the patentee must
prove apportionment in “every case,” Garretson, 111
U.S. at 121, it meant every case. The damages award
here was not apportioned, and summary reversal is
warranted.

34
CONCLUSION
The petition should be granted.
Respectfully submitted,
KATHLEEN M. SULLIVAN
Counsel of Record
THOMAS D. PEASE
KEVIN A. SMITH
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
51 Madison Avenue
22nd Floor
New York, NY 10010
(212) 849-7000
kathleensullivan@
quinnemanuel.com
Counsel for Petitioners
September 14, 2020

APPENDIX

1a
APPENDIX A
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
[Filed March 16, 2020]
————
2019-1201
————
ALFRED E. MANN FOUNDATION FOR SCIENTIFIC
RESEARCH, ADVANCED BIONICS, LLC,
Plaintiffs-Appellees,
v.
COCHLEAR CORPORATION, COCHLEAR LTD.,
Defendants-Appellants
————
Appeal from the United States District Court
for the Central District of California in
No. 2:07-cv-08108-FMO-SH,
Judge Fernando M. Olguin.
————
JUDGMENT
THOMAS M. PETERSON, Morgan Lewis & Bockius LLP,
San Francisco, CA, argued for plaintiff-appellee Alfred
E. Mann Foundation for Scientific Research. Also
represented by MICHAEL JOHN LYONS, MICHAEL
FRANCIS CARR, JASON EVAN GETTLEMAN, Palo Alto, CA.
DONALD MANWELL FALK, Mayer Brown, LLP, Palo
Alto, CA, for plaintiff-appellee Advanced Bionics, LLC.
Also represented by DAVID E. WANG.

2a
J. MICHAEL JAKES, Finnegan, Henderson, Farabow,
Garrett & Dunner, LLP, Washington, DC, argued for
defendants-appellants. Also represented by AARON
GLEATON CLAY, DAVID MROZ.
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (NEWMAN, LINN, and HUGHES, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
March 16, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2015-1580, 2015-1606, 2015-1607
————
ALFRED E. MANN FOUNDATION FOR SCIENTIFIC
RESEARCH, ADVANCED BIONICS, LLC,
Plaintiffs-Cross-Appellants,
v.
COCHLEAR CORPORATION, NKA COCHLEAR AMERICAS,
COCHLEAR LTD.,
Defendants-Appellants.
————
Appeals from the United States District Court for
the Central District of California in
No. 2:07-cv-08108-FMOSH,
Judge Fernando M. Olguin.
————
Decided: November 17, 2016
————
THOMAS M. PETERSON, Morgan, Lewis & Bockius LLP,
San Francisco, CA, argued for plaintiff-cross-appellant
Alfred E. Mann Foundation for Scientific Research.
Also represented by MICHAEL JOHN LYONS, EHSUN
FORGHANY, JASON EVAN GETTLEMAN, COREY RAY
HOUMAND, JACOB JOSEPH ORION MINNE, LINDSEY
M. SHINN, Palo Alto, CA; ESTHER K. RO, DANIEL
GRUNFELD, Los Angeles, CA.

4a
DONALD MANWELL FALK, Mayer Brown, LLP, Palo
Alto, CA, for plaintiff-cross-appellant Advanced Bionics,
LLC. Also represented by PAUL WHITFIELD HUGHES,
Washington, DC.
J. MICHAEL JAKES, Finnegan, Henderson, Farabow,
Garrett & Dunner, LLP, Washington, DC, argued for
defendants-appellants. Also represented by DAVID
MROZ; BRUCE G. CHAPMAN, Sheppard, Mullin, Richter
& Hampton LLP, Los Angeles, CA.
————
Before NEWMAN, CHEN, and HUGHES, Circuit Judges.
Opinion for the court filed by Circuit Judge HUGHES.
Opinion concurring in part, dissenting in part filed by
Circuit Judge NEWMAN.
HUGHES, Circuit Judge.
The Alfred E. Mann Foundation for Scientific Research
sued Cochlear Corporation and Cochlear Ltd. for
infringing claims 1 and 10 of U.S. Patent No. 5,609,616
and claims 6–7 of U.S. Patent No. 5,938,691, which
cover implantable cochlear stimulators. After conducting a jury trial and a bench trial on separate issues,
the district court entered judgment finding claim 10 of
the ’616 patent infringed and claim 1 of the ’616 patent
and claims 6–7 of the ’691 patent invalid for indefiniteness. The court also granted Cochlear’s JMOL of no
willful infringement and its motion for a new trial on
damages. Both parties appeal. Because we find that
the district court did not err in its infringement
determination or in finding claims 6–7 indefinite, but
did err in finding claim 1 indefinite, we affirm-in-part
and reverse-in-part. We vacate and remand the district
court’s determination regarding willfulness in light of
the Supreme Court’s decision in Halo Electronics, Inc.

5a
v. Pulse Electronics, Inc., 579 U.S., 136 S. Ct. 1923
(2016). We also conclude that we do not have jurisdiction over the damages issue.
I
The Alfred E. Mann Foundation for Scientific Research
(The Foundation) owns the ’616 and ’691 patents, and
formed Advanced Bionics, LLC (Advanced Bionics) to
manufacture implants. The Foundation sued Cochlear
Corporation and Cochlear Ltd. (Cochlear) for infringing the ’616 and ’691 patents, and Advanced Bionics
was later added as an involuntary plaintiff. Claims 1
and 10 of the ’616 patent and claims 6–7 of the ’691
patent are at issue in this appeal.
The patents are directed to an ear implant with
telemetry functionality for testing purposes, and
generally describe a two-part system comprising an
external wearable system with a wearable processor
(WP) and headpiece, and an internal implantable
cochlear stimulator (ICS). Sound is transmitted from
the headpiece to the WP, which processes the
transmissions before sending them to the ICS. The
ICS processes the sound to stimulate the cochlea—the
organ that converts sound to nerve impulses—via
implanted electrodes, thereby allowing the user to
hear. See ’616 patent, col. 3 11. 10–24.1 In addition, the
system allows testers, usually physicians, to measure
and adjust various parameters of the implant to assess
whether the device is functioning properly. Id. at col.
32 11. 34–54. The tester may observe the implant’s
functionality through the “physician’s tester.” As depicted
in Figure 6, the physician’s tester is a modification of
the previously described WP. Id. at col. 51–55.

1

The patents share substantially the same specification.

6a

The tester may interact with the ICS by adjusting
various knobs on the control panel 302, such that the
physician’s tester measures and displays different
parameters on visual display 304. Id. at col. 32 1. 65—
col. 33 1. 18. Table 7 of the patents describes “typical
parameter settings” for the control knobs, which in
turn dictate the parameters that are measured and
displayed. Id. at col. 33 11. 14–24. These parameter
settings include impedance, voltage, and output current.
Id. at col. 3311. 26–54.

7a
Cochlear’s accused system includes an implant with
a pair of electrodes, a speech processor worn behind
the patient’s ear, and diagnostic software used to test
the implant. After a physician inserts the implant and
electrodes, he can use the diagnostic software to send
stimulation signals through the electrodes and determine the impedance, which is the resistance to electrical
current. The accused system displays the results of the
impedance testing by depicting the electrodes as either
red or green, where an electrode displayed in red
indicates that the electrode has a circuit condition.
In addition to displaying a red or green electrode,
Cochlear’s system may also display the calculated
impedance value. Cochlear’s system does not display
the measured voltage across the two electrodes.
On January 23, 2014, the jury found that Cochlear
willfully infringed claims 1 and 10 of the ’616 patent
and claims 6–7 of the ’691 patent. The jury also found
that all of the asserted claims were not invalid under
§§ 102 or 103. The jury awarded approximately $131
million in damages. J.A. 59–70.
On March 31, 2015, the court conducted a bench
trial on equitable estoppel, laches, inequitable conduct,
prosecution history, and indefiniteness, and determined
that all of the asserted claims except for claim 10 of
the ’616 patent were invalid for indefiniteness. Id. at
47–56. On the same day, the court denied Cochlear’s
JMOL of noninfringement as to claim 10 of the ’616
patent, granted Cochlear’s JMOL of no willful infringement, and granted Cochlear’s motion for a new trial on
damages. Id. at 1024.
Cochlear appeals the court’s denial of its JMOL of
noninfringement as to claim 10 of the ’616 patent. The
Foundation and Advanced Bionics (collectively, CrossAppellants) appeal the court’s indefiniteness findings

8a
as to claim 1 of the ’616 patent and claims 6–7 of the
’691 patent, grant of Cochlear’s JMOL of no willful
infringement, and grant of Cochlear’s motion for a new
trial on damages. We have jurisdiction under 28
U.S.C. § 1295(a)(1).
II
We first address the district court’s denial of Cochlear’s
JMOL of noninfringement of claim 10 of the ’616
patent. We review the denial of a motion for judgment
as a matter of law under the law of the regional circuit.
Verizon Servs. Corp. v. Cox Fibernet Va., Inc., 602 F.3d
1325, 1331 (Fed. Cir. 2010). The Ninth Circuit reviews
the district court’s denial de novo. Rivero v. City & Cty.
of San Francisco, 316 F.3d 857, 863 (9th Cir. 2002).
Judgment as a matter of law is appropriate where
there is no legally sufficient evidentiary basis for a
reasonable jury to find for the party on that issue. Fed.
R. Civ. P. 50(a)(1). Cochlear raises two arguments
on appeal: first, the district court erred in construing
claim 10, and second, even under the district court’s
construction, Cochlear’s accused system does not infringe.
We address each of these arguments in turn.
A
Cochlear argues that claim 10 of the ’616 patent
requires that an infringing system must display the
voltage between two electrodes. Cochlear Br. at 31–32.
We review claim construction de novo, and underlying
factual determinations concerning extrinsic evidence
for clear error. Teva Pharm. USA, Inc. v. Sandoz, Inc.,
574 U.S. _, 135 S. Ct. 831, 841 (2015). We do not find
Cochlear’s arguments persuasive based on the claim
language, specification, and prosecution history. See
Phillips v. AWH Corp., 415 F.3d 1303, 1313–14 (Fed.
Cir. 2005) (en banc).

9a
Claim 10 of the ’616 patent reads, in relevant
part:
A method of testing an implantable tissue
stimulating system comprising : . . .
[f] selectively monitoring the at least one pair
of the multiplicity of electrodes to measure a
voltage associated therewith at the same time
the stimulation signals are applied thereto;
[g] generating stimulator status-indicating
signals representative of the measurements
made within the implanted stimulator;
[h] transmitting the stimulator status-indicating signals to an external receiver coupled
to the external transmitter;
[i] receiving and processing the status-indicating signals to produce processed statusindicating signals which convey information
regarding the status of the implanted stimulator, including the measurements made within
the implanted stimulator; and
[j] displaying the processed status-indicating
signals, whereby the status of the implanted
stimulator, including the results of the measurements made within the implanted stimulator,
may be made known.
’616 patent, col. 351. 43—col. 361. 7 (emphases added).
Cochlear first argues that voltage measurements
must be included in the processed status-indicating
signals because part (i) of the claim states that
“processed status-indicating signals . . . convey information . . . including the measurements made within
the implanted stimulator.” See Cochlear Br. at 36
(emphasis added). Cochlear reasons that part (i) “does

10a
not permit processing that calculates impedance values
from the voltage measurements without maintaining
the voltage measurements for display.” Id. We find
Cochlear’s argument unpersuasive in light of the claim
language as a whole.
While it is true that the “measurements made
within the implanted stimulator” in part (i) are the
voltage measurements according to the plain language
of the claim and the court’s construction, see J.A. 13,
part (g) defines the pre-processed status-indicating
signals as merely “representative” of these measurements, see ’616 patent, col. 35 11. 60–62. According to
part (i), the signals described in part (g) are further
processed such that they only “convey information
regarding the status of the implanted stimulator.” Id.
at col. 35 1. 66—col. 36 1. 3. Parts (g) and (i) together
make clear that the status-indicating signals, regardless of whether they are processed or not, only have to
convey information about the voltage measurements,
but do not require such information to be displayed.
Furthermore, Cochlear’s construction would require
us to find that to “convey” the voltage measurements,
the signals in part (i) must “display” this information.
There is no intrinsic support for this definition, which
would also render part (j) redundant under Cochlear’s
proposed construction. Merck & Co. v. Teva Pharm.
USA, Inc., 395 F.3d 1364, 1372 (Fed. Cir. 2005) (“A
claim construction that gives meaning to all the terms
of the claim is preferred over one that does not do so.”).
Cochlear next argues that the “whereby” clause in
part (j) is material to patentability such that voltage
must be made available for display. Cochlear Br. at
38. The district court determined that the “whereby”
clause merely provides a more illustrative expression
of the “displaying the status-indicating signals”

11a
limitation, and provides no additional restrictions on
the claim. J.A. 26436. We agree. There is no support
for Cochlear’s construction, particularly because parts
(g) and (i) of claim 10 make clear that the processed
status-indicating signals only have to convey information about the voltage measurements, but do not
have to include the measurements for display. In
addition, Cochlear’s construction would require us
to find that the term “may be made known” means
“available for display.” There is no support for this
interpretation, particularly because the limitation states
that only the processed status-indicating signals must
be displayed.
Cochlear’s proposed construction also conflicts with
the specification. As depicted in Figure 6, the control
knob 308 (the right most knob) is one of three knobs
that dictate “the parameters measured and displayed
by the ICS and Physician’s Tester combination.” ’616
patent, col. 33 11. 14–18. Positions 1–3 correspond to
the impedance, and are distinct from positions 4–7,
which correspond to the voltage. Id. at 11. 36–40
(Table 7). Because the specification envisions that
impedance, voltage, or the current may be displayed,
the voltage measurement does not have to be displayed as Cochlear argues.
The prosecution history also does not support
Cochlear’s proposed claim construction. In response to
a § 112 rejection, the patentee amended “voltages/
current” to “voltage” in part (f), and in response to a
§ 103 rejection, added parts (i) and (j). J.A. 15834–35.
Cochlear argues that the applicant made this amendment to specify that the voltage must be displayed.
Cochlear Br. at 38. But, it is clear that the patentee
amended the claim to distinguish the invention from
the prior art based on its real-time testing abilities.

12a
See J.A. 15843–44 (noting that the invention allowed
a physician to perform real-time testing, where a sensed
parameter (voltage) “is sent back to the physician’s
tester as part of a feedback signal were [sic] it is
displayed or otherwise processed. Such action thereby
provides, in effect, a ‘snapshot’, in real time, of the
selected parameter . . . .”). Though the Examiner
allowed the claim because “the prior art does not show
or suggest the measuring of the electrode voltage for
external display,” id. at 15850, an examiner’s unilateral statement does not give rise to a clear disavowal
of claim scope by the applicant, see Salazar v. Procter
& Gamble Co., 414 F.3d 1342, 1347 (Fed. Cir. 2005).
Here, the patentee did not argue that the voltage must
be displayed, instead focusing its arguments on the
real-time features of the invention.
In light of the intrinsic evidence, we reject Cochlear’s
proposed claim construction.
B
Cochlear argues that even under the district court’s
construction, its accused system does not infringe.
Infringement is a question of fact that we review
for substantial evidence when tried to a jury. Lucent
Techs., Inc. v. Gateway, Inc., 580 F.3d 1301, 1309
(Fed. Cir. 2009). Cochlear asserts that even though its
system may display the impedance value, the voltage
value is not “made known” as required by part (j) of
claim 10. Cochlear’s Br. at 43–44. The relationship
between voltage, impedance, and current is defined by
Ohm’s Law, where voltage = current x impedance.
Because there is sufficient evidence that the accused
system sets forth the current level associated with
each measurement, J.A. 4700, and voltage may be
measured by multiplying the current level by the
accused system’s displayed impedance value, there is

13a
substantial evidence that Cochlear’s accused system
infringes claim 10.
III
We next turn to Cross-Appellants’ cross-appeal on
the court’s indefiniteness determinations. The ultimate
determination of indefiniteness is a question of law
that we review de novo, although any factual findings
by the district court based on extrinsic evidence are
reviewed for clear error. UltimatePointer, LLC v.
Nintendo Co., 816 F.3d 816, 826 (Fed. Cir. 2016).
To satisfy the definiteness requirement, a meansplus-function claim requires sufficient disclosure of
the underlying structure. That task lies with the
patentee. E.g., Med. Instrumentation & Diagnostics
Corp. v. Elekta AB, 344 F.3d 1205, 1211 (Fed. Cir.
2003) (“The duty of a patentee to clearly link or associate structure with the claimed function is the quid
pro quo for allowing the patentee to express the claim
in terms of function under section 112, paragraph 6.”)
(citing Budde v. Harley–Davidson, Inc., 250 F.3d 1369,
1377 (Fed. Cir. 2001)); Valmont Indus., Inc. v. Reinke
Mfg. Co., 983 F.2d 1039, 1042 (Fed. Cir. 1993) (“The
applicant must describe in the patent specification
some structure which performs the specified function.”). In cases involving a computer-implemented
invention, we have held that the structure must be
more than a general purpose computer or a microprocessor, Aristocrat Techs. Austl. Pty Ltd. v. Int’l
Game Tech., 521 F.3d 1328, 1333 (Fed. Cir. 2008),
unless, in the rare circumstance, any general purpose
computer without any special programming can perform the function, see Ergo Licensing, LLC v.
CareFusion 303, Inc., 673 F.3d 1361, 1365 (Fed. Cir.
2012). Where the structure is a general purpose
computer or microprocessor, “[r] equiring disclosure of

14a
an algorithm properly defines the scope of the claim
and prevents pure functional claiming.” Ergo, 673
F.3d at 1364. An “algorithm” is “a step-by-step procedure for accomplishing a given result,” and may be
expressed “in any understandable terms including as
a mathematical formula, in prose, or as a flow chart,
or in any other manner that provides sufficient structure.” Id. at 1365 (citations and internal quotation
marks omitted). “Claim definiteness . . . depends on
the skill level of a person of ordinary skill in the art.
In software cases, therefore, algorithms in the specification need only disclose adequate defining structure
to render the bounds of the claim understandable to
one of ordinary skill in the art.” AllVoice Computing
PLC v. Nuance Commc’ns, Inc., 504 F.3d 1236, 1245
(Fed. Cir. 2007) (internal citations omitted).
A
Claim 6 of the ’691 patent reads, in relevant part:
A cochlea stimulation system, comprising:
[a] audio signal receiving means;
[b] an externally wearable signal processor
(WP) for receiving and processing the audio
signals received by the audio signal receiving
means and including means for generating
data indicative of the audio signal; . . . .
’691 patent, col. 341. 51–col. 351. 6 (emphasis added).
Claim 7 of the ’691 patent is dependent on claim 6,
and the reproduced portion of claim 6 is the only part
relevant here.
The limitation “means for generating data indicative of the audio signal” is a means-plus-function
limitation. Cross-Appellants do not dispute that the
function is “generating data indicative of the audio

15a
signal,” and the corresponding structure is a microprocessor. See J.A. 53; Foundation Br. at 54; Advanced
Bionics Br. at 20–21. A portion of Figure 1, depicting
the wearable system 10, is reproduced below, where
structure 30 is the microprocessor.

The district court found claims 6–7 indefinite because
the specification of the ’691 patent fails to disclose the
requisite algorithmic structure to perform the “means
for generating data indicative of the audio signal”
function. J.A. 53–56. Cross-Appellants argue that the
claims are not indefinite because the “microprocessor
implements a logarithmic conversion algorithm to

16a
generate data indicative of an audio signal.” J.A. 54.
According to Cross-Appellants, the algorithm performed
by the microprocessor has two steps: first, the microprocessor receives digital data from the A/D converter
28, and second, the microprocessor uses a logarithmic
conversion function to format the data. J.A. 33657.
The district court found the claims indefinite because
the ’691 patent does not disclose where the logarithmic
conversion function takes place and because the logarithmic conversion function could be implemented
through multiple logarithmic algorithms, none of which
the specification describes. J.A. 54–55. We agree that
the claims are indefinite for these reasons.
Cross-Appellants argue that the logarithmic conversion must be performed in the microprocessor. Foundation
Reply Br. 6. This argument conflicts with the testimony of both experts. Dr. Robert Stevenson, Cochlear’s
expert, explained that the logarithmic conversion could
be placed in the A/D convertor, or “[a]lternatively[,]
you could put this algorithm into the microprocessor.”
J.A. 2596, 11. 11–15. Dr. Darrin J. Young, CrossAppellants’ expert, testified that “[t]he patent doesn’t
say that” the logarithmic conversion must be done in
the microprocessor, J.A. 2617 11. 2–4, and agreed that
“[y]ou could implement a logarithmic function into
the [A/D] converter.” J.A. 2616, 11. 13–15. Since the
patent does not disclose which component performs
the logarithmic conversion function, the specification
does not disclose “with sufficient particularity the
corresponding structure for performing the claimed
function . . . .” Triton Tech of Tex., LLC v. Nintendo of
Am., Inc., 753 F.3d 1375, 1378 (Fed. Cir. 2014); see also
In re Katz Interactive Call Processing Patent Litig.,
639 F.3d 1303, 1315 (Fed. Cir. 2011); Blackboard,
Inc. v. Desire2Learn, Inc., 574 F.3d 1371, 1385 (Fed.
Cir. 2009) (“The question before us is whether the

17a
specification contains a sufficiently precise description
of the ‘corresponding structure’ to satisfy section 112,
paragraph 6, not whether a person of skill in the
art could devise some means to carry out the recited
function.”).
These claims are indefinite for another reason: the
logarithmic conversion may be implemented through
various unspecified algorithms. In describing some
additional possible algorithms, Dr. Young testified that
logarithmic conversions could be implemented using a
binary logarithmic algorithm or a lookup table.2 J.A.
2618, 11. 12–19. According to Dr. Young, the only limit
on the number of algorithms that could be used was
how “complicated you want to make the logarithmic
function.” J.A. 2617, 11. 5–9. For instance, Dr. Young
testified that a logarithmic function implemented in
the A/D converter would not be simple but would
have “multiplication factors” that would “need[] to be
programmed.” J.A. 2616, 11. 13–21.
As the testimony reflects, the ’691 patent does not
disclose an algorithm, or even a small set of algorithms
for performing the claimed logarithmic conversion
function. “Disclosing the broad class of [logarithmic
conversion] does not limit the scope of the claim to
the ‘corresponding structure, material, or acts’ that
perform the function, as required by Section 112.”
Triton Tech., 753 F.3d at 1379. Although CrossAppellants argue that a person of ordinary skill in the
art would know of potential logarithmic conversion
functions to implement, Foundation Br. 59–60, this
does not create structure in the patent where there
2

As the district court noted in evaluating the testimony, this
was inconsistent with Dr. Young’s earlier unequivocal declaration
that he “kn[e]w of no other way to implement such a logarithmic
algorithm in a DSP.” J.A. 55.

18a
was none to begin with. Triton Tech., 753 F.3d at 1379
(“Although a person of skill in the art might be able to
choose an appropriate numerical integration algorithm
and program it onto a microprocessor, the [p] atent
discloses no algorithm at all.”) (alteration in original).
Because the court did not err in finding claims 6–7
indefinite where the specification fails to disclose the
requisite structure, we affirm the district court’s
indefiniteness finding.
B
Claim 1 of the ’616 patent reads, in relevant part:
A physician’s testing system for testing a
multichannel cochlear stimulating system,
comprising a physician’s tester, an external
headpiece/transmitter, and an implanted
cochlear stimulator (ICS), . . .
[c] the physician’s tester comprising:
[1] external processor means coupled to
the transmitting means of the external
headpiece/transmitter for receiving and
processing the status-indicating signals
to derive information therefrom regarding
the operation of the implanted stimulator
and its plurality of tissue stimulating
electrodes; . . . .
’616 patent, col. 3411. 23–61 (emphases added).
The limitation “external processor means . . . for . . .
processing the status-indicating signals to derive information therefrom” is a means-plus-function limitation.
It is undisputed that the structure is the microprocessor. J.A. 50.
The district court rejected Cross-Appellants’ argument that the patent discloses a two-step algorithm,

19a
where first, the microprocessor accepts signals representative of voltage, and second, the microprocessor
applies Ohm’s law to convert the voltage into an
impedance value. Id. at 51. The court found claim 1
indefinite because the patent does not explicitly
identify Ohm’s law and there are multiple ways of
calculating impedance. Id. at 52. We disagree.
The specification discloses that both voltage and
current are measured, and that these values are
associated with the resulting “status-indicating signal.”
See, e.g., ’616 patent, col. 32 11. 36–42 (“[T]he system
of the present invention provides for ... measurement
of different voltages and currents within the ICS in
response to commands and data changes transmitted
by the WP in response to data telemetered back to the
WP in the form of status indicating and measurement
signals.”). Both parties’ experts testified that a person
of ordinary skill would know to apply Ohm’s law to
voltage and current to yield impedance values. See
J.A. 33662 (“[Impedance] is always calculated based
on the ratio of voltage to current. One of ordinary skill
in the art would readily understand from the disclosure in the ’616 patent that this [sic] the algorithm is
implemented. The algorithm for calculating impedance
is Ohm’s law, which is famous and well known to a
person of ordinary skill in the art.”); id. at 2586 at
68:11–18 (“Q: If you know what the current is that’s
being applied and you know what the voltage is being
measured, then you could use that information to
put it into the Ohm’s law equation and calculate
impedance; right? A: In this application where you
want to do something like this, you could do that.
There are other things you could do.”). The specification also discloses that impedance is calculated based
on voltage and current. ’616 patent, col. 31 11. 55–58
(“[B]oth the stimulus voltage and current can be

20a
measured and, thereby, the impedance of the electrode
and the tissue-electrode interface can be measured
and transmitted back to the WP.”). Because there is
“adequate defining structure to render the bounds of
the claim understandable to one of ordinary skill in the
art,” AllVoice, 504 F.3d at 1245, we reverse the district
court’s indefiniteness finding as to claim 1 of the ’616
patent.
IV
The jury found that Cochlear willfully infringed
claims 1 and 10 of the ’616 patent and claims 6–7 of
the ’691 patent. J.A. 63, 67. The court set this verdict
aside in granting Cochlear’s JMOL of no willful infringement. The court concluded that a reasonable jury
could not find that the objective prong of the Seagate
inquiry was established by clear and convincing
evidence, and that Cochlear had presented several
reasonable noninfringement defenses. Id. at 18–19.
Although the parties stipulated that “Cochlear was
aware of the ’691 patent and its subject matter by June
2004” and “was aware of the ’616 patent and its subject
matter by July 2003[,]” id. 265, the court determined
that the Foundation failed to satisfy the subjective
prong because (1) the Foundation did not provide presuit notice regarding the ’691 patent, and (2) Cochlear
responded with reasonable infringement defenses
after being notified of the ’616 patent, id. at 19.
In Halo, the Supreme Court rejected the Seagate
test for willful infringement as “unduly rigid” and
“impermissibly encumber[ing] the statutory grant
of discretion to district courts.” 136 S. Ct. at 1932
(internal citation and quotation marks omitted). The
Court rejected the Seagate test’s clear-and-convincing
standard of proof, as well as the tripartite framework
for appellate review. Id. at 1934 (“As we explained in

21a
Octane Fitness, ‘patent-infringement litigation has
always been governed by a preponderance of the
evidence standard.”‘ (citing Octane Fitness, LLC v.
ICON Health & Fitness, 572 U.S. __, 134 S. Ct. 1749,
1758 (2014))). The Court also rejected Seagate’s
requirement of “a finding of objective recklessness in
every case before district courts may award enhanced
damages.” Id. at 1932. “Such a threshold requirement
excludes from discretionary punishment many of the
most culpable offenders, such as the ‘wanton and
malicious pirate’ who intentionally infringes another’s
patent—with no doubts about its validity or any notion
of a defense—for no purpose other than to steal the
patentee’s business.” Id. The Court described “[t]he
sort of conduct warranting enhanced damages. . . .as
willful, wanton, malicious, bad-faith, deliberate, consciously wrongful, [or] flagrant . . . .” Id.
Cross-Appellants argue that, at a minimum, we
should vacate and remand the court’s grant of JMOL
on willfulness in light of Halo. We agree. On remand,
mindful of Halo’s “preponderance of the evidence
standard,” 136 S. Ct. at 1934, the court must consider
whether Cochlear’s infringement “constituted an ‘egregious case[] of misconduct beyond typical infringement’
meriting enhanced damages under § 284 and, if so, the
appropriate extent of the enhancement.” WesternGeco
L.L.C. v. ION Geophysical Corp., --- F.3d ---, 2016 WL
5112047, at *5 (Fed. Cir. Sept. 21, 2016) (quoting Halo,
136 S. Ct. at 1934).
Accordingly, we vacate the district court’s determination that Cochlear’s infringement of the Foundation’s
patents was not willful and remand for further
proceedings.

22a
V
Lastly, the court ordered a new trial on damages for
claim 10 of the ’616 patent and vacated the jury’s
damages award. J.A. 23. Cross-Appellants argue that
the court abused its discretion in granting Cochlear’s
motion. We lack jurisdiction to consider this issue.
Ordinarily, we apply regional circuit law to substantive and procedural issues not “intimately involved in
federal patent law.” Verinata Health, Inc. v. Ariosa
Diagnostics, Inc., 830 F.3d 1335, 1338 (Fed. Cir. 2016).
However, on matters concerning our jurisdiction, “we
apply our own law and not the law of the regional
circuit.” Spraytex Inc. v. DJS&T, 96 F.3d 1377, 1379
(Fed. Cir. 1996); see also Woodard v. Sage Prods., Inc.,
818 F.2d 841, 844 (Fed. Cir. 1987) (“[D]eference [to
regional circuit law] is inappropriate on issues of our
own appellate jurisdiction. This court has the duty to
determine its jurisdiction and to satisfy itself that an
appeal is properly before it.”).
“By statute, this court has jurisdiction over an
appeal of a decision of a district court if it is ‘final’
under 28 U.S.C. § 1295(a)(1) or if it is an interlocutory
order as specified in 28 U.S.C. § 1292.” Orenshteyn v.
Citrix Sys., Inc., 691 F.3d 1356, 1357 (Fed. Cir. 2012).
One exception to the foregoing is when the judgment
is final except for an “accounting.” 28 U.S.C. § 1292(c)(2);
see Robert Bosch, LLC v. Pylon Mfg. Corp., 719 F.3d
1305, 1309 (Fed. Cir. 2013) (en banc) (holding that an
“accounting” may include a trial on damages).
There has not been a final decision on the damages
issue. We are not persuaded by Cross-Appellants’
argument that the § 1292(c)(2) exception to the rule
of finality applies here. Under Bosch, the exception
allows us to consider the liability issues in this case,

23a
but does not go so far as to permit us to consider the
non-final order itself. Arlington Indus., Inc. v. Bridgeport
Fittings, Inc., 759 F.3d 1333, 1339 (Fed. Cir. 2014) (“As
an exception to the final judgment rule, § 1292(c)(2) is
to be interpreted narrowly.”). Clearly, if the parties
were only appealing the damages issue, we would not
have jurisdiction under § 1295(a)(1). The addition of
the liability issues in this case does not change our
jurisdictional reach. Orenshteyn, 691 F.3d at 1363–64
(dismissing as premature portion of invalidity and
sanctions appeal relating to sanctions because the
district court had not yet made a final determination
regarding the amount of the sanctions).
Cross-Appellants also argue that we have jurisdiction because of the district court’s certification of judgment
under Fed. R. Civ. P. 54(b). Foundation Reply Br. 24.
The Rule provides in relevant part: “[w]hen an action
presents more than one claim for relief . . . or when
multiple parties are involved, the court may direct
entry of a final judgment as to one or more, but fewer
than all, claims or parties only if the court expressly
determines that there is no just reason for delay.” Rule
54(b) was implemented to specifically “avoid the possible injustice of delay[ing] judgment on a distinctly
separate claim [pending] adjudication of the entire
case.” Gelboim v. Bank of Am. Corp. 135 S. Ct 897, 902
(2015) (alterations in original).
There are three prerequisites for invoking Rule
54(b): (1) multiple claims for relief or multiple parties
must be involved; (2) at least one claim or the rights
and liabilities of at least one party must be finally
decided; and (3) the district court must find that there
is no just reason for delaying an appeal. 10 Charles
Alan Wright et al., Federal Practice and Procedure
§ 2656 (3d ed. 2016). Because “the district court has no

24a
discretion to authorize an appeal when Rule 54(b) does
not apply, its decision that the requirements of the
rule have been met is fully reviewable by an appellate
court.” Id. at § 2655.
The district court’s entry of judgment on the damages
question does not meet the standards of Rule 54(b)
because damages have not been finally decided. In
Sears, Roebuck & Co. v. Mackey, the Supreme Court
discussed Rule 54(b):
[I]t does not relax the finality required of each
decision, as an individual claim, to render it
appealable, but it does provide a practical
means of permitting an appeal to be taken
from one or more final decisions on individual
claims, in multiple claims actions, without
waiting for final decisions to be rendered on
all the claims in the case.
351 U.S. 427, 435 (1956). The standard for finality
under Rule 54(b) is analogous to the standard under
28 U.S.C. § 1291 (or 28 U.S.C. § 1295). Id. at 438
(“[Rule 54(b)] scrupulously recognizes the statutory
requirement of a ‘final decision’ under § 1291 as a basic
requirement for an appeal to the Court of Appeals. It
merely administers that requirement in a practical
manner in multiple claims actions and does so by rule
instead of by judicial decision.”); see also Wright,
Federal Practice and Procedure § 2656. The Supreme
Court has explained that judgments “where assessment
of damages or awarding of other relief remains to be
resolved have never been considered to be ‘final’” for
purposes of Rule 54(b). Liberty Mut. Ins. Co. v. Wetzel,
424 U.S. 737, 744 (1976).
The issue of the propriety of the damages award
was not properly certified for appeal under Rule 54(b)

25a
because the district court ordered a new trial on
damages. A new trial is not a final order that falls
within Rule 54(b).3 See Allied Chem. Corp. v. Daiflon,
Inc., 449 U.S. 33, 34 (1980) (“An order granting a
new trial is interlocutory in nature and therefore
not immediately appealable.”). Therefore, because the
district court’s judgment does not fall within the scope
of Rule 54(b) or § 1292(c)(2)’s accounting exception, we
lack jurisdiction to consider whether the court erred in
ordering a new trial on damages.
VI
For the reasons stated herein, we affirm-in-part,
reverse-in-part, and vacate-in-part the district court’s
judgments and remand the case to the district court to
proceed in accordance with the holdings discussed herein.
AFFIRMED-IN-PART, REVERSED-IN-PART,
VACATED-IN-PART, AND REMANDED
No costs.

3

Since the question of what is “final” is sometimes a difficult
question, the Supreme Court has cautioned that the requirement
of “finality is to be given a ‘practical rather than a technical construction.’” Gillespie v. United States Steel Corp., 379 U.S. 148,
152 (1964) (quoting Cohen v. Beneficial Indus. Loan Corp., 337
U.S. 541, 546 (1949)). But the Supreme Court has noted that “[i]f
Gillespie were extended beyond the unique facts of that case,
§ 1291 would be stripped of all significance.” Coopers & Lybrand
v. Livesay, 437 U.S. 463, 477 n.30 (1978). We have similarly held
that the “‘exception to finality created by Gillespie is to be
very rarely used beyond the unique facts of that case.’” Spread
Spectrum Screening LLC v. Eastman Kodak Co., 657 F.3d 1349,
1356–57 (Fed. Cir. 2011) (quoting Fairchild Republic Co. v. United
States, 810 F.2d 1123, 1126 (Fed. Cir. 1987)). The facts of this
case do not fall within the unique circumstances of Gillespie,
which involved a claim under Ohio’s wrongful death statute and
general maritime law.

26a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2015-1580, 2015-1606, 2015-1607
————
ALFRED E. MANN FOUNDATION FOR SCIENTIFIC
RESEARCH, ADVANCED BIONICS, LLC,
Plaintiffs-Cross-Appellants,
v.
COCHLEAR CORPORATION, NKA COCHLEAR AMERICAS,
COCHLEAR LTD.,
Defendants-Appellants.
————
Appeals from the United States District Court for
the Central District of California in
No. 2:07-cv-08108-FMOSH,
Judge Fernando M. Olguin.
————
NEWMAN, Circuit Judge, concurring in part, dissenting
in part.
I agree that claim 10 of the ’616 patent is valid and
infringed, and I agree that claim 1 of the ’616 patent
is valid. Thus I join Parts II and III-B of the court’s
opinion. I also agree that, in view of changed law,
remand is appropriate on the issue of willful infringement, and to that extent I join Part IV of the court’s
opinion.
However, I do not share the court’s view that claims
6 and 7 of the ’691 patent are invalid for indefiniteness.
The district court’s finding of indefiniteness was
contrary to the testimony of the experts for both sides.

27a
I respectfully dissent from the court’s decision in Part
III-A.
As for the district court’s vacatur of the jury’s
damages verdict and order for a retrial of damages,
I do not agree that the order is immune from the
appellate review requested by the district court under
Rule 54(b). Thus I respectfully dissent from part V of
the court’s decision.
I
Indefiniteness of Claims 6 and 7
The court affirms the invalidation of claims 6 and 7
on the ground that the Foundation does not persuasively show that the microprocessor performs a
logarithmic conversion function. Maj. Op. at 14. This
position is contrary to the evidence presented by both
sides; Cochlear failed to carry its burden to present
clear and convincing evidence of invalidity on the
ground of indefiniteness.
The court also finds the claims indefinite because
the ’691 patent does not state which of several known
methods was used for the logarithmic conversion. The
specification expressly discloses the non-linear mapping
steps, and the experts for both sides agreed that
persons in the field of the invention know how to
perform the simple conversion, which was well-known
in the prior art.
The claims at issue, claims 6 and 7 of the ’691
patent, are challenged only for the clause here shown
in bold:
6. A cochlea stimulation system, comprising:
audio signal receiving means;
an externally wearable signal processor (WP)
for receiving and processing the audio signals

28a
received by the audio signal receiving means
and including means for generating data
indicative of the audio signal; means for transmitting the data to an implanted cochlear
stimulator (ICS), the ICS including:
means for transmission from the WP,
processor means for processing such transmissions to generate stimulation pulses
and for controlling the pulse width of the
stimulation pulses,
a plurality of electrically isolated capacitorcoupled cochlea stimulating electrodes for
receiving the stimulation pulses,
means in the ICS responsive to data from
the WP for selectively monitoring at least
one of the electrodes or voltages in the ICS
and for generating ICS-status-indicating
signals, and
means in the ICS for transmitting such
ICS-status-indicating signals to the WP;
and
means in the WP for receiving and processing the ICS-status-indicating signals.
’691 Patent, cl. 6. The structure described in the
specification for the “means for generating data indicative of the audio signal” is a microprocessor performing
a logarithmic conversion function.
The ’691 patent describes all of the claim elements
in the form that is customary in computer-facilitated
inventions: stating the function and how it is performed, in text, drawings, and flow-charts. The patent
explains that the cochlear electrodes mimic sound by
outputting stimulation signals in the cochlear electrodes

29a
with voltages between 0 and 2500 microamps. ’691
Patent, col. 6 11. 848. The specification includes a
detailed logarithmic schedule of steps corresponding
to the range of sounds. ’691 Patent, col. 4 11.43–64.
Sound waves are translated into digital information in
the D/A converter and then into the selected output
voltage in the microprocessor by a logarithmic conversion. ’691 Patent, col. 10, 11. 1–8. The patent teaches
that the means for generating “data indicative of the
audio signal” is a microprocessor performing a basic
logarithmic conversion, for which the specification
includes a look-up table. ’691 Patent, col. 611. 8–48.
Precedent requires that the court views the technology as it would be viewed by persons of skill in the field
of the invention. See Finisar Corp. v. DirecTV Grp.,
Inc., 523 F.3d 1323, 1340 (Fed. Cir. 2008) (“[T]he
specification must permit one of ordinary skill in the
art to ‘know and understand what structure corresponds to the means limitation.”‘). The overarching
requirement is that the particular factual situation
must be viewed, and definiteness evaluated, in the
same way as by persons in the field of the invention.
With respect to software-implemented systems, this
court has explained that:
Claim definiteness . . . depends on the skill
level of a person of ordinary skill in the art.
In software cases, therefore, algorithms in
the specification need only disclose adequate
defining structure to render the bounds of the
claim understandable to one of ordinary skill
in the art.
AllVoice Computing PLC v. Nuance Commc’ns, Inc.,
504 F.3d 1236, 1245 (Fed. Cir. 2007) (citations omitted). In Typhoon Touch Technology, Inc. v. Dell, Inc.,
659 F.3d 1376, 1386 (Fed. Cir. 2011), the court

30a
observed that “known computer-implement[ed] operations . . . are readily implemented by persons of skill
in computer programming.”
Logarithmic conversion has been known for centuries. The experts for both sides agreed that logarithmic
conversion is well-known, and that persons of skill
in the field of the invention would understand the
description of the logarithmic conversion in the claimed
system. Alfred E. Mann Found. for Sci. Res. v.
Cochlear Corp., No. 07-8108 FMO (SHx) (Testimony of
The Foundation Expert Dr. Young) (Dkt. 454) (“Your
output relationship is well defined. I can’t change the
log value. It’s a fixed function.”); Trial Tr. at 75, 11. 1–
11, Alfred E. Mann Found. for Sci. Res. v. Cochlear
Corp., No. 07-8108 (C.D. Cal. Jan. 22, 2014) (Dkt. 456)
(Testimony of Cochlear Expert Dr. Stevenson) (testifying that a logarithmic conversion is used because
“at the other end you want this exponential”); The
Foundation Expert Dr. Young Decl. at ¶ 17, Mann.
Found, No. 07-8108 (Dkt. 406) (“That [logarithmic]
algorithm is implemented with a simple logarithmic
lookup table.”). The ’691 patent includes a lookup table
containing the results of the calculations. ’691 Patent,
col. 4 11.43–64.
No witness for either side testified that a person of
skill in the field would have difficulty performing the
logarithmic conversion. No testimony on examination
or cross-examination placed this aspect in dispute. It
was not disputed that the conversion of sound into
“data indicative of the audio signal” is conventional
and was known and used in the operation of prior art
cochlear implants. No contrary evidence was presented,
and no contrary argument is offered. Nonetheless, my
colleagues find the claims indefinite on the ground
that there are “multiple logarithmic algorithms[] none

31a
of which the specification describes.” Maj. Op. at 14.
Precedent does not require that well-known formulas
must be stated in the specification, when they are
known in the relevant art.
A known procedure is not rendered indefinite when
there is more than one known way of carrying it out.
As stated in Ibormeith IP, LLC v. Mercedes-Benz USA,
LLC, 732 F.3d 1376, 1379 (Fed. Cir. 2013): “For a
claim to be definite, a recited algorithm, or other type
of structure for a section 112(f) claim limitation, need
not be so particularized as to eliminate the need for
any implementation choices by a skilled artisan.”
Here, there was no dispute that persons “skilled in the
particular art” would “understand what structure(s)
the specification discloses.” Amtel Corp. v. Information
Storage Devices, Inc., 198 F.3d 1374, 1382 (Fed. Cir.
1999).
Both parties’ experts and the district court agreed
that the invention necessarily employs a logarithmic
conversion. See Mann Found., 96 F. Supp. at 1051
(“While it may be necessary for the wearable processor
(WP) . . . to perform a logarithmic conversion, because
the implantable cochlear system includes an exponential D/A converter, it has not been established that
the logarithmic conversion must take place in the
microprocessor.”). It was not disputed that logarithmic
conversion was known for audio data, and had been
used in prior art cochlear implants.
My colleagues’ holding that it was necessary to
state which of the two or three known logarithmic
conversion routines was used, on pain of invalidity, is
unsupported by mathematics, reason, or precedent.
See S3 Inc. v. NVIDIA Corp., 259 F.3d 1364, 1371 (Fed.
Cir. 2001) (“[P]atent documents need not include
subject matter that is known in the field of the inven-

32a
tion and is in the prior art, for patents are written for
persons experienced in the field of the invention.”);
Intel Corp. v. VIA Techs., Inc., 319 F.3d 1357, 1366–67
(Fed. Cir. 2003) (implementation choices of “known
algorithms” are “properly left to the knowledge of
those skilled in the art, and need not be specified in
the patent”).
On similar facts, this court has held that claims are
not invalid for indefiniteness when expert testimony
“sets forth several straightforward ways that the
algorithm . . . could be implemented by one skilled in
the art.” AllVoice, 504 F.3d at 1245. On cross examination at trial, the Foundation’s expert, Dr. Young,
explained that no matter how a logarithmic conversion
is implemented, the algorithm will be the same: “your
output relationship is well defined. I can’t change the
log value. It’s a fixed function.” Alfred E. Mann Found.
for Sci. Res. v. Cochlear Corp., No. 07-8108 FMO (SHx)
(Testimony of The Foundation Expert Dr. Young)
(Dkt. 454).
A finding of invalidity based on indefiniteness
requires proof by clear and convincing evidence that
persons skilled in the field of the invention would not
be “able to perform the recited function” based on the
description in the specification and the knowledge in
the art. Intel Corp., 319 F.3d at 1366. This standard
controls, along with the truism that “[p]atent documents are written for persons familiar with the
relevant field . . . lest every patent be required to be
written as a comprehensive tutorial and treatise for
the generalist.” Verve, LLC v. Crane Cams, Inc., 311
F.3d 1116, 1119 (Fed. Cir. 2002).
The court errs in finding claims 6 and 7 invalid for
indefiniteness, upon new and ill-defined requirements
for patent specifications that are unrealistic and unnec-

33a
essary, adding burdens and pitfalls with no benefit
to anyone. The implementing structure “must be
sufficiently defined to render the bounds of the claim—
declared by section 112(f) to cover the particular
structure and its equivalents—understandable by
the implementer.” Ibormeith, 732 F.3d at 1379. As
computer-implemented technology continues to provide
new public benefits, consistency of judicial view is
essential to stability of the law and progress of the
technology.
II
Jurisdiction to review the Order for a new trial
The district court vacated the jury’s damages verdict,
Judgment at 2, Mann Found., No. 07-8108 (Dkt. 548),
and ordered a new trial on damages on the ground that
“the damages awarded by the jury were not broken
down as to each claim or patent,” Order Re: Post-Trial
Motions at 23, Mann Found., No. 07-8108 (Dkt. 540).
My colleagues hold that this court lacks jurisdiction
to review the district court’s order of vacatur and a
new trial, holding that the district court abused its
discretion in certifying and entering judgment under
Rule 54(b), on the theory that there is not a final
decision on damages. Maj. Op. at 2021. The vacatur
order is reviewable under either the district court’s
Rule 54(b) certification or under 28 U.S.C. § 1292(c)(2).
The district court entered “[j]udgment . . . in favor of
Defendants as to the vacatur of the jury’s damages
award,” Judgment at 2. Thus the district court assured
that its judgment of vacatur was appealable. Mann.
Found, No. 07-8108 (Dkt. 547). Precedent and sound
practice counsel that we attend to this appeal
requested by the district court.
The Supreme Court does not view the requirement
of finality as strictly “jurisdictional,” but as a matter

34a
of practical jurisprudence and comity. The Court has
counseled that “the requirement of finality is to be
given a practical rather than a technical construction.”
Gillespie v. United States Steel Corp., 379 U.S. 148,
152 (1964) (internal quotations omitted); see American
Export Lines, Inc. v. Alvez, 446 U.S. 274, 279 (1980)
(“[N]ow that the case is before us . . . the eventual
costs, as all the parties recognize, will certainly be less
if we now pass on the questions presented here rather
than send the case back with those issues undecided.”)
(alterations original) (citing Gillespie, 379 U.S. at 153)).
In White v. New Hampshire Department of Employment
Security, the Court observed that “district courts have
ample authority to deal with” the “problem” of piecemeal
appeals. Here, the district court prudently exercised
such authority, entering judgment as to the vacatur of
the jury’s damages verdict and certifying the issue
under Rule 54(b).
The district court vacated the damages verdict that
was fully tried on the jury instruction submitted by
Cochlear, the party now complaining of the result. The
verdict form, proposed and accepted by Cochlear,
instructed the jury:
25. If you find that the Cochlear Defendants
have infringed a valid claim of either the
’616 patent or the ’691 patent, what is the
reasonable royalty rate that the Cochlear
Defendants should pay to the Foundation?
The jury answered: 7.5%. Verdict Form, Mann Found.,
No. 07-8108 (Dkt. 460). The Foundation argues that
the instructions were correct and Cochlear’s post-trial
objection waived, and also that the verdict is well
supported by the evidence.
Precedent and sound practice provide appellate
jurisdiction of the vacatur order. The Ninth Circuit,

35a
whose precedent controls as to procedural matters in
its district courts, has recognized that appellate
review must promote judicial efficiency and sensible
litigation economy. See Wabol v. Villacrusis, 958 F.2d
1450, 1455 (9th Cir. 1990) (“Though the remaining
issues could eventually ascend to this court, this alone
should not prevent our adjudication of important and
potentially dispositive questions which have been fully
briefed and argued. Such a result would disserve the
cause of judicial economy and therefore frustrate the
very purpose of the final judgment rule.”). This is
particularly true when, as here, the district court
invokes appellate review. Id. at n.7 (“Significantly, our
exercise of jurisdiction will not interfere with the
course of the trial. The trial court purported to issue a
final judgment.”).
If the proposed new trial were to proceed, it would
be on the basis of separating the damages assessment
by patent and claim, as the district court apparently
was persuaded after the verdict was rendered. However, Cochlear presented the verdict form that the
district court accepted and used. The Ninth Circuit
counsels reluctance to “allow litigants to play procedural brinkmanship with the jury system and take
advantage of uncertainties they could well have
avoided.” McCord v. Maguire, 873 F.2d 1271, 1274 (9th
Cir. 1989) (holding that litigants have the responsibility to request or submit special verdict forms); see also
Mitsubishi Elec. Corp. v. Ampex Corp., 190 F.3d 1300,
1304 (Fed. Cir. 1999) (party forfeited post-trial challenge on the ground that a special verdict should have
been obtained, by proposing and accepting a verdict
form that did not separate the potential grounds of
invalidity).
Nor was the verdict form that was adopted incorrect
in law. It was not disputed that the royalty base

36a
was the same as to any of the four claims, such that
infringement of any claim would produce the same
damages calculation. On this premise, the evidence
presented by both parties did not differentiate among
the four claims and two patents. See TiVo, Inc. v.
EchoStar Commc’ns Corp., 516 F.3d 1290, 1312 (Fed.
Cir. 2008) (“Because the damages calculation at trial
was not predicated on the infringement of particular
claims, and because we have upheld the jury’s verdict
that all of the accused devices infringe the software
claims, we affirm the damages award.”); SK Hynix Inc.
v. Rambus Inc., 2013 WL 1915865, at *15 (N.D. Cal.
May 8, 2013) (denying new trial where “damages were
awarded based upon infringement by particular products,
not upon infringement of particular patent claims”).
Cochlear concedes that “[t]he evidence . . . did not
give the jury any way to assess a royalty rate assuming
infringement of fewer claims or patents.” Cross-Appellee
Resp. Br. at 28. The concession that the evidence of
record provided no way to differentiate among infringement by claim or patent, distinguishes this case from
the facts of DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245, 1262 (Fed. Cir. 2014), where this court
remanded to determine whether the invalidation of
one patent might affect the damages calculation. The
evidence, instructions, and damages theories presented led the jury to a single, permissible conclusion:
that a reasonable royalty for the invention—back
telemetry—was required to compensate the Foundation
for infringement of even a single claim.
Precedent and sound practice establish the appellate
obligation to review this grant of a new trial. Such
review is not barred. From the court’s contrary
holding, I respectfully dissent.

37a
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
[Filed November 4, 2018]
————
Case No. CV 07-8108 FMO (SHx)
————
ALFRED E. MANN FOUNDATION FOR
SCIENTIFIC RESEARCH, et al.,
v.

Plaintiffs,

COCHLEAR CORPORATION, et al.,
Defendants.
————
ORDER RE: PENDING MOTIONS
Having reviewed and considered all the briefing and
exhibits filed with respect to: (1) Defendant’s Renewed
Motion for Judgment as a Matter of Law of No
Infringement of Claim 1 of the ’616 Patent (Dkt. 5801, “JMOL Motion”); (2) Plaintiff’s Motion for Judgment
Entering the Jury Damages Award (Dkt. 579, “Damages Motion”); (3) Plaintiff’s Motion for Enhanced
Damages (Dkt. 602, “Enhanced Damages Motion”);
and (4) Plaintiff’s Motion to Strike Defendant’s Supplemental Brief Regarding Damages from January 1,
2014, to March 11, 2014 (Dkt. 616, “Motion to Strike”),
the court finds that oral argument is not necessary to
resolve the motions, see Fed. R. Civ. P. 78; Local Rule
7-15; Willis v. Pacific Maritime Ass’n, 244 F.3d 675,
684 n. 2 (9th Cir. 2001), and concludes as follows.

38a
BACKGROUND
Plaintiff Alfred E. Mann Foundation for Scientific
Research (“plaintiff,” “AMF,” or “Foundation”) filed
this action, alleging that defendants Cochlear Corporation (n/k/a Cochlear Americas) and Cochlear Ltd.
(collectively, “Cochlear” or “defendant”) infringed two
patents directed to cochlear implant technology. (See
Dkt. 164, First Amended Complaint (“FAC”) at ¶¶ 17
& 21-23). Plaintiff alleges that Cochlear infringed U.S.
Patent No. 5,938,691, entitled Multichannel Implantable Cochlear Stimulator (“the ’691 patent”), and U.S.
Patent No. 5,609,616, entitled Physician’s Testing
System and Method for Testing Implantable Cochlear
Stimulator (“the ’616 patent”).1 (See id. at ¶¶ 15 & 1723). Advanced Bionics, LLC (“AB”), the exclusive
licensee of the patents-in-suit, was joined as an
involuntary plaintiff on January 13, 2014. (See Dkt.
399, Court’s Final Pretrial Conference Order of
January 13, 2014 (“Final Pretrial Order”) at 1).
The court conducted a jury trial, in which the jury
found that Cochlear infringed claims 1 and 10 of the
’616 patent, and claims 6 and 7 of the ’691 patent. (See
Dkt. 460, Jury Verdict at 1-4 & 5-8). The jury also
found willful infringement of both patents, (see id. at
4 & 8), and that the patents were not invalid based on
defendant’s obviousness and anticipation defenses.
(See id. at 4-5 & 8-9). The jury awarded $131,216,325
in damages, based on a royalty rate of 7.5%, and
provided an advisory verdict in favor of plaintiff on
inequitable conduct. (See id. at 9-10).
1

The ’691 patent is generally directed to a cochlea stimulation
system. (See Dkt. 581-7, ’691 patent). The ’616 patent is generally
directed to a system and a method for testing such a system. (See
Dkt. 580-4, ’616 patent).

39a
On March 31, 2015, the court issued its findings of
fact and conclusions of law following the bench trial,
and determined that all claims except claim 10 of the
’616 patent were invalid for indefiniteness. (See Dkt.
539, Court’s Order of March 31, 2015, at 23-32). Also,
on March 31, 2015, the court issued its Order Re: PostTrial Motions, which granted defendant’s Rule 502
motion in part and set aside the jury’s finding of willful
infringement. (See Dkt. 540, Court’s Order of March
31, 2015, Re: Post-Trial Motions at 12-13). The court
also granted Cochlear’s Rule 59 motion for a new trial
on damages. (See id. at 16-17). The court entered
judgment pursuant to Rule 54(b), (see Dkt. 548,
Judgment), and the parties cross-appealed. (See Dkt.
550, Cochlear’s Notice of Appeal; Dkt. 552, AMF’s
Notice of Appeal; Dkt. 553, AB’s Notice of Appeal).
On November 16, 2016, the Federal Circuit Court of
Appeals issued its decision, which affirmed the court’s
finding that the ’691 patent was invalid for indefiniteness, but reversed the court’s indefiniteness finding as
to claim 1 of the ’616 patent. See Alfred E. Mann
Foundation v. Cochlear Corp., 841 F.3d 1334, 1341-45
(Fed. Cir. 2016) (“Alfred Mann”). The Federal Circuit
also vacated the court’s finding that Cochlear’s
infringement was not willful, in light of the Supreme
Court’s decision in Halo Electronics, Inc. v. Pulse
Electronics, Inc., 136 S.Ct. 1923 (2016) (“Halo”). See id.
at 1345-46. Finally, the Federal Circuit determined
that it lacked jurisdiction to review the court’s Rule 59
order granting defendant’s motion for a new trial on
damages. See id. at 1346-48.

2

Unless otherwise noted, all “Rule” references are to the
Federal Rules of Civil Procedure.

40a
DISCUSSION
I. NON-INFRINGEMENT OF CLAIM 1 OF THE
’616 PATENT.
Defendant asserts that the court’s invalidity ruling
“rendered Cochlear’s post-trial JMOL motion with
respect to claim 1 of the ’616 patent moot[,]” and that
the Federal Circuit’s remand does not prevent the
court from “address[ing] the open issue of JMOL of
non-infringement as to claim 1 of the ’616 patent.”
(Dkt. 580-1, JMOL Motion at 2). Plaintiff responds
that by not appealing the denial of its motion for judgment of non-infringement as to claim 1 of the ’616
patent, defendant waived its right to renew its JMOL
Motion. (Dkt. 584, Plaintiff’s Opposition to Defendant’s Renewed Motion for Judgment as a Matter of
Law [] (“JMOL Opp.”) at 4-7).
The Rule 54(b) judgment entered by the court states
that “[e]xcept for the issue of damages for infringement of claim 10 of U.S. Patent No. 5,609,616, this
Judgment resolves all claims, counterclaims and
defenses of all the parties.” (Dkt. 548, Judgment at 2)
(emphasis added). This judgment is consistent with
the court’s intent in entering a Rule 54(b) judgment,
i.e., that all issues and claims other than the issue of
damages for claim 10 had to be disposed of completely
before they could be appealed to the Federal Circuit.
Had Cochlear made it clear to the court that it
intended to preserve its non-infringement argument
as to claim 1, the court would not have agreed to enter
the Rule 54(b) judgment pursuant to the parties’
stipulation, as it would have undermined the purpose
of entering the Rule 54(b) judgment in the first place,
i.e., to resolve all liability claims and issues other than
damages as to claim 10.

41a
“If the district court enters judgment on something
less than a final disposition of an entire claim, the
Rule 54(b) judgment is improper, and the court of
appeals is without jurisdiction to hear the appeal.” 10
Moore’s Federal Practice § 54.22[2][a][i] at 54-38
(2018). Here, when the court decided that claim 1 was
invalid, it necessarily adjudicated plaintiff’s entire
patent infringement claim.3 See W.L. Gore v. Int’l
Medical Prostethetics Research, 975 F.2d 858, 863-64
(Fed. Cir. 1992) (when district court decided that
patent was invalid, it necessarily adjudicated plaintiff’s entire patent infringement claim, even though
affirmative defense of patent misuse was never explicitly addressed). Cochlear’s non-infringement argument as to claim 1 of the ’616 patent is nothing more
than an alternative defense theory as to why plaintiff
should not prevail on its patent infringement claim.
But considering the merits of Cochlear’s alternative
non-infringement argument necessarily implies that
the court’s Rule 54(b) judgment was not final with
respect to plaintiff’s patent infringement claim as to
3

Cochlear’s reliance on Laitram Corp. v. NEC Corp., 115 F.3d
947 (Fed. Cir. 1997), (see Dkt. 580-1, JMOL Motion at 2; Dkt. 591,
JMOL Reply at 2 & 8), is unpersuasive. Laitram did not involve
a Rule 54(b) judgment, and thus there was no issue as to the
finality of a particular claim. See also 10 Moore’s Federal Practice
§ 54.22[2][a][i] at 54-37 (2018) (“[A]n order partially adjudicating
a . . . multi-claim action may be certified for appeal under Rule
54(b) only if the order meets [28 U.S.C.] § 1291’s standard of
finality as to the matters adjudicated. Stated another way, a
district court has the power to enter a Rule 54(b) judgment only
if the adjudication is a ‘final decision’ under § 1291, but is not
immediately appealable solely because of pending, unadjudicated
claims in the district court.”). Also, in Laitram, the JMOL
motions were expressly denied as “moot,” see 115 F.3d at 949,
whereas here, the “Judgment resolve[d] all claims, counterclaims
and defenses of all the parties.” (Dkt. 548, Judgment at 2).

42a
claim 1 of the ’616 patent. See, e.g., In re Ishihara
Chemical Co., 251 F.3d 120, 123-34 n. 1 (2nd Cir. 2001)
(court of appeals may not, under Rule 54(b), review
order deciding only part of a single claim, or decision
that denies relief pursuant to one theory of recovery,
where alternative theories have been presented). In
other words, the logical implication of defendant’s
argument is that the Federal Circuit did not have
authority to address claim 1 of the ’616 patent because
the court’s Rule 54(b) judgment did not fully decide
that patent infringement claim. “Rule 54(b) was
implemented to specifically avoid the possible injustice of delay[ing] judgment on a distinctly separate
claim [pending] adjudication of the entire case.” Alfred
Mann, 841 F.3d at 1347 (internal quotation marks
omitted). Here, the court’s Rule 54(b) “Judgment
resolve[d] all claims, counterclaims and defenses of all
the parties[,]” (Dkt. 548, Judgment at 2), and Cochlear
never argued to the Federal Circuit that this court had
improperly entered a Rule 54(b) judgment. Also,
nothing prevented Cochlear from arguing, in the
alternative, that substantial evidence did not support
the jury’s verdict. See, e.g., Warner Chilcott Co., LLC
v. Lupin Ltd., 578 F.Appx. 994, 996 (Fed. Cir. 2014)
(explaining that where a party appeals a validity
decision, the appellee “may . . . make its arguments
regarding non-infringement and indefiniteness in its
response brief as an appellee”).
Finally, the Federal Circuit found that the court’s
order granting a new trial on damages was not a final
order within the meaning of Rule 54(b). See Alfred
Mann, 841 F.3d at 1348. The Federal Circuit implicitly
found, as the Judgment expressly states, that the
court’s Rule 54(b) judgment encompassed all claims
and issues relating to the claims and patents upon
which the jury rendered a verdict. Had the appellate

43a
panel believed that any issues of liability remained as
to any of the patent claims, it would have indicated as
much and found that the court had improperly entered
a Rule 54(b) judgment. See, e.g., In re Ishihara
Chemical Co., 251 F.3d at 123-34 n. 1; In re Lull Corp.,
52 F.3d 787, 788-89 (8th Cir. 1995) (because court did
not address sufficiency of defendant’s affirmative
defense of set-off, summary judgment on some of
plaintiff’s claims could not be final and court erred in
entering judgment under Rule 54(b)).
In short, the court finds that Cochlear waived its
non-infringement argument by not raising it on
appeal. See Retractable Technologies, Inc. v. Becton
Dickinson & Co., 757 F.3d 1366, 1371 (Fed. Cir. 2014),
cert. denied, 135 S.Ct. 1843 (2015) (while a court is
“free to take action consistent with the mandate, . . .
that does not mean that it [is] likewise free to disturb
matters that were within [that] mandate.”). Still,
given the age and extensive procedural history of this
case, the court will, out of an abundance of caution,
assume that defendant may still challenge the jury’s
infringement verdict as to claim 1 of the ’616 patent
and proceed to address defendant’s JMOL Motion on
the merits.
A. Legal Standard.
Under Rule 50, a district court may grant judgment
as a matter of law4 “when the evidence permits only
one reasonable conclusion and the conclusion is
contrary to that reached by the jury.” Ostad v. Oregon
Health Sciences University, 327 F.3d 876, 881 (9th Cir.
2003). If there is substantial evidence to support the
4

A motion for judgment as a matter of law “is not a patent-law
specific issue, so regional circuit law applies.” Harris Corp. v.
Ericsson, Inc., 417 F.3d 1241, 1248 (Fed. Cir. 2005).

44a
jury’s verdict, the court should deny a motion for
judgment as a matter of law. See Wallace v. City of San
Diego, 479 F.3d 616, 624 (9th Cir. 2007). “Substantial
evidence is such relevant evidence as reasonable
minds might accept as adequate to support a conclusion even if it is possible to draw two inconsistent
conclusions from the evidence.” Maynard v. City of
San Jose, 37 F.3d 1396, 1404 (9th Cir. 1994). “[T]he
court must not weigh the evidence, but should simply
ask whether the plaintiff has presented sufficient
evidence to support the jury’s conclusion.” Wallace,
479 F.3d at 624. The court must “view the evidence in
the light most favorable to the nonmoving party . . .
and draw all reasonable inferences in that party’s
favor.” EEOC v. Go Daddy Software, Inc., 581 F.3d
951, 961 (9th Cir. 2009), cert. denied, 562 U.S. 827
(2010) (“Go Daddy”) (citations and internal quotation
marks omitted).
B. Applicable Law.
A finding of patent infringement involves a two-step
analysis. “First, the claims of the patent must be
construed to determine their scope. Second, a determination must be made as to whether the properly
construed claims read on the accused device.” Pitney
Bowes, Inc. v. Hewlett-Packard Co., 182 F.3d 1298,
1304 (Fed. Cir. 1999) (internal citation omitted).
“[T]he accused device infringes if it incorporates every
limitation of a claim, either literally or under the doctrine of equivalents.” MicroStrategy Inc. v. Business
Objects, S.A., 429 F.3d 1344, 1352 (Fed. Cir. 2005)
(internal quotation marks omitted).
“To prove literal infringement, the patentee must
show that the accused device contains every limitation
in the asserted claims.” WMS Gaming, Inc. v. Int’l
Game Technology, 184 F.3d 1339, 1350 (Fed. Cir.

45a
1999) (internal quotation marks omitted). “If even one
limitation is missing or not met as claimed, there is no
literal infringement.” Id. (internal quotation marks
omitted). Literal infringement can also be demonstrated under structural equivalents, pursuant to 35
U.S.C. § 112(f) (“§ 112(f)”).5 See Dawn Equipment Co.
v. Kentucky Farms Inc., 140 F.3d 1009, 1018 (Fed. Cir.
1998). Under structural equivalents, “when an
accused product satisfies such claim limitations by
way of structure equivalent to that described in the
specification (and otherwise satisfies the requirements
for infringement), the infringement is deemed literal
infringement.” Id. (emphasis in original); see Al-Site
Corp. v. VSI Int’l, Inc., 174 F.3d 1308, 1320 (Fed. Cir.
1999) (“Section 112, ¶ 6 restricts the scope of a functional claim limitation as part of a literal infringement
5

Means-plus-function treatment pursuant to § 112(f) (previously 35 U.S.C. § 112, ¶ 6) provides that a limitation of a claim
“may be expressed as a means . . . for performing a specified
function without the recital of structure, material, or acts in
support thereof[.]” 35 U.S.C. § 112(f).
When so expressed, “such claim [limitation] shall be construed
to cover the corresponding structure, material, or acts described
in the specification and equivalents thereof.” Id. To determine
whether a claim is subject to such means-plus-function treatment, the court applies the following framework. “If the word
‘means’ appears in a claim [limitation] in association with a
function, th[e] court presumes that § 112, ¶ 6 applies.” Micro
Chemical, Inc. v. Great Plains Chemical Co., 194 F.3d 1250, 1257
(Fed. Cir. 1999) (“Micro Chemical”). “This presumption collapses,
however, if the claim itself recites sufficient structure, material,
or acts to perform the claimed function.” Id. “Without the term
‘means,’ a claim [limitation] is presumed to fall outside meansplus-function strictures.” Id. “Once again, however, that presumption can collapse when an element lacking the term ‘means’
nonetheless relies on functional terms rather than structure or
material to describe performance of the claimed function.” Id.

46a
analysis. Thus, an equivalent under § 112, ¶ 6 informs
the claim meaning for a literal infringement
analysis.”) (internal citation omitted).
“A finding of infringement under the doctrine of
equivalents requires a showing that the difference
between the claimed invention and the accused product was insubstantial. One way of doing so is by
showing on a limitation by limitation basis that the
accused product performs substantially the same function in substantially the same way with substantially
the same result as each claim limitation of the
patented product.”6 Crown Packaging Technology, Inc.
v. Rexam Beverage Can Co., 559 F.3d 1308, 1312 (Fed.
Cir. 2009) (citations omitted); see Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722,
733, 122 S.Ct. 1831, 1838 (2002) (“The doctrine of
equivalents allows the patentee to claim those
insubstantial alterations that were not captured in
6

“[T]here are two differences between the equivalence
determination made for literal infringement purposes under
§ 112(f) and a doctrine of equivalents determination for the same
limitation: timing and function.” Ring & Pinion Service Inc. v.
ARB Corp. Ltd., 743 F.3d 831, 835 (Fed. Cir. 2014). “Equivalence
under section 112(f) is evaluated at the time of issuance,” while
“[e]quivalence under the doctrine of equivalents . . . is evaluated
at the time of infringement.” Id. “Hence, an after-arising
technology, a technology that did not exist at the time of
patenting, can be found to be an equivalent under the doctrine of
equivalents even though it cannot be an equivalent under the
literal infringement analysis of § 112(f).” Id. In addition, “[f]or
literal infringement [pursuant to § 112(f)], the accused structures
must perform the function recited in the claim (identical
function),” while “[t]he doctrine of equivalents covers accused
structures that perform substantially the same function in
substantially the same way with substantially the same results.”
Id. “The doctrine of equivalents thus covers structures with
equivalent, but not identical, functions.” Id.

47a
drafting the original patent claim but which could be
created through trivial changes.”).
Ordinarily, the first step of claim construction is a
question of law; the second step is a question of fact.
See Pitney Bowes, 182 F.3d at 1304. But “[o]n occasion
the issue of literal infringement may be resolved with
the step of claim construction, for upon correct claim
construction it may be apparent whether the accused
device is within the claims.” Multiform Desiccants, Inc.
v. Medzam, Ltd., 133 F.3d 1473, 1476 (Fed. Cir. 1998).
“Similarly, the determination of infringement under
the doctrine of equivalents may be limited as a matter
of law.” J & M Corp. v. Harley-Davidson, Inc., 269 F.3d
1360, 1366 (Fed. Cir. 2001). For example, “[t]he scope
of equivalents may also be limited by statements in the
specification that disclaim coverage of certain subject
matter.” Id.
C. Claim Construction.
Claim 1 of the ’616 patent, in relevant part, states
as follows:
A physician’s testing system for testing a
multichannel cochlear stimulating system,
comprising a physician’s tester, an external
headpiece/transmitter, and an implanted
cochlear stimulator (ICS), the external
headpiece/transmitter . . . ;
the ICS comprising: (a) receiving means for
receiving the data-containing signals, (b)
processor means for processing the datacontaining signals to generate stimulation
signals, (c) a plurality of tissue-stimulating
electrodes for receiving the stimulation
signals, (d) monitor means in the processor
means and responsive to the data-containing

48a
signals for (1) selectively monitoring at least
one pair of the tissue-stimulating electrodes
as one of the stimulation signals is applied
thereto to measure a voltage associated with
said pair of electrodes, and (2) generating
stimulator status-indicating signals, and (e)
telemetry means for transmitting the
stimulator status-indicating signals to the
external headpiece/transmitter means; and
the physician’s tester . . . .
(Dkt. 580-4, ’616 patent col. 34) (emphasis added).
The court appointed a special master for claim
construction, (see Dkt. 179, Court’s Order of April 6,
2011, at 1), who conducted a hearing and issued a
report and recommendation. (See Dkt. 200, Special
Master’s Report and Recommendation on Claim
Construction) (“Claim Construction Report”). After
considering the parties’ objections to the Claim
Construction Report, the court issued its final claim
construction order. (See Dkt. 212, Court’s Order of
June 18, 2012) (“Claim Construction Order”). The
parties’ objections to the Claim Construction Report,
however, did not concern the relevant claim
construction at issue in this Order.
During claim construction, the special master
construed the limitation, “the ICS comprising: (a)
receiving means for receiving the data-containing
signals,” (Dkt. 580-4, ’616 patent col. 34), as a meansplus-function claim limitation. (See Dkt. 200, Claim
Construction Report at 56); see also Alfred Mann, 841
F.3d at 1344-45 (citing ’616 patent col. 34 ll. 23-61 and
referring to it as a means-plus-function limitation). In
addition, the special master construed the corresponding structure as “a receiver connected to a main
coil/antenna[,]” and determined that “such claim shall

49a
be construed to cover the corresponding structure . . .
and equivalents thereof.” (Dkt. 200, Claim Construction Report at 55) (internal quotation marks omitted).
The special master construed the limitation as “[t]he
receiver connected to a main antenna/coil is [sic]
separate structure from the telemetry transmitter and
telemetry antenna/coil.” (Id.).
D. Whether There Was Substantial Evidence
That Claim 1 Of The ’616 Patent Was
Infringed.7
The parties do not dispute that defendant’s accused
products contain a single antenna/coil in the ICS. (See
Dkt. 580-1, JMOL Motion at 3 (“Cochlear’s accused
cochlear implants all use a single antenna[.]”); Dkt.
584, JMOL Opp. at 12 (“Cochlear’s single-antenna
implant is insubstantially different from the twoantenna implant disclosed in the [’616] patent[.]”)).
Claim 1 of the ’616 patent, however, has been construed to require two antennas/coils in the ICS. (See
Dkt. 200, Claim Construction Report at 55) (“The
receiver connected to a main antenna/coil is [sic]
separate structure from the telemetry transmitter and
telemetry antenna/coil.”). Defendant contends that,
under structural equivalents or the doctrine of equivalents, “the ’616 patent [] bars Plaintiffs from arguing
that one antenna is equivalent to two because the ’616
patent [] disclaim[s] the use of the single antenna
approach by criticizing it as inferior to the two
antenna approach.” (Dkt. 580-1, JMOL Motion at 3-4;
7

Because Cochlear’s challenge to the jury’s finding of
contributory infringement relies solely on its argument regarding
direct infringement, (see Dkt. 580-1, JMOL Motion at 7), it is
unnecessary to address its argument regarding contributory
infringement.

50a
see id. at 4 (“[Plaintiff] cannot . . . rely on equivalent
structure and/or the doctrine of equivalents to argue
that the disclaimed structure infringes.”); id. at 6 (“[A]
structure that was criticized as inadequate in the
’616 . . . patent[] cannot be considered equivalent
structure under 35 U.S.C. § 112, ¶ 6 or the doctrine of
equivalents.”)). The court is not persuaded.
The specification of the ’616 patent states the
following regarding the prior art in Professor
McDermott’s U.S. Patent No. 4,947,844 (“’844 patent”
or “McDermott Patent”):
The system described in the [’]844 patent also
includes in the implanted receiver/stimulator
a transmitter for telemetering one electrode
voltage, measured during stimulation, to an
external receiver for monitoring and analysis
as an indicator of proper operation of the
implanted stimulator. The transmitter comprises an oscillator operating at a frequency
of about 1 MHZ. The output of the oscillator
is coupled to the implant’s receiving coil and
demodulated to recover the selected voltage
waveforms. Unfortunately, such a telemetry
system is not only limited to the monitoring
of one voltage, but the simultaneous transmission of the telemetry signal and reception
of the input carrier signal as described will
result in undesired modulation and possible
loss of input data.
(Dkt. 580-4, ’616 patent col. 2).
“The standard for disavowal is exacting, requiring
clear and unequivocal evidence that the claimed
invention includes or does not include a particular
feature. Ambiguous language cannot support disa-

51a
vowal.” Cisco Systems, Inc. v. Int’l Trade Commission,
873 F.3d 1354, 1361 (Fed. Cir. 2017) (internal citation
omitted); see Teleflex, Inc. v. Ficosa N. America Corp.,
299 F.3d 1313, 1325 (Fed. Cir. 2002) (“The patentee
may demonstrate an intent to deviate from the
ordinary and accustomed meaning of a claim term by
including in the specification expressions of manifest
exclusion or restriction, representing a clear disavowal
of claim scope.”). “[R]igid formalism is not required,”
Astrazeneca AB, Aktiebolaget Hassle, KBI-E, Inc. v.
Mutual Pharmaceutical Co., Inc., 384 F.3d 1333, 1340
(Fed. Cir. 2004); rather, a clear disavowal may be
“express or implied[.]” SciMed Life Systems, Inc. v.
Advanced Cardiovascular Systems, Inc., 242 F.3d
1337, 1345 (Fed. Cir. 2001). In addition, “disparaging
comments alone do not necessarily show a manifest or
express disavowal of the criticized subject matter.”
Epistar Corp. v. Int’l Trade Commission, 566 F.3d
1321, 1336 (Fed. Cir. 2009); see, e.g., Micro Chemical,
194 F.3d at 1260-61 (although specification called
prior art device using “weigh dump method” too slow
and inaccurate, patentee did not disavow since
patentee did not assert that “weigh dump method” was
reason for slowness or inaccuracies).
A court first considers the language of the claim
itself. See i4i Ltd. Partnership v. Microsoft Corp., 598
F.3d 831, 843 (Fed. Cir. 2010), aff’d, 564 U.S. 91 (2011)
(“i4i Ltd.”) (“We begin again with the claim language”
in evaluating claim limitation, disclaimer, or disavowal.). “[W]hen a specification excludes certain prior
art alternatives from the literal scope of the claims and
criticizes those prior art alternatives, the patentee
cannot then use the doctrine of equivalents to capture
those alternatives.” L.B. Plastics, Inc. v. Amerimax
Home Products, Inc., 499 F.3d 1303, 1309 (Fed. Cir.
2007); see J & M Corp., 269 F.3d at 1368 (“Structure

52a
expressly disclaimed in the specification [] cannot be
considered an equivalent under the doctrine of equivalents.”); Gaus v. Conair Corp., 363 F.3d 1284, 1291
(Fed. Cir.), cert. denied, 543 U.S. 927 (2004) (“[T]he
patentee cannot reclaim that surrendered claim
coverage by invoking the doctrine of equivalents.”).
Reviewing the ’616 patent as a whole, the court is
not persuaded that plaintiff made a clear disavowal of
the single antenna approach. As an initial matter,
none of the ’616 patent’s 14 claims contain a single
reference to “antenna” or “coil.” (See, generally, Dkt.
580-4, ’616 patent, cols. 34-36). Further, nowhere does
the ’616 patent, (see, generally, id.), expressly or
implicitly, state that it is not possible to practice the
’616 patent, because of a flaw in the prior art described
in the ’844 patent, cf. Schwing GmbH v. Putzmeister
Aktiengesellschaft, 305 F.3d 1318, 1329 (Fed. Cir.
2002) (embedded metal ring in accused device could
not be deemed equivalent of mechanism described in
patent, as patent specifically identified and criticized
use of embedded metal rings in the prior art), or that
a device incorporating more or less than one antenna
is “incapable” of achieving the desired results of the
’616 patent by using that prior art. Cf. Signtech USA,
Ltd. v. Vutek, Inc., 174 F.3d 1352, 1357 (Fed. Cir. 1999)
(“[B]y stating that the accused structure was ‘incapable’ of achieving the desired results of the invention,
the patentee expressly excluded it as an equivalent of
the disclosed structure.”). Nor does the ’616 patent
state that “all embodiments” of its invention rely solely
on the two-antenna approach, see SciMed Life
Systems, 242 F.3d at 1344, or emphasize the “novel
construction” of the two-antenna approach over a
single-antenna approach. Cf. L.B. Plastics, Inc., 499
F.3d at 1309-10 (patentee cannot claim adhesives
under the doctrine of equivalents when it disavowed

53a
adhesives in the specification in favor of its novel
construction of continuous welding). Indeed, Figure 1
of the ’616 patent, which is described as “comprising a
preferred embodiment of the present invention,” displays a single antenna that both receives and
transmits data. (See Dkt. 580-4, ’616 patent fig. 1 &
col. 3-4) (describing “an antenna 20 for transmitting
and receiving electromagnetic energy”); Micro Chemical,
194 F.3d at 1260-61 (no disavowal when the specification included the criticized prior art as a component of
the combination claim). In short, plaintiff’s statements
concerning the prior art merely note some drawbacks
of the ’844 patent, specifically, and not the single
antenna approach, generally. (See Dkt. 580-4, ’616
patent col. 2 (specification notes that, “as described” in
the ’844 patent, “simultaneous transmission of the
telemetry signal and reception of the input carrier
signal” will lead to undesirable results)); see, e.g.,
Micro Chemical, 194 F.3d at 1260-61 (patentee’s
statements about “certain inefficiencies” in a method
utilized in prior art did not constitute clear disavowal
of that method in general); Epistar, 566 F.3d at 1336
(“[T]he single, passing reference to ITO as a relatively
unsatisfactory transparent electrical contact in the
specification does not disavow the use of ITO as a
transparent window layer.”).
Further, although defendant asserts that “[t]he
record . . . lacks any substantial evidence from which
the jury could conclude that Cochlear directly
infringed or contributed to infringement[,]” (Dkt. 5801, JMOL Motion at 3), Cochlear ignores the evidence
presented at trial. The standard here is whether there
was sufficient evidence to support the jury’s conclusion. See Wallace, 479 F.3d at 624. Application of that
standard requires the party challenging the jury’s
verdict to set forth in detail and discuss the evidence

54a
that supports the jury’s verdict and show that the
supporting evidence is so inadequate that it does not
qualify as substantial. Here, other than one reference
to trial testimony, (see Dkt. 580-1, JMOL Motion at 3),
defendant’s entire argument is that the ’616 patent
specifically disavowed the prior art set forth in the ’844
patent. (See id. at 3-7). Cochlear’s moving papers made
no effort to address the testimony of the parties’
experts or other evidence introduced during the trial.
(see, generally, id.). Further, while plaintiff’s Opposition discusses the evidence presented at trial that
supports the jury’s verdict of infringement of claim 1
of the ’616 patent, (see Dkt. 584, JMOL Opp. at 11-14),
Cochlear’s Reply fails to respond to plaintiff’s assertions or otherwise mention or reference the evidence
presented at trial. (See, generally, Dkt. 591, JMOL
Reply). Under these circumstances, Cochlear’s failure
to respond to the most critical argument relating to its
JMOL Motion constitutes a concession on Cochlear’s
part that there was substantial evidence of infringement presented to the jury. See, e.g., GN Resound A/S
v. Callpod, Inc., 2013 WL 1190651, *5 (N.D. Cal. 2013)
(stating, when plaintiff failed to oppose a motion as to
a particular issue, that “the Court construes as a
concession that this claim element [is] not satisf[ied]”);
Hall v. Mortgage Investors Group, 2011 WL 4374995,
*5 (E.D. Cal. 2011) (“Plaintiff does not oppose
Defendants’ arguments regarding the statute of
limitations in his Opposition. Plaintiff’s failure to
oppose . . . on this basis serves as a concession[.]”).
In any event, the record contains substantial
evidence to support the jury’s verdict, i.e., that
defendant’s single-antenna approach infringed the
’616 patent under structural equivalents and/or the
doctrine of equivalents. For example, plaintiff’s expert,
Dr. Darrin Young, testified that Cochlear’s accused

55a
devices “have a data receiver that can receive the data
that’s transmitted from outside to the inside, receiving
the data-containing signal.” (Dkt. 464, January 15,
2014, P.M. Trial Tr. at 98-99). Dr. Young also testified
that the ’616 patent’s disclosure of both: (1) one
antenna that receives and transmits data; and (2) two
antennas where one antenna receives and the other
transmits data simply means that the difference
between one antenna and two antennas is an
“insubstantial” “design choice.” (See Dkt. 464, January
15, 2014, P.M. Trial Tr. at 107-08; see also Dkt. 466,
January 17, 2014, P.M. Trial Tr. at 88 (testimony of
defendant’s expert Dr. Gerald Loeb testifying that
prior art teaches that the single antenna and twoantenna approach can be used interchangeably)). Also,
there was evidence that Cochlear’s accused devices use
a single-antenna approach that is different from that
set forth in the ’844 patent. (Compare Dkt. 496,
January 17, 2014, A.M. Trial Tr. at 75-77 (describing
accused devices), with Dkt. 580-4, ’616 patent col. 2);
see, e.g., Micro Chemical, 194 F.3d at 1260-61 (infringement can be found under doctrine of equivalents
when the specification included the criticized prior art
as a component of the combination claim). Finally,
even defendant’s expert, Dr. Robert Stevenson, admitted that an infringer can use separate structures –
“separate carrier waves” – on a single antenna to
“creat[e] multiple channels.”8 (Dkt. 497, January 21,
2014, A.M. Trial Tr. at 131-32).
In short, assuming Cochlear may challenge the
jury’s infringement verdict, the court denies defend-

8

Dr. Stevenson testified that the disadvantage of this particular kind of single-antenna approach is that it is “less efficient[.]”
(Dkt. 497, January 21, 2014, A.M. Trial Tr. at 132).

56a
ant’s renewed motion for judgment as a matter of law
as to non-infringement of claim 1 of the ’616 patent.
II. DAMAGES.
Following the verdict, the court vacated the jury’s
damages award and granted a new trial on damages
with respect to infringement of claim 10 of the ’616
patent. (See Dkt. 540, Court’s Order of March 31, 2015,
Re: Post-Trial Motions). The court stated that “in light
of the . . . court’s contemporaneous finding of indefiniteness with respect to three of the asserted claims,
the court believes it must grant the motion for new
trial so as to allow a damages trial with respect to
claim 10 of the ’616 patent” because “the damages
awarded by the jury were not broken down as to each
claim or patent[.]” (Id. at 17). On appeal, the Federal
Circuit affirmed the jury’s finding of infringement of
claim 10, reversed the court’s finding that claim 1 was
invalid for indefiniteness, and reversed the court’s
determination that Cochlear’s infringement of the ’616
patent was not willful. See Alfred Mann, 841 F.3d at
1341 & 1345-46. Lastly, the Federal Circuit held that
it lacked jurisdiction to consider the court’s order
granting a new trial with respect to damages. See id.
at 1346.
The Federal Circuit’s decision effectively reinstated
the jury’s verdict as to infringement of both asserted
claims of the ’616 patent, and plaintiff now seeks
reconsideration of the court’s order granting Cochlear’s
Rule 59 motion for new trial as it relates to damages.
However, the parties dispute the procedural basis for
reconsidering the court’s prior order. (See Dkt. 579,
Damages Motion at 7; Dkt. 581, Damages Opp. at 2-4).
Under the circumstances, the court is persuaded
that it can reconsider its Order of March 31, 2015,

57a
under Local Rule 7-18. The Federal Circuit refused to
consider the court’s order granting defendant’s Rule
59 motion for new trial as to damages because the
court’s order was not “a final decision on the damages
issue.” Alfred Mann, 841 F.3d at 1346. “The authority
of district courts to reconsider their own orders before
they become final, absent some applicable rule or
statute to the contrary, allows them to correct not only
simple mistakes, but also decisions based on shifting
precedent, rather than waiting for the time-consuming,
costly process of appeal.” United States v. Martin, 226
F.3d 1042, 1049 (9th Cir. 2000), cert. denied, 532 U.S.
1002 (2001). “Moreover, far from cabining the district
court’s inherent authority to modify its own rulings
before it issues any appealable order, the Local Rules
of the Central District of California provide an explicit
textual source of authority[, i.e., Local Rule 7-18] for
the [plaintiff’s] motion for reconsideration.” Id. Here,
the Federal Circuit’s decision constitutes sufficient
justification to invoke Local Rule 7-18, i.e., the court
may reconsider its decision based on either “a material
difference in fact or law from that presented to the
Court before such decision that in the exercise of
reasonable diligence could not have been known” or
“the emergence of new material facts or changes of law
occurring after the time of such decision.” Local Rule
7-18(a) & (b); see, e.g., Martin, 226 F.3d at 1049 (“We
see no reason that this local rule, which imposes no
time limits on motions made under its auspices, could
not have permitted the district court to decide the
Government’s motion, which was indisputably based
on an intervening change in the law.”).
A. Legal Standard.
Under Rule 59, a motion for new trial may be
granted “only if the verdict is contrary to the clear

58a
weight of the evidence, is based upon false or
perjurious evidence, or to prevent a miscarriage of
justice.”9 Molski v. M.J. Cable, Inc., 481 F.3d 724, 729
(9th Cir. 2007). The court has “the duty to weigh the
evidence as the court saw it, and to set aside the
verdict of the jury, even though supported by substantial evidence, where, in the court’s conscientious
opinion, the verdict is contrary to the clear weight of
the evidence . . . [or] to prevent, in the sound discretion
of the trial judge, a miscarriage of justice[.]” Tortu v.
Las Vegas Metropolitan Police Dep’t, 556 F.3d 1075,
1087 (9th Cir. 2009) (citation and internal quotation
marks omitted).
B. Alleged Defects in the Verdict Form.
Plaintiff contends that, although the ’691 patent
was found to be invalid, it is nevertheless entitled to
reinstatement of the entirety of the jury’s award of
$131,216,325.00, “[b]ecause the damages verdict is
fully supported by the ’616 patent alone, and because
the Federal Circuit has now held that both claims-insuit of this patent are valid[.]” (Dkt. 579, Damages
Motion at 2; see id. at 7-18 (arguing for award
reinstatement)). Plaintiff also contends that “[e]ven if
the evidence of infringement of a single patent did not
9

In patent cases, the law of the regional circuit applies in
determining whether to grant a new trial. See Wordtech Systems
v. Int’l Networks Solutions, Inc., 609 F.3d 1308, 1312 (Fed. Cir.
2010). In the Ninth Circuit, the district court’s “determination
that the verdict was not against the clear weight of the evidence”
is “virtually unassailable.” Crowley v. Epicept Corp., 883 F.3d
739, 751 (9th Cir. 2018) (internal quotation marks omitted). A
district court commits “clear abuse of discretion” in denying a
Rule 59 motion “only where there is an absolute absence of
evidence to support the jury’s verdict.” Id. (emphasis in original)
(internal quotation marks omitted).

59a
support reinstatement of the jury’s damages award, . . .
Cochlear forfeited the right to a new damages trial by
proposing and accepting the general damages verdict
form given to the jury.” (Id. at 13; see id. at 14 (defendant “cannot complain about reinstatement of the
verdict based on the form it proposed”)). Cochlear disputes this characterization as “not accurate.” (Dkt.
581, Damages Opp. at 9).
As explained below, the record supports a finding of
waiver or forfeiture on Cochlear’s part because the
“verdict form offered by [Cochlear] tracked the
language in the form ultimately given.” Jules Jordan
Video, Inc. v. 144942 Canada Inc., 617 F.3d 1146, 1160
(9th Cir. 2010). Even assuming the final verdict form
did not track Cochlear’s proposed language, the issue
is still waived because “[t]he record does not reveal any
alternate form offered by [Cochlear] separating the
[different] bases for infringement.” Id.
Cochlear’s original Proposed Verdict Form included
the following language with respect to the subject
damages questions:
B. Royalty Rate.
1. If you find that defendants have infringed
a valid claim of either the ’616 patent or ’691
patent, what is the reasonable royalty rate
that defendants should pay to plaintiffs?
%
2. If you find that defendants have infringed
a valid claim of either the ’616 patent or ’691
patent, what are the total damages that
defendants should pay to plaintiffs?
$

60a
(Dkt. 330, Defendant’s Proposed Verdict Form at 4-5)
(emphasis added).
Cochlear’s Proposed First Amended Special Verdict
Form included the following language with respect to
the subject damages questions:
B. Royalty Rate
1. If you find that defendants have infringed
a valid claim of either the ’616 patent or ’691
patent, what is the reasonable royalty rate (if
any) that defendants should pay to plaintiffs?
%
2. If you find that defendants have infringed
a valid claim of either the ’616 patent or ’691
patent, what are the total damages that
defendants should pay to plaintiffs?
$
(Dkt. 359, Defendant’s Proposed First Amended
Special Verdict Form at 6-7) (emphasis added).
Cochlear’s Proposed Second Amended Special
Verdict Form included the following language with
respect to the subject damages questions:
B. Reasonable Royalty
1. If you find that defendants have infringed
a valid claim of either the ’616 patent or the
’691 patent, what is the reasonable royalty
rate (if any) that defendants should pay to
plaintiffs based on the making, using, selling,
offering for sale or importing into the USA
any of the accused products?

61a
PRODUCT

Rate, if any

Nucleus 24 (CI24 series) cochlear
implants
Nucleus Freedom (CI24RE series and
CI422) cochlear implants
Nucleus 5 (CI500 series) cochlear
implants
Sprint (SP5) sound processors
Freedom (SP12) sound processors
Nucleus 5 (SP15) sound processors
WinDPS software
Custom Sound software
2. If you find that defendants have infringed
a valid claim of either the ’616 patent or the
’691 patent, what are the total damages that
defendants should pay to plaintiffs based on
the making, using, selling, offering for sale or
importing into the USA any of the accused
products?
PRODUCT
Nucleus 24 (CI24 series) cochlear
implants
Nucleus Freedom (CI24RE series and
CI422) cochlear implants
Nucleus 5 (CI500 series) cochlear
implants
Sprint (SP5) sound processors
Freedom (SP12) sound processors

Rate, if any

62a
Nucleus 5 (SP15) sound processors
WinDPS software
Custom Sound software
(Dkt. 382, Defendant’s Proposed Second Amended
Special Verdict Form at 14-15) (emphasis added).
Cochlear’s Proposed Third Amended Proposed
Special Verdict Form included the following language
with respect to the subject damages questions:
B. Reasonable Royalty
1. If you find that defendants have infringed
a valid claim of either the ’616 patent or the
’691 patent, what is the reasonable royalty
rate (if any) that defendants should pay to
plaintiffs based on the making, using, selling,
offering for sale or importing into the USA
any of the accused products?
PRODUCT
Nucleus 24 (CI24 series) cochlear
implants
Nucleus Freedom (CI24RE series and
CI422) cochlear implants
Nucleus 5 (CI500 series) cochlear
implants
Sprint (SP5) sound processors
Freedom (SP12) sound processors
Nucleus 5 (SP15) sound processors
WinDPS software
Custom Sound software

Rate, if any

63a
2. If you find that defendants have infringed
a valid claim of either the ’616 patent or the
’691 patent, what are the total damages that
defendants should pay to plaintiffs based on
the making, using, selling, offering for sale or
importing into the USA any of the accused
products?
PRODUCT

Total
Damages,
if any

Date range for damages,
if any

Nucleus 24
(CI24
series)
cochlear
implants

’616 patent: ’691 patent:

Nucleus
Freedom
(CI24RE
series and
CI422)
cochlear
implants

’616 patent: ’691 patent

Nucleus 5
(CI500
series)
cochlear
implants

’616 patent: ’691 patent

64a
Sprint
(SP5) sound
processors

’616 patent: ’691 patent

Freedom
(SP12)
sound
processors

’616 patent: ’691 patent

Nucleus 5
(SP15)
sound
processors

’616 patent: ’691 patent

WinDPS
software

’616 patent: ’691 patent

Custom
Sound
software

’616 patent: ’691 patent

(Dkt. 422, Defendant’s Proposed Third Amended
Special Verdict Form at 14-16) (emphasis added).
Ultimately, the actual verdict form given to the jury
had the following questions relating to damages:
B.Reasonable Royalty
25. If you find that the Cochlear Defendants
have infringed a valid claim of either the ’616
patent or the ’691 patent, what is the
reasonable royalty rate that the Cochlear
Defendants should pay the Foundation?

65a
26. If you find that the Cochlear Defendants
have infringed a valid claim of either the ’616
patent or the ’691 patent, what are the total
damages that the Cochlear Defendants
should pay to the Foundation?
(Dkt. 450, Final Verdict Form at 10).
All the verdict forms submitted by Cochlear
included the general damages verdict questions given
to the jury. All the verdict forms submitted by
Cochlear contained the same language for the subject
damages questions: (1) “If you find that the Cochlear
Defendants have infringed a valid claim of either the
’616 patent or the ’691 patent, what is the reasonable
royalty rate that the Cochlear Defendants should pay
to the Foundation?” and (2) “If you find that the
Cochlear Defendants have infringed a valid claim of
either the ’616 patent or the ’691 patent, what are the
total damages that the Cochlear Defendants should
pay to the Foundation?” That is, the interrogatories
submitted to the jury simply asked the jury to find the
royalty rate and total damages if Cochlear infringed “a
valid claim of either the ’616 patent or the ’691 patent.”
(Dkt. 460, Jury Verdict at 10). The jury’s verdict – even
after the Federal Circuit’s decision – is consistent with
the verdict form and confirms that infringement of any
one claim or of any one patent is sufficient to support
the jury’s damages verdict.
Although the first two verdict forms Cochlear submitted did not include any charts, (see, generally, Dkt.
330, Defendant’s Proposed Verdict Form; Dkt. 359,
Defendant’s Proposed First Amended Special Jury
Verdict), Cochlear relies heavily on its second
proposed verdict form and asserts that its “proposed
verdict form explicitly apportioned damages for each
of the accused products[.]” (Dkt. 581, Damages Opp. at

66a
10) (emphasis omitted). However, the language of the
substantive damages questions remained virtually the
same throughout the four versions of the verdict form
submitted by Cochlear.10 In crafting the final verdict
form, the court used the damages questions set forth
in all of Cochlear’s proposed verdict forms and decided
to use the format, i.e., without the charts breaking
down damages by product, proposed by Cochlear in its
original and first amended proposed verdict forms.
(Compare Dkt. 450, Final Verdict Form, with Dkt. 330,
Defendant’s Proposed Verdict Form, and Dkt. 359,
Defendant’s Proposed First Amended Special Verdict
Form). The court issued its “tentative” verdict form
that contained the subject damages questions –
without any charts – to allow the parties to review and
comment on the court’s proposed verdict form. (See
Dkt. 443, [Tentative] Verdict Form, at 10). Although
Cochlear filed “Comments” to the court’s tentative
final verdict form, it did not voice any concerns or
objections with respect to the damages questions it
now challenges. (See, generally, Dkt. 447, Defendant’s
Comments re the Court’s [Tentative] Verdict Form).
Even assuming the charts were included at
Cochlear’s behest, the fact remains that these charts
only sought to apportion by product, not by patent or
claim. And there is no dispute that all of the accused
products were found to infringe the ’616 patent. (See
Dkt. 460, Jury Verdict at 1-3). Indeed, Cochlear
conceded on appeal that “[t]he evidence . . . did not give
the jury any way to assess a royalty rate assuming
10

Also, the record indicates that the charts breaking down
damages by product were incorporated at the court’s direction,
(see Dkt. 500, January 13, 2014, Pretrial Conf. Tr. at 18), not
because Cochlear believed that the verdict form should be
apportioned by product.

67a
infringement of fewer claims or patents.” Alfred Mann,
841 F.3d at 1353 (Newman, J., concurring and dissenting in part).
Courts do not “allow litigants to play procedural
brinkmanship with the jury system and take advantage of uncertainties they could well have
avoided.” McCord v. Maguire, 873 F.2d 1271, 1274 (9th
Cir. 1989) (defendant who did not request special verdict as to each factual theory is prohibited from
arguing general verdict erroneously rests on “unsubstantiated factual theories”); see Mitsubishi Electric
Corp. v. Ampex Corp., 190 F.3d 1300, 1304 (Fed. Cir.
1999), cert. denied, 529 U.S. 1054 (2000) (party forfeited post-trial challenge on the ground that a special
verdict should have been obtained, by proposing and
accepting a verdict form that did not separate the
potential grounds for invalidity). Because the court
used the language in the damages questions proposed
by Cochlear and because Cochlear failed to request a
special verdict that allocated damages by patent, the
court finds that Cochlear forfeited its right to challenge any potential ambiguity in the verdict form. See
McCord, 873 F.2d at 1274; see, e.g., Goldberg v. Pacific
Indemnity Co., 405 F.Appx. 177, 180 (9th Cir. 2010)
(“[E]ven if plaintiffs’ argument had merit, they waived
any objection to the form of instruction by suggesting
a substantially similar instruction at trial.”); EON
Corp. IP Holdings, LLC v. Landis+Gyr Inc., 2014 WL
6466663, *11-12 (E.D. Tex. 2014), rev’d on other
grounds, 815 F.3d 1314 (Fed. Cir. 2016) (“EON Corp.”)
(finding that defendant was not entitled to new damages trial because it did not object to jury verdict
form’s apportionment of damages, and because expert
took into account plaintiff’s view that three patentsin-suit were interrelated and thus structured his

68a
damages model to remain the same regardless of
number of claims or patents infringed).
C. Sufficiency of Evidence Re: Damages for ’616
Patent.
Assuming Cochlear has not waived its right to
challenge the verdict form, the court will now address
Cochlear’s other arguments. Cochlear asserts that a
new trial on damages is required because “AMF failed
to carry its burden and present evidence from which
damages for the ’616 patent alone can be determined[.]” (Dkt. 581, Damages Opp. at 6). According to
defendant, the ’616 patent and the ’691 patent are
directed to different inventions and there was no
evidence from which the jury could have determined
damages for the ’616 patent alone. (See id. at 6-8).
Cochlear’s assertions are unpersuasive and insufficient to warrant granting of a new trial.
First, Cochlear attempts to mischaracterize the
“’616 patent [as] limited to a physician’s tester” as
opposed to the entire “cochlear implant system”
covered by the ’691 patent. (Dkt. 581, Damages Opp.
at 2 & 6-7). However, Cochlear’s attempt to narrow the
’616 patent to a “physician’s tester” is inconsistent
with this court’s and the Federal Circuit’s interpretation of the patents at issue. (See, e.g. Dkt. 540, Court’s
Order of March 31, 2015, Re: Post-Trial Motions at 9
(“AMF’s infringement theory [for claim 10 of the ’616
patent] generally relies on the inter-operation of the
cochlear implant, the wearable processor, and the
testing software running on a computer.”); id. at 2
(“The ’616 patent is generally directed to a system and
a method for testing such a system.”); id. at 2 (“The
’691 patent is generally directed to a cochlea stimulation system comprising of” an audio signal receiver,
processor, and stimulator.)); Alfred Mann, 841 F.3d at

69a
1337 (“The [’616 and ’691] patents are directed to an
ear implant with telemetry functionality for testing
purposes, and generally describe a two-part system
comprising an external wearable system with a wearable processor (WP) and headpiece, and an internal
implantable cochlear stimulator (ICS).”).
Second, the evidence presented at trial made it clear
that both the ’616 patent and ’691 patent concern back
telemetry. (See Dkt. 463, January 14, 2014, P.M. Trial
Tr. at 86-87 & 89-91 (describing function and purpose
of back telemetry); Dkt. 494, January 15, 2014, A.M.
Trial Tr. at 30-32 (same)). Both plaintiff’s expert, Cate
Elsten, and defendant’s expert, Russell Parr, treated
the patents together and presented one damages
calculation based on back telemetry. (See Dkt. 467,
January 21, 2014, P.M. Trial Tr. 28, 45-46 & 54 (Mr.
Parr’s testimony that he also calculated a royalty base
of $1,539,472,026 for sales made between 2001
through 2012); Dkt. 325-22, Parr’s Supplemental
Expert Damages Opinion of January 4, 2013, at ECF
12484 (“Exhibit 5 of this report shows accused sales of
$1,539,472,026.”)). Cochlear has not pointed to anywhere in the record where its expert opined that a
different royalty rate should be applied if fewer than
all claims were infringed. (See, generally, Dkt. 581,
Damages Opp. at 6-8). Indeed, both experts proposed
a constant royalty rate that did not change after the
’691 patent expired in 2009, and in any event,
defendant’s argument appears to constitute a new
damages theory that should have been raised earlier.
In other words, if Cochlear had taken this position at
trial, then its expert should have provided a separate
damages calculation with a separate analysis to

70a
support a damage award for each asserted patent.11
Cochlear does not cite any evidence or reference any
testimony from its expert to support this theory. (See,
generally, id. at 6-7). Thus, even assuming it was
proper to raise this damages argument at this time,
there is no evidence to support the theory.
Finally, there was substantial evidence to support
the jury’s damages verdict based on infringement of
the ’616 patent alone. In the Ninth Circuit, “a jury’s
verdict may stand on a legally viable theory even if a
legally defective theory also was presented.” Webb v.
Sloan, 330 F.3d 1158, 1166 (9th Cir. 2003), cert.
denied, 540 U.S. 1141 (2004). As Justice Kennedy, at
the time a Ninth Circuit judge, explained:
Where more than one theory of recovery has
been submitted to the jury in a civil case, and
where . . . it is claimed that as to one of the
theories there was a lack of evidential support
or an error of law in submitting the theory to
the jury, the reviewing court has discretion to
construe a general verdict as attributable to
another theory if it was supported by
substantial evidence and was submitted to
the jury free from error.
Traver v. Meshriy, 627 F.2d 934, 938 (9th Cir. 1980).
The Traver court set forth four factors for the court to
consider in deciding whether to uphold a general
verdict: (1) “the potential for confusion of the jury
which may have resulted from an erroneous submis11

Also, if Cochlear’s assertion regarding the verdict form were
accurate, then its expert should have presented a damages
calculation that explained the damages as to each accused
product. Mr. Parr did not do so. (See, generally, Dkt. 467, January
21, 2014, P.M. Trial Tr. at 20-66).

71a
sion of a particular claim”; (2) “whether privileges or
defenses of the losing party apply to the count upon
which the verdict is being sustained so that they would
have been considered by the jury with reference to the
count”; (3) “the strength of the evidence supporting the
count being relied upon to sustain the verdict”; and (4)
“the extent to which the same disputed issues of fact
apply to one or more of the theories in question.” Id. at
938-39; see Webb, 330 F.3d at 1166-67.
As an initial matter, it should be noted that
Cochlear does not mention or discuss the Traver
factors at all in its Opposition, (see, generally, Dkt.
581, Damages Opp.), even though AMF extensively
discussed the case in its moving papers. (See Dkt. 579,
Damages Motion at 14-16). In any event, consideration
of the Traver factors weighs in favor of upholding the
damages verdict. First, there was no potential for jury
confusion because the verdict was consistent with the
verdict form. Again, the damages questions put forth
by Cochlear stated: “If you find the defendants have
infringed a valid claim of either the ’616 patent or the
’691 patent,” “what is the reasonable royalty rate” and
“what are the total damages[.]” (Dkt. 460, Jury Verdict
at 10).
Moreover, the verdict form included questions for
claim specific infringement and general questions
regarding damages. (See Dkt. 450, Final Verdict Form
at 1-4 & 10). In other words, while the liability verdicts
were claim-specific, there was no claim-specific
damages evidence with respect to any of the patents,
i.e., there was a clear delineation between the legally
viable theory (infringement of the ’616 patent) and the
theory that was found to be legally infirm (infringement of the ’691 patent). Because the jury answered
questions explaining the theories upon which it found

72a
in plaintiff’s favor, and “[t]he only aspect of the verdict
that is ‘general’ [wa]s the damages award, which was
not apportioned among the claims[,]” Webb, 330 F.3d
at 1167, there was no potential for confusion. Finally,
there was no potential for jury confusion because the
patents-in-suit related to back telemetry technology,
and there was no evidence – and defendant has not
pointed to any – of damages attributable solely to the
’691 patent. As Judge Newman noted, “Cochlear
concedes that the evidence . . . did not give the jury any
way to assess a royalty rate assuming infringement of
fewer claims or patents.” Alfred Mann, 841 F.3d at
1353 (Newman, J., concurring and dissenting in part)
(internal quotation marks omitted).
Second, the factor relating to whether Cochlear’s
defenses apply to the count upon which the verdict is
being sustained appears to be neutral because
Cochlear asserted the same defenses to both patentsin-suit. The jury considered Cochlear’s invalidity
defense to both patents, but the Federal Circuit found,
as a matter of law, that this defense did not affect the
viability of one of the challenged patents. See Alfred
Mann, 841 F.3d at 1344-45. In other words, the
Federal Circuit’s decision confirmed and established a
clear delineation between the legally viable theory and
the legally infirm theory.
The third and fourth Traver factors are related, and
both weigh in favor of upholding the jury’s verdict.
There was substantial evidence to support the
damages verdict for infringement of the ’616 patent
alone because the exact “same disputed issues of fact
appl[ied]” to the damages evidence related to both

73a
patents-in-suit. See Traver, 627 F.2d at 939. Again,
both experts: (1) agreed that the invention at issue in
both patents was back telemetry; (2) used the same
royalty base, (see Dkt. 467, January 21, 2014, P.M.
Trial Tr. at 54-55 (Mr. Parr’s testimony)); and (3) put
forth a single, although different, royalty rate for the
entire period (i.e., through January 2014), irrespective
of the number of claims or patents found to be
infringed.13 As Judge Newman stated, “[t]he evidence,
instructions, and damages theories presented led the
jury to a single, permissible conclusion: that a reasonable royalty for the invention – back telemetry –
was required to compensate [plaintiff] for infringement of even a single claim.” Alfred Mann, 841 F.3d at
1353 (Newman, J., concurring in part and dissenting
in part). In short, the court is persuaded that
application of the Traver factors weighs in favor of
upholding the jury’s verdict even if one of the patents
was invalidated. See Webb, 330 F.3d at 1166-67;
United States v. $11,500.00 in United States Currency,
869 F.3d 1062, 1068 (9th Cir. 2017) (Ninth Circuit
applies “more pragmatic approach” to general verdict
rule under Traver); Goldberg, 405 Fed.Appx. at 180
(“When the jury issues a general verdict that does not
specifically state the grounds on which the jury
reached its verdict, . . . ‘the reviewing court has
discretion to construe a general verdict as attributable
to another theory if it was supported by substantial
evidence and was submitted to the jury free from
12

12

In discussing the evidence supporting the jury’s verdict, the
court incorporates the discussion below relating to the experts.
13

Both experts applied the same royalty rate even though the
’691 patent expired in 2009. In other words, it is undisputed that
the ’616 patent covers the entire period underlying the jury’s
damages verdict.

74a
error.’”) (quoting Traver, 627 F.2d at 938). In other
words, because both AMF and Cochlear presented
evidence of the same royalty base and because the
evidence, verdict forms and instructions treated the
two patents as a singular invention of back telemetry,
engaging in post hoc apportionment at this time is
neither necessary nor appropriate. See, e.g., Stickle v.
Heublein, Inc., 716 F.2d 1550, 1561 n. 8 (Fed. Cir.
1983) (“Since the parties treated the mechanical
and process patents as a unitary licensing property,
we need not consider damages for infringement of
each patent individually.”); TiVo, Inc. v. EchoStar
Communications Corp., 516 F.3d 1290, 1312 (Fed. Cir.
2008) (upholding damages award after claim found
non-infringed “[b]ecause the damages calculation at
trial was not predicated on the infringement of
particular claims, and because . . . all of the accused
devices infringe the software claims”); Applera Corp.
v. MJ Research Inc., 389 F.Supp.2d 356, 361 (D.
Conn. 2005) (“Notwithstanding [a finding of noninfringement as to one claim], there is no basis for
adjusting or vacating the jury’s damages award. The
jury’s verdict of induced infringement of claim 17 and
33 of the ’675 patent supports the damage award, as
there was no testimony at trial that a reasonable
royalty rate for the ’675 patent would be based on the
number of infringing claims of the ’675 patent.”); EON
Corp., 2014 WL 6466663, at *11-12 (finding that
defendant was not entitled to a new damages trial
because it did not object to jury verdict form’s apportionment of damages, and because expert took into
account plaintiff’s view that three patents-in-suit were
interrelated and thus structured his damages model to
remain the same regardless of number of claims or
patents infringed).

75a
Based on the foregoing, the court is convinced that
it must uphold the jury’s verdict. Nevertheless, the
court will, out of an abundance of caution, consider the
arguments defendant raised in its original Rule 59
motion, i.e., it will assume, arguendo, that Cochlear
did not waive its ability to challenge any potential
ambiguity in the jury’s damages verdict. (See Dkt. 581,
Damages Opp. at 4 (Cochlear asserting that because
court based its new trial order on the fact that only one
of the patents was infringed, it never reached its
argument that a “damages [trial] was needed even if
there was no change in the liability verdict.”)).
D. Cochlear’s Rule 59 Motion.
In its Rule 59 motion, Cochlear asserts that it is
entitled to a new trial because: (1) plaintiff’s expert
should not have been permitted to testify; and (2) the
jury’s finding of no invalidity goes against the great
weight of the evidence.14 (Dkt. 511-3, Joint Brief Re:
Defendant’s Motion For New Trial (“Rule 59 Joint
Br.”)15 at 4-11). Cochlear’s arguments relating to invalidity have been disposed of by the Federal Circuit’s
decision. Thus, the only issue that remains is whether
a new trial should be granted because the court erred
in admitting the testimony of plaintiff’s expert.

14

Cochlear also asserts, in the alternative, that the court
should remit the damages rather than grant a new trial. (See Dkt.
511-3, Rule 59 Joint Br. at 11). However, for the reasons set forth
in this Order, the court is not persuaded that the jury’s verdict is
clearly unsupported by the evidence nor that it exceeds the
amount needed to make plaintiff whole.
15

The parties’ Rule 59 Joint Brief was filed in its original form
as Dkt. 508-1, and in re-formatted form as Dkt. 511-3. For
convenience, the court refers to the pagination in Dkt. 511-3
unless otherwise specified.

76a
As noted earlier, a Rule 59 motion for new trial may
be granted “only if the verdict is contrary to the clear
weight of the evidence, is based upon false or perjurious evidence, or to prevent a miscarriage of justice.”
Molski, 481 F.3d at 729. A district court commits a
“clear abuse of discretion” in denying a Rule 59 motion
“only where there is an absolute absence of evidence to
support the jury’s verdict.” Crowley, 883 F.3d at
751(emphasis in original). Where, as here, the Rule 59
motion asserts an error of law based on an erroneous
evidentiary ruling, “[a] new trial is only warranted
when an erroneous evidentiary ruling substantially
prejudiced a party.”16 Ruvalcaba, 64 F.3d at 1329
(internal quotation marks omitted). “The burden of
showing harmful error rests on the party seeking the
new trial.” Boston Scientific Corp. v. Johnson &
Johnson, 550 F.Supp.2d 1103, 1110 (N.D. Cal. 2008).
Cochlear contends that Ms. Elsten’s opinion should
have been excluded because it was “not the result of
reliable principles and methods reliably applied to the
facts of the case.” (Dkt. 511-3, Rule 59 Joint Br. at 1).
However, Cochlear’s arguments challenge only the
propriety of the facts and data Ms. Elsten incorporated
into her analysis. (See id. at 5-11). Further, contrary
to defendant’s contention, Ms. Elsten’s opinion is
based on well-accepted valuation principles and
methodologies such as the market approach and the
income approach. See, e.g., ResQNet.com, Inc. v.
16

The admissibility of evidence is reviewed under the law of
the regional circuit. See Ethicon, Inc. v. U.S. Surgical Corp., 135
F.3d 1456, 1465 (Fed. Cir.), cert. denied, 525 U.S. 923 (1998). In
the Ninth Circuit, “[d]istrict courts are granted broad discretion
in admitting evidence, and their rulings are reviewed only for an
abuse of discretion.” Ruvalcaba v. City of Los Angeles, 64 F.3d
1323, 1328 (9th Cir. 1995), cert. denied, 517 U.S. 1216 (1996).

77a
Lansa, Inc., 594 F.3d 860, 869 (Fed. Cir. 2010) (using
market approach and comparing similar licensing
activity); Lucent Technologies, Inc. v. Gateway, Inc.,
580 F.3d 1301, 1324 (Fed. Cir. 2009), cert. denied,
560 U.S. 935 (2010) (“Lucent Technologies”) (“[T]he
analytical method[] focuses on the infringer’s
projections of profit for the infringing product.”); TWM
Manufacturing Co., Inc. v. Dura Corp., 789 F.2d 895,
899 (Fed. Cir.), cert. denied, 479 U.S. 852 (1986)
(same); Inline Connection Corp. v. AOL Time Warner
Inc., 470 F.Supp.2d 424, 432 n. 38 (D. Del. 2007) (“The
25% Rule of Thumb and the Analytical Approach are
two variations of the Income Approach.”); Aqua Shield
v. Inter Pool Cover Team, 774 F.3d 766, 772 (Fed. Cir.
2014) (“[A]nticipated incremental profits under the
hypothesized conditions are conceptually central to
constraining the royalty negotiation[.]”)). Thus, the
only remaining inquiry with respect to Cochlear’s
evidentiary challenge is whether Ms. Elsten’s
testimony was based on sufficient facts or data. (See
Dkt. 511-3, Rule 59 Joint Br. at 5-11).
1. Whether Ms. Elsten Improperly Valued
AB’s Stock and/or Improperly Relied on
the AB-AMF License.
Under a 1999 licensing agreement between AMF
and AB (“1999 License”),17 AB paid AMF a 2-3% running royalty of $23.1 million, (see Dkt. 495, January
16, 2014, A.M. Trial Tr. at 128; Dkt. 465, January 16,
17

In addition to the 1999 License, Ms. Elsten also analyzed
other less comparable licenses. For example, she considered a
license between the University of Melbourne and Cochlear, (see
Dkt. 495, January 16, 2014, A.M. Trial Tr. at 135-136), and a
1988 license between UCSF and a predecessor to AB, as well as
three other Foundation licenses for medical device technologies.
(See id. at 137).

78a
2014, P.M. Trial Tr. at 31-33), and 1,000,000 shares,
which were assigned a book value of $2.80 per share.
(See Dkt. 465, January 16, 2014, P.M. Trial Tr. at 36).
Ms. Elsten analyzed the 1999 License under the
market approach, (see Dkt. 495, January 16, 2014,
A.M. Trial Tr. at 126-33), and opined that plaintiff and
defendant would have reached a 7.5% royalty rate for
the ’616 and ’691 patent in June 1998. (See Dkt. 465,
January 16, 2014, P.M. Trial Tr. at 18-20; see also Dkt.
495, January 16, 2014, A.M. Trial Tr. at 123-30
(explaining reasoning for setting the range between
4.6% and 8.8%). She found the 1999 license to be the
most useful because it dealt with the same licensor,
was close in time to the hypothetical negotiation and
included the subject patent. (See Dkt. 495, January 16,
2014, A.M. Trial Tr. at 126). Although the 1999 license
covered multiple patents and know-how, (see id. at
126-27), based on conversations with the Foundation’s
knowledgeable employees, (see id. at 127), Ms. Elsten
concluded that its value was largely driven by the back
telemetry technology in the ’616 and ’691 patents.18
(See id. at 126-27; Dkt. 465, January 16, 2014, P.M.
Trial Tr. at 28-29).
The parties renegotiated the license in 2004 and
AMF received an additional 1.1 million shares of AB
stock in exchange for a reduced royalty rate. (See Dkt.
495, January 16, 2014, A.M. Trial Tr. at 88-89 & 96)
(AMF CEO David Hankin’s testimony). Ms. Elsten
took into account the value of the shares based on the
acquisition of AB by Boston Scientific to come up with
a range of effective royalty rates. (See id. at 128-130).
18

Because the ’691 patent is no longer relevant to the
discussion at hand, any reference to the subject patents or
patents-in-suit should be construed as referring only to the ’616
patent.

79a
The low end of the range came from Boston Scientific’s
offer of $21 per share, for an effective rate of 4.6%,
whereas the high end rate of 8.8% came from what the
Foundation actually received which was $11 per share
plus earnout payments based on AB’s continued
success. (See id. at 129-130). Based on the market
approach, Ms. Elsten concluded that the appropriate
royalty rate should be between 4.6% and 8.8%. (See id.
at 137-138).
Ms. Elsten also conducted an alternative analysis
using the income approach, (see Dkt. 465, January 16,
2014, P.M. Trial Tr. at 5-6); TWM Manufacturing Co.,
789 F.2d at 899, and concluded that Cochlear made
additional profits of 16% to 33% over industry for gross
profits and 18% for operating profits. (See Dkt. 495,
January 16, 2014, A.M. Trial Tr. at 140-143; Dkt. 465,
January 16, 2014, P.M. Trial Tr. at 5-6). Based on the
income approach, Ms. Elsten opined that the range
was 16% to 18% even though there was evidence to
support profits up to 33%. (See Dkt. 465, January 16,
2014, P.M. Trial Tr. at 5-6). Finally, Ms. Elsten
analyzed the factors set forth in Georgia-Pacific Corp.
v. U.S. Plywood Corp., 318 F.Supp. 1116 (S.D. N.Y.
1970), modified and aff’d, 446 F.2d 295 (1971), cert.
denied, 404 U.S. 870 (1971), and concluded that factors
3, 4, 5, and 7 favored an increased royalty rate.19 (See
19

The Federal Circuit describes the Georgia-Pacific factors as:
“(1) royalties the patentee has received for licensing the patent to
others; (2) rates paid by the licensee for the use of comparable
patents; (3) the nature and scope of the license (exclusive or
nonexclusive, restricted or nonrestricted by territory or product
type); (4) any established policies or marketing programs by the
licensor to maintain its patent monopoly by not licensing others
to use the invention or granting licenses under special conditions
to maintain the monopoly; (5) the commercial relationship
between the licensor and licensee, such as whether they are

80a
Dkt. 465, January 16, 2014, P.M. Trial Tr. at 8-18).
Ms. Elsten calculated the average of the low points of
the market and income approaches to be 9%, and
based on her professional judgment and experience,
she reduced that number to 7.5%. (See id. at 19-20).
She then applied that rate to the appropriate royalty
base, i.e., the revenue that Cochlear received from the
sale of the accused products. (See id. at 21-24).
Defendant contends that Ms. Elsten: (1) should not
have “consider[ed] the future sale of AB to Boston
Scientific plus earn-out payments” because “a sale
occurring six years in the future would impact what
the parties believed AB’s stock was worth in 1998
when included in the AB-AMF license,” (Dkt. 511-3,
Rule 59 Joint Br. at 7); and (2) “[i]mproperly [r]elied
on the AB-AMF [l]icense[.]” (Id. at 8-9). Defendant’s
contentions are unpersuasive.
“[F]actual developments occurring after the date of
the hypothetical negotiation can inform the damages
calculation[.]” Lucent Technologies, 580 F.3d at 1333;
competitors; (6) the effect of selling the patented specialty in
promoting sales of other products of the licensee; (7) the duration
of the patent and license term; (8) the established profitability of
the product made under the patent, including its commercial
success and current popularity; (9) the utility and advantages of
the patent property over old modes or devices; (10) the nature of
the patented invention and the benefits to those who have used
the invention; (11) the extent to which the infringer has used the
invention and the value of that use; (12) the portion of profit or of
the selling price that may be customary in that particular
business to allow for use of the invention or analogous inventions;
(13) the portion of the realizable profit that should be credited to
the invention as opposed to its non-patented elements; (14) the
opinion testimony of qualified experts; and (15) the results of a
hypothetical negotiation between the licensor and licensee.” i4i
Ltd., 598 F.3d at 853 n. 3.

81a
see Honeywell Int’l, Inc. v. Hamilton Sundstrand
Corp., 378 F.Supp.2d 459, 464 & 480 (D. Del. 2005) (“It
is important to note, however, that the ascertainment
of this date does not rigidly foreclose the factfinder
from considering subsequent events.”). This “book of
wisdom” allows for the correction of “uncertain
prophec[ies]” in reconstructing the hypothetical negotiation. See Sinclair Refining Co. v. Jenkins Petroleum
Process Co., 289 U.S. 689, 698, 53 S.Ct. 736, 739 (1933)
(“But a different situation is presented if years have
gone by before the evidence is offered. Experience is
then available to correct uncertain prophecy. Here is a
book of wisdom that courts may not neglect. We find
no rule of law that sets a clasp upon its pages, and
forbids us to look within.”); see also Aqua Shield, 774
F.3d at 772 (Fed. Cir. 2014) (citing Sinclair Refining
Co., 289 U.S. at 698, 53 S.Ct. at 739, and stating that
“[e]vidence of the infringer’s actual profits generally is
admissible as probative of his anticipated profits[]”).
“Consideration of evidence of usage after infringement
started can, under appropriate circumstances, be
helpful to the jury and the court in assessing whether
a royalty is reasonable.” Lucent Technologies, 580 F.3d
at 1333-34.
Plaintiff’s expert took into account the Foundation’s
business model which typically involved receiving an
equity component as well as a royalty component,20
20

AMF’s business model incorporates aspects of venture
capitalism through its “IP for equity” strategy. (See Dkt. 463,
January 14, 2014, P.M. Trial Tr. at 54 (Mr. Mann: “The foundation is really an incubator that identifies unmet or poorly met
needs and then addresses technology and develops – tries to
develop a product up to a point, and then it licenses it out to an
existing company in return for royalties or stock in the company,
or it spins it out to a start-up company and gets equity in that
stock.”)). AMF’s “IP for equity” strategy is similar to the one

82a
(see Dkt. 465, January 16, 2014, P.M. Trial Tr. at 39
(Ms. Elsten’s testimony that she “underst[oo]d that
[AMF] regularly take[s] equity as part of their
royalties”)), and noted that during the time AB was
acquired, there was “a very hot market” for medical
device companies. (Dkt. 495, January 16, 2014, A.M.
Trial Tr. at 132). Although Cochlear did not dispute
that AMF pursued an “IP for equity” business model
during trial, it now challenges Ms. Elsten’s decision to
eschew the $2.80 book value for the value captured in
the 2004 Boston Scientific transaction as the basis for
her calculations. (See Dkt. 511-3, Rule 59 Joint Br. at
5-7). According to defendant, Ms. Elsten should have
taken the same approach as defendant’s expert who
used the $2.80 book value to calculate his proposed
“reasonable royalty” rate of “not more than 1.2
percent” (or approximately $22 million). (See Dkt. 467,
January 21, 2014, P.M. Trial Tr. at 48 & 55). But Mr.
Parr’s valuation, whether by design or defect, never
fully contemplated the practical realities and concerns
confronting patients or their attending doctors.21 (See
Microsoft pursued through its Microsoft IP Ventures arm, which
“seeks to capitalize [on its IP portfolio by licensing it] in exchange
for an equity stake in a potentially high growth start-up
company.” Ash Nagdev, et al., IP as Venture Capital A Case Study
of Microsoft IP Ventures, 8 WAKE FOREST INTELL. PROP. L.J. 197,
208-09 (2008); see also Cynthia M. Ho, Patents, Patients, and
Public Policy: An Incomplete Intersection at 35 U.S.C. § 287(c), 33
U.C. DAVIS L. REV. 601, 613 n. 56 (2000) (“Indeed, the medical
community has previously recognized the potential for patents to
finance research.”). In determining the value of the parties’
expectations for equity, Ms. Elsten testified that she took into
account the nature of the Foundation’s business model, i.e., to
accept equity in licenses to fund other projects. (See Dkt. 465,
January 16, 2014, P.M. Trial Tr. at 39).
21

Again, both experts relied on the same royalty base to come
up with their calculations. (See Dkt. 467, January 21, 2014, P.M.

83a
Dkt. 467, January 21, 2014, P.M. Trial Tr. at 60-64
(Mr. Parr’s testimony that he was “standing by [his]
interpretation”)). The income approach’s valuation
methodology, however, derives present discounted
value of a patent by calculating estimated “income
stream derived over the life of the patent” and
Trial Tr. at 53-55 (Mr. Parr agreeing he found no fault with the
$1.8 billion royalty base and stating, “[i]t’s the only royalty base
we could come up with.”)). However, Mr. Parr’s characterization
of back telemetry as merely “incremental technology,” (id. at 64),
was undermined by his adoption of the entire market value of
$1.8 billion as the operative royalty base, since the entire market
value may not be attributed to merely “incremental” improvements that do not form the basis for consumer demand. Also, the
analysis conducted by defendant’s expert suffered from other
deficiencies the jury could have taken into account in rejecting
his opinion. For example, because the hearing device must be
surgically implanted into a patient’s head, an expert’s valuation
arguably should have considered pre-patent realities such as the
difficulty of creating a hermetic seal (to maintain device sterility)
after testing the device during surgery (to make sure it was
working properly), or the necessity of “hav[ing] to go back into a
man’s or woman’s skull, open it again [and] check to see what[]
[was] going on” in the unfortunate post-surgery circumstance
where the implant appeared to be malfunctioning. (Id.). Mr.
Parr’s testimony did not demonstrate an understanding of these
circumstances; rather, he appeared to not take them into
consideration. During questioning regarding the specialized
microsurgery required to implant such devices into a patient’s
head, Mr. Parr stated, “I don’t know where the implant – where
the cutting occurs. I just know it has to be implanted.” (Id. at 60).
Mr. Parr’s tenuous grasp of relevant context was highlighted by
the unseemly analogy drawing purported similarities between
popping open the hood of a car and cutting open a patient’s head
during implant surgery. (See id. at 45 & 60-65). While “any
reasonable royalty analysis necessarily involves an element of
approximation[] and uncertainty[,]” i4i Ltd., 598 F.3d at 857-58,
value must still be assessed in light of context, not despite it. The
jury’s determination that Ms. Elsten was more credible than Mr.
Parr is supported by record.

84a
applying a discounted cash flow analysis to aggregate
future income. See John E. Dubiansky, An Analysis for
the Valuation of Venture Capital-Funded Startup
Firm Patents, 12 B.U. J. SCI. & TECH. L. 170, 175
(2006). As Ms. Elsten testified, “once you decide to
accept equity as compensation, you by definition
accept the future consequences of the future value of
that. Stock has a future value; money does not. So by
taking stock instead of cash in hand, you’re introducing an element of the future. And if you’re evaluating
what that’s worth, you have to take those future
expectations into account.” (Dkt. 465, January 16,
2014, P.M. Trial Tr. at 39). Here, future expectations
were particularly salient because AMF sought to
license its patent rights to potential startups in return
for an equity stake. Thus, the court is persuaded that
Ms. Elsten properly factored the value of the AB stock
into her analysis.
There was evidence presented – some of it from
around the time of the hypothetical negotiation – that
correlated, in some respect, to the extent the back
telemetry technology set forth in the ’616 patent was
used by Cochlear. For example, after the U.S. Food &
Drug Administration (“FDA”) approved the first
commercial cochlear implant with back telemetry –
the Clarion – in March 1996,22 Cochlear’s market
22

Chapter 16 of Mr. Parr’s book, Intellectual Property:
Valuation, Exploitation, and Infringement Damages, John Wiley
& Sons, Inc. (4th ed. 2018), entitled, “Royalty Rates for Licensing,” discusses a compilation of 458 pharmaceutical and biotech
licenses which found the average royalty rate to be 7%, and
the high-low range was 50% to 0%. See id. at 246. Concerning
the 50% royalty rate, Mr. Parr observed, “it is likely the deal
involving a 50% royalty rate is for a finished product that has
successfully completed all FDA trials and is a commercial
success.” Id. Given this, Mr. Parr’s proposed 1.2% royalty rate

85a
monopoly came to an unceremonious end. In virtually
the blink of an eye, the newly-introduced Clarion took
a significant 30% of Cochlear’s market share. (See
Dkt. 465, January 16, 2014, P.M. Trial Tr. at 17
(Ms. Elsten’s testimony that “Cochlear’s market share
plummeted dramatically by 30 percent in that first
year” that Clarion was sold)). Plaintiff’s Clarion
enjoyed significant sales growth until 1998 when the
FDA approved the Nucleus 24, which was Cochlear’s
first implant with back-telemetry capability. (See id.
(Ms. Elsten’s testimony that “in ‘98 the infringement
started, and that stabilized the market share loss for
Cochlear”); Dkt. 493, January 14, 2014, A.M. Trial Tr.
at 70 (stipulated fact that Cochlear’s Nucleus 24
received FDA approval on June 25, 1998)). During
trial, the jury was told about the excitement and
anticipation generated by the Clarion’s clinical trials,
(see Dkt. 463, January 14, 2014, P.M. Trial Tr. At
96 (Thomas Santogrossi’s testimony regarding the
Clarion’s much-anticipated release)), but heard no
testimony about the excitement and anticipation
generated by the infringing product’s clinical trials.
The jury, in fact, heard no evidence about any clinical
trials relating to the Nucleus 24. In other words, the
jury could have concluded that Cochlear, having lost
30% of its market in one year to the device that
incorporated the patented technology, would have
been more than willing to pay a royalty rate larger
than the one to two percent defendant believes is
appropriate and that the value of AB stock at the time
of the Boston Scientific transaction was an objective

for the patented technology in the Clarion – a finished, FDAapproved product that immediately took 30% of the market
share – appears to be inconsistent with his own theories.

86a
data point to consider in determining what the
reasonable royalty should be.
Further, although there was evidence suggesting
that Cochlear began infringing the ’616 patent from
the very beginning, see infra at § III.B., Cochlear
claims that it was not notified of potential infringement until 2003. (See Dkt. 613, Enhanced Damages
Opp. at 6). Accepting Cochlear’s assertion as to when
it was advised of any potential breach of the ’616
patent, it stands to reason that the 2004 Boston
Scientific transaction provides valid and useful
information relating to the appraisal of the value of
the ’616 patent at the time of the breach in 2003. The
book of wisdom is particularly appropriate where, as
here, events that affected the value of the patented
technology occurred after the infringement began. “If
the hypothetical negotiation could not be informed
by post-negotiation information, then prospective
infringers might perceive that blatant, blind appropriation of inventions . . . is the profitable, can’t-lose
course.” Honeywell Int’l, Inc., 378 F.Supp.2d at 465
(internal quotation marks omitted). As discussed
below, see infra at § III., this is a case where an
infringer engaged in “blatant, blind appropriation” of
another party’s invention because the invention
threatened to undermine the infringer’s entire business. In short, the evidence was sufficient to support
the expert’s consideration of the circumstances underlying the Boston Scientific transaction. See, e.g.,
Function Media, LLC v. Google, Inc., 2010 WL 272409,
*3 (E.D. Tex. 2010) (“The increased value of Google’s
stock is relevant to the jury’s determination of
the overall value of the Stanford license.”); Syntrix
Biosystems, Inc. v. Illumina, Inc., 2013 WL 593801, *5
(W.D. Wash. 2013) (finding that it was “reasonable”
for expert to incorporate into his methodology the

87a
“inference that Tufts University received a lower royalty rate from [the licensee company] in return for its
doctor receiving a partial stake” and that “[a]ttacking
this inference goes to the weight of [the expert’s]
opinion and not to any fundamental deficiency”).
Cochlear also argues that beyond improperly considering the circumstances of the Boston Scientific
transaction, plaintiff’s expert should not have relied
on the 1999 License at all. (See Dkt. 511-3, Rule 59
Joint Br. at 8-9 & 27). According to Cochlear, the ABAMF licensing agreement covered multiple patents
and know-how and Ms. Elsten erred in “attribut[ing]
all of the value of the license to the patents-in-suit.”23
(Id. at 8) (emphasis omitted). Under the circumstances
here, the court is persuaded that plaintiff’s expert’s
opinion as to the value of the 1999 License is not
against the clear weight of the evidence.
First, as noted earlier, the significance of the back
telemetry technology caused Cochlear to lose 30
percent of its market share when AB introduced the
Clarion with the patented technology. Based on this,
the jury certainly could have concluded that the back
telemetry technology in the subject patent drove the
value of the 1999 License. Second, Ms. Elsten testified
as to why she believed the subject patent drove the
value of the 1999 License, (see Dkt. 495, January 16,
23

“Actual licenses to the patents-in-suit are probative not only
of the proper amount of a reasonable royalty, but also of the
proper form of the royalty structure.” LaserDynamics, Inc. v.
Quanta Computer, Inc., 694 F.3d 51, 79-80 (Fed. Cir. 2012). As
noted earlier, under the 1999 License, AB paid AMF a 2-3%
running royalty of $23.1 million, (see Dkt. 495, January 16, 2014,
A.M. Trial Tr. at 128; Dkt. 465, January 16, 2014, P.M. Trial Tr.
at 31-33), and 1,000,000 shares with a book value of $2.80. (See
Dkt. 465, January 16, 2014, P.M. Trial Tr. at 36).

88a
2014, A.M. Trial Tr. at 126-27), and Cochlear aggressively cross-examined her on that point. (See Dkt. 465,
January 16, 2014, P.M. Trial Tr. at 24-65). Ms. Elsten
testified that she had discussions with the then-CFO
of the Foundation and a vice president of marketing as
to the value of the subject patent. (See Dkt. 495,
January 16, 2014, A.M. Trial Tr. at 127 (Ms. Elsten’s
testimony about these discussions)). Other witnesses
confirmed the significance and value of the subject
patent, such as audiologist Dr. Ginger Stickney and
surgeon Dr. Robert Schindler, who each testified that
they would not recommend any cochlear implant
system that did not use the patented technology. (See
Dkt. 494, January 15, 2014, A.M. Trial Tr. at 30-31
(Dr. Schindler’s testimony that he “would never do a
cochlear implant without back-telemetry device”);
Dkt. 464, January 15, 2014, P.M. Trial Tr. at 47-48
(Dr. Stickney’s testimony)).
2. Whether Ms. Elsten Improperly Applied
the Entire Market Value Rule.
Cochlear also contends that a new trial should be
granted because plaintiff’s expert improperly applied
the entire market value rule (“EMVR”) in calculating
the royalty base of approximately $1.8 billion. (See
Dkt. 511-3, Rule 59 Joint Br. at 9-11 & 27-28).
According to defendant, “nowhere in her testimony
does she state that the patented technology drove the
sales of the accused products[,]” and “[t]he evidence
uniformly shows that features other than telemetry
drive [sic] demand for cochlear implants.” (Id. at 10).
Defendant’s assertions are unpersuasive.
First, Cochlear’s criticism of Ms. Elsten’s testimony
regarding whether the patented technology drove
market demand is somewhat disingenuous because
Cochlear did not ask Ms. Elsten any questions about

89a
her royalty base, (see, generally, Dkt. 465, January 16,
2014, P.M. Trial Tr.), and Cochlear does not cite any
evidence of an alternative royalty base presented
during the trial. (See, generally, Dkt. 511-3, Rule 59
Joint Br.). Indeed, Cochlear’s own expert used the
same royalty base as Ms. Elsten and stated that
was “the only royalty base that [he] could come up
with” under the circumstances of this case. (Dkt. 467,
January 21, 2014, P.M. Trial Tr. at 53). What’s more,
less than a page after criticizing, in effect, the opinions
of both experts – since both experts used the same
royalty base – Cochlear argues that the court should
use the same royalty base as a basis for an offer of
remittitur, (see Dkt. 511-3, Rule 59 Joint Br. at 11),
with no explanation as to why that royalty base is
sufficient when relied on by Cochlear’s expert but not
plaintiff’s expert. (See, generally, id.). In short, given
that both experts relied on the same royalty base
and Cochlear did not put forth any evidence of an
alternative royalty base, the court finds that defendant waived its contentions of error in this regard. See,
e.g., Versata Software, Inc. v. SAP America, Inc., 717
F.3d 1255, 1267-68 (Fed. Cir. 2013), cert. denied, 571
U.S. 1164 (2014) (upholding jury’s decision on royalty
base where defendants’ expert agreed with royalty
base provided by plaintiffs).
Second, with respect to the smallest saleable patentpracticing unit, see LaserDynamics, Inc., 694 F.3d at
67 (“[I]t is generally required that royalties be based
not on the entire product, but instead on the smallest
saleable patent practicing unit.”) (internal quotation
marks omitted), defendant does not point to any
evidence from the trial showing that there is another
product or basis upon which to find an even smaller
saleable patent-practicing unit. (See, generally, Dkt.
511-3 at 9-11 & 27-28). In any event, the evidence was

90a
sufficient to establish that the royalty base relied on
by both experts was based on the smallest saleable
patent-practicing unit. For example, there was evidence that the implants and speech processors could
not be mixed-and-matched between manufacturers.
(See Dkt. 464, January 15, 2014, P.M. Trial Tr. at 49
(Dr. Stickney’s testimony); Dkt. 495, January 16,
2014, A.M. Trial Tr. at 47 (Dr. Young’s testimony);
Dkt. 465, January 16, 2014, P.M. Trial Tr. at 22 (Ms.
Elsten’s testimony)). Also, plaintiff’s expert testified
that the claims covered the combination of the processor, implant and software, that the processor and
implant are sold together, and that it was Cochlear’s
practice to license both components together. (See Dkt.
465, January 16, 2014, P.M. Trial Tr. at 22). According
to Ms. Elsten, there was no “smaller subassembly that
you could point to and say, oh, that subassembly by
itself practices the patents.” (Id.; see Dkt. 463, January
14, 2014, P.M. Trial Tr. at 84 (Mr. Santogrossi’s
testimony)). In short, the evidence was sufficient to
establish that the cochlear implants and speech
processors constituted the smallest salable patentpracticing unit.
Finally, even assuming that the entire market rule
applied, the evidence was sufficient for the jury to
conclude that the patented back telemetry technology
drove the demand for the infringing cochlear implant
systems. See Marine Polymer Technologies, Inc. v.
HemCon, Inc., 672 F.3d 1350, 1360 (Fed. Cir. 2012)
(“The use of the entire market value as the royalty
base is acceptable to the extent that the patent owner
proves that the patent-related feature is the basis
for customer demand.”) (internal quotation marks
omitted). At trial, Ms. Elsten testified that she could
not find any feature that had the significant impact
that back telemetry had on either profits or market

91a
share. (Dkt. 465, January 16, 2014, P.M. Trial Tr. at
70 & 72 (“The data indicates that back telemetry had
a profound impact.”)). The jury heard testimony about
how back telemetry was so important that patients
were willing to have cables “tunneled” through their
scalp and resurface through a “plug” on the other side
of their head in order to have this feature. (See Dkt.
494, January 15, 2014, A.M. Trial Tr. at 51 (Dr.
Schindler’s testimony describing this process)). There
was also unchallenged testimony from Dr. Schindler
and Dr. Stickney that they would not recommend a
patient receive an implant that did not have back
telemetry, and, by implication, that to do so would fall
below their professional standards of care. (See Dkt.
494, January 15, 2014, A.M. Trial Tr. at 31 (Dr.
Schindler’s testimony); Dkt. 464, January 15, 2014,
P.M. Trial Tr. at 47-48 (Dr. Stickney’s testimony)).
Based on this evidence, it was reasonable for the jury
to contemplate just how important the back telemetry
feature must be for a patient to agree to undergo
“tunneling,” and consider how much more it would be
worth to be able to forgo “tunneling” but still have this
feature. Cochlear’s own annual reports serve as a
poignant reminder of just how important these
implants are to the patients who receive them, by
“changing lives” with “the gift of sound.” (See Dkt. 60526, Lyons Decl., Exh. 45, 2012 Cochlear Annual Report
at ECF 29128-29).
Next, the jury was told that Cochlear lost 30% of its
market share to AB immediately following the
Clarion’s release. (See Dkt. 465, January 16, 2014,
P.M. Trial Tr. at 70-71). Ms. Elsten testified that her
analysis of the market data, including Cochlear’s
immediate 30 percent loss in market share, indicated
that back telemetry had a “profound impact” on
market demand. (See id. at 70 & 72). Cochlear’s

92a
executives admitted that its Nucleus 22 was not
capable of back telemetry, and had been on the market
for over ten years by the time the Clarion, a device
with not merely back telemetry but wireless back
telemetry, was launched. (See Dkt. 496, January 17,
2014, A.M. Trial Tr. at 17 & 47 (testimony of James
Patrick, defendant’s Chief Scientist and senior vice
president24)). Given the choice between a device with
newly-patented, cutting-edge technology containing a
feature of undisputedly vital importance, or another
reiteration of a 13-year-old model lacking this vitally
important feature, 30% of the market resoundingly
chose the former. (See Dkt. 465, January 16, 2014,
P.M. Trial Tr. at 17 & 71). The Clarion, with its
wireless, bi-directional telemetry capabilities, was a
game changer that formed the basis of its market
demand. Finally, it should be noted that Cochlear cites
no evidence of features or improvements – other
than the patented technology – that had the dramatic
impact on market share that the Clarion did. (See,
generally, Dkt. 511-3, Rule 59 Joint Br. at 9-11). In
short, the evidence was sufficient to establish that the
patented technology formed the basis for its market
demand and contributed substantially to the value of
the infringing cochlear implant systems.
D. Conclusion.
Cochlear’s motion for new trial on damages can be
granted “only if the verdict is contrary to the clear
weight of the evidence, is based upon false or perjurious evidence, or to prevent a miscarriage of justice.”
Molski, 481 F.3d at 729. The court “must uphold the
24

Mr. Patrick testified that he has worked for Cochlear since
approximately 1981, and has been Chief Scientist since 2002. (See
Dkt. 465, January 16, 2014, P.M. Trial Tr. at 74-75).

93a
jury’s finding of the amount of damages unless the
amount is grossly excessive or monstrous, clearly not
supported by the evidence, based on speculation or
guesswork.” Yeti by Molly, Ltd. v. Deckers Outdoor
Corp., 259 F.3d 1101, 1107 (9th Cir. 2001). In applying
this standard, the court must keep in mind that any
reasonable royalty analysis “necessarily involves an
element of approximation and uncertainty.” Unisplay,
S.A. v. American Electronic Sign Co., Inc., 69 F.3d 512,
517 (Fed. Cir. 1995).
“Doubts about the correctness of the verdict are not
sufficient grounds for a new trial: the trial court must
have a firm conviction that the jury has made a
mistake.” Landes Construction Co., Inc. v. Royal Bank
of Canada, 833 F.2d 1365, 1372 (9th Cir. 1987). After
giving full respect to the jury’s verdict, the court
cannot say that it has been “left with the definite and
firm conviction that a mistake has been committed [by
the jury].” Id. at 1371-72 (internal quotation marks
omitted); Tortu, 556 F.3d at 1084 (a court cannot
“substitute its evaluations for those of the jurors” and
should not grant new trial simply “because it would
have arrived at a different result.”) (internal quotation
marks omitted). Nor can the court say that allowing
Ms. Elsten to testify was an evidentiary error “so
prejudicial as to require a new trial which would []
likely [] produce a different result.” Abarca v. Franklin
County Water District, 813 F.Supp.2d 1199, 1209
(E.D. Cal. 2011) (internal quotation marks omitted);
Ruvalcaba, 64 F.3d at 1328. Cochlear’s objections to
the testimony and evidence provided by plaintiff’s
expert relate to the weight of the evidence. Cochlear
had an opportunity to aggressively cross-examine
plaintiff’s expert and convince the jury that her
analysis should be rejected in favor of its expert. But
the jury determined that the weight of the evidence

94a
favored plaintiff, and the court believes this finding to
be adequately supported as a matter of law. Under the
circumstances, the court is persuaded that the jury’s
damages verdict, rather than being clearly contrary to
the weight of evidence, was a more-than-defensible
resolution of the damages issues in this case.
III. WILLFULNESS AND ENHANCED DAMAGES.
The Federal Circuit “vacate[d] [this] court’s determination that Cochlear’s infringement of [plaintiff’s]
patents was not willful and remand[ed] for further
proceedings” consistent with the Supreme Court’s
decision in Halo, a decision that was issued after this
court issued its decision granting defendant’s JMOL
Motion. See Alfred Mann, 841 F.3d at 1345-46. On
remand, this “court must consider two questions. The
first of these is subjective willfulness.” WesternGeco
LLC v. Ion Geophysical Corp., 837 F.3d 1358, 1363
(Fed. Cir. 2016), rev’d on other grounds, 138 S.Ct. 2129
(2018). The second question is, “if the jury’s finding of
willful infringement is sustained, [] whether enhanced
damages should be awarded.” Id. at 1364.
A. Willfulness.25
In Halo, the Supreme Court held that the two-step
Seagate inquiry was “unduly rigid” and “encumber[ed]
the statutory grant of discretion to the district courts.”
136 S.Ct. at 1932 (internal quotation marks omitted).
“The Court rejected the Seagate test’s clear-and25

Since the court originally addressed the jury’s willfulness
finding pursuant to defendant’s JMOL Motion, (see Dkt. 540,
Court’s Order of March 31, 2015, Re: Post-Trial Motions at 1213), the court will again apply the Rule 50 standard. The court
hereby incorporates the Rule 50 standard set forth above. See
supra at § I.A.

95a
convincing standard of proof[.]” Alfred Mann, 841 F.3d
at 1346. The Supreme Court also rejected Seagate’s
requirement of “a finding of objective recklessness in
every case before district courts may award enhanced
damages.” Halo, 136 S.Ct. at 1932. However, “Halo did
not disturb the substantive standard for the second
prong of Seagate, subjective willfulness.” WesternGeco
LLC, 837 F.3d at 1362. “Rather, Halo emphasized that
subjective willfulness alone . . . can support an award
of enhanced damages.” Id.; Halo, 136 S.Ct. at 1933
(“The subjective willfulness of a patent infringer,
intentional or knowing, may warrant enhanced damages, without regard to whether his infringement was
objectively reckless.”). Thus, on remand, the court
must determine whether substantial evidence supports the jury’s finding of subjective willfulness. See
Maynard, 37 F.3d at 1404 (describing substantial
evidence standard).
In this case, plaintiff presented sufficient evidence
to support the jury’s finding of willfulness. As an
initial matter and as noted earlier, see supra at § II.C.,
defendant misconstrues the scope of the patent at
issue as well as plaintiff’s argument by framing the
issue as notice of the “physician’s tester” as it relates
to the Nucleus 24. (See, e.g., Dkt. 613, Enhanced
Damages Opp. at 4 (“Plaintiffs . . . do not even allege
there is any evidence that Cochlear was aware of the
specific design of the physician’s tester claimed in the
’616 patent before Cochlear began selling its Nucleus
24 implant with back telemetry in 1998.”)). But what
is at issue here is whether Cochlear copied the back
telemetry technology encompassed within the ’616
patent. Cochlear appears to concede that it was aware
of the subject back telemetry technology at least as far
back as 1998, if not earlier. (See id. at 4 (“[W]hile it
may be true that Advanced Bionics, using AMF’s

96a
technology, launched a cochlear implant with back
telemetry before Cochlear and that Cochlear was
aware that Advanced Bionics’ implant would have
back telemetry, that is completely beside the point.”)).
This awareness is not, as Cochlear contends, “beside
the point,” (see id.), because copying of patented
technology does not require that all the elements of a
patent claim be copied. See Read Corp. v. Portec, Inc.,
970 F.2d 816, 827 & n. 7 (Fed. Cir. 1992), abrogated on
other grounds by Markman v. Westview Instruments,
Inc., 52 F.3d 967, 975-78 (Fed. Cir. 1995) (en banc)
(referring to copying “the ideas or design of another”
and stating that this “would encompass, for example,
copying the commercial embodiment, not merely the
elements of a patent claim”).
In any event, the record contains substantial evidence from which the jury could conclude that
Cochlear intentionally copied plaintiff’s back telemetry technology set forth in the ’616 patent. See Polara
Engineering, Inc. v. Campbell Co., 237 F.Supp.3d 956,
992 (C.D. Cal. 2017) (“Polara I”), aff’d in part, vacated
in part, 894 F.3d 1339 (Fed. Cir. 2018) (evidence of
deliberate copying may be circumstantial). For example, the jury heard testimony that if Cochlear’s devices
were actually based on Professor McDermott’s noninfringing design, only one voltage monitoring line,
not two, should have registered. (See Dkt. 464,
January 15, 2014, P.M. Trial Tr. at 83-92 (Dr. Young’s
testimony explaining his basis for concluding that
Cochlear’s products were not based on the McDermott
patent); Dkt. 496, January 17, 2014, A.M. Trial Tr. at
75-77 (cross-examination of Tony Nygard, Cochlear’s
head of implant development, over why Cochlear’s
infringing designs produced two instead of one voltage
monitoring line); Dkt. 498, January 22, 2014, A.M.
Trial Tr. at 22 (Dr. Young’s testimony that “[t]he

97a
voltage crossover pair is being monitored, amplified by
this telemetry sensor amplifier, whereas in Professor
McDermott’s article, it’s only one line. [McDermott’s
device] only measures one voltage, not a pair.”)). There
was also evidence in the form of internal Cochlear
communications reflecting Cochlear’s serious concerns
with the imminent threat to its market leadership.
(See Dkt. 496, January 17, 2014, A.M. Trial Tr. at 17
& 47 (Mr. Patrick’s testimony that the Nucleus 22 was
not capable of back telemetry and had been on the
market since 1984); id. at 20 (internal memorandum
stating that “Cochlear has been challenged competitively for the first time, and our research and our
market leadership is at stake,” and expressing concern
that the Clarion could “obsolete” the Nucleus 22); id.
at 33 (internal memorandum dated May 28, 1991,
identifying Mini Med, AB’s predecessor, as a potential
competitor and assessing the competitive landscape);
Dkt. 463, January 14, 2014, P.M. Trial Tr. at 96 (Mr.
Santogrossi’s testimony regarding the Clarion’s much
anticipated release)). Based on this evidence, the jury
could have reasonably inferred that Cochlear knew
about the ’616 patent or, at a minimum, the technology
practiced by the patent. See, e.g., i4i Ltd., 598 F.3d at
860 (internal email communications by the defendant’s employees discussing marketing email sent by
the plaintiff constituted circumstantial evidence of
knowledge).
Indeed, based on evidence that Cochlear – the
worldwide leader in hearing implants – lost 30 percent
of its market share in the year after the Clarion was
introduced, (see Dkt. 465, January 16, 2014, P.M. Trial
Tr. at 70-71 (Ms. Elsten’s testimony that Cochlear’s
market share fell from 100% in 1996 to 70% in 1997)),
the jury could have inferred that Cochlear had a
motive and intent to deliberately copy plaintiff’s back

98a
telemetry technology. Faced with a 13-year drought in
introducing a replacement for the Nucleus 22, its
aging flagship product, coupled with the excitement
generated by the Clarion’s clinical trials, a dramatic
loss in market share was in the cards for Cochlear.
Until 1997, Cochlear had a virtual monopoly on the
U.S. market, and was unaccustomed to free market
forces or competition. (See Dkt. 463, January 14, 2014,
P.M. Trial Tr. at 78 (Mr. Santogrossi’s testimony
that Cochlear “was the predominant market leader at
that time” and “had pretty much a monopoly on the
market[]”)). Then, the Clarion was introduced and
Cochlear was now facing strong competition in the
U.S. market from an American startup. (See Dkt. 463,
January 14, 2014, P.M. Trial Tr. at 99 &105 (Mr.
Santogrossi’s testimony)). In response to this threat,
the Nucleus 24 was launched, but despite this being
Cochlear’s first new hearing implant product in more
than 13 years, the jury heard no evidence at all about
any clinical trials relating to the Nucleus 24 or any
excitement and anticipation generated by the Nucleus
24’s clinical trials. Under the circumstances, the court
is persuaded that there was substantial evidence for
the jury to conclude that Cochlear had a strong
motivation to copy plaintiff’s patented back telemetry
technology and that it did so through the Nucleus 24.
See Arctic Cat Inc. v. Bomardier Recreational Products, Inc., 198 F.Supp.3d 1343, 1350 (S.D. Fla. 2016)
(“That [defendant] developed a very similar system
under these circumstances is strong evidence of copying and favors enhanced damages.”); Omega Patents,
LLC v. CalAmp Corp., 2017 U.S. Dist. LEXIS 55846,
*25-26 (M.D. Fla. 2017) (enhancing actual damages by
threefold upon finding, among other things, that the
infringer “cho[se] not to design around [the patentsin-suit], . . . elected to sell infringing products and

99a
continues to do so to this day,” was motivated by
customer demand, and attempted to conceal its illegal
conduct through affirmative misrepresentations).
Cochlear relies on the same defense to copying that
the jury rejected at trial, namely, that “Cochlear
collaborated with Hugh McDermott in the design and
testing of a Cochlear implant that used back
telemetry.”26 (Dkt. 613, Enhanced Damages Opp. at 6).
26

Instead of discussing why the evidence does not support the
jury’s verdict, as Cochlear should do in seeking to aside the
verdict, see supra at § I.D., it cherry-picks a portion of the plaintiff’s expert’s testimony and asserts that “Plaintiffs’ allegation of
copying is really nothing more than an argument that Cochlear
infringes[.]” (Dkt. 613, Enhanced Damages Opp. at 5). Cochlear
quotes the following portion of plaintiff’s expert’s testimony:
Q. What evidence do you have that Cochlear copied?
A. Okay, so, let’s presume the patent is valid. In my
infringement analysis, I show that the claims in
the ’616 and the ’691 patent were all found in the
products.
Q. Okay. So, that’s infringement, right?
A. That’s infringement.
Q. So, what evidence do you have that Cochlear copied
what AMF did?
A. When you infringe, didn’t you copy somebody’s
stuff?
Q. So, that’s it? Infringement, you have no evidence of
copying besides that, correct? Besides your
infringement opinion?
A. That’s right.
(Id.) (quoting Dkt. 498, January 22, 2014, A.M. Trial Tr. at 36).
This excerpt does not undermine the substantial evidence that
was presented to the jury, and the jury was free to conclude that
the analysis and testimony of plaintiff’s expert was sufficient to
show both infringement and copying.

100a
But the jury heard evidence that allowed it to infer
that defendant did not use the non-infringing singleelectrode monitoring of McDermott but rather copied
plaintiff’s patented dual-electrode monitoring backtelemetry system. For example, during plaintiff’s
cross-examination of Mr. Nygard, the jury learned
that Professor McDermott’s single-electrode design
should produce only one voltage monitoring line, and
that even though Cochlear claimed to have used this
single-electrode design, its infringing devices produced two voltage monitoring lines. (See Dkt. 496,
January 17, 2014, A.M. Trial Tr. at 75-76 (Mr.
Nygard’s testimony)); see also Tinnus Enterprises,
LLC v. Telebrands Corp., 846 F.3d 1190, 1204 (Fed.
Cir. 2017) (“A patentee is entitled to rely on circumstantial evidence to establish infringement[.]”); Lucent
Technologies, 580 F.3d at 1318 (same).
Further, defendant presented no evidence that it
independently developed its back telemetry products
using Professor McDermott’s research or that it
otherwise took steps to implement a non-infringing
alternative. For example, Cochlear did not cite any
evidence describing how it took steps to implement
a non-infringing alternative or how Professor
McDermott’s back telemetry system was different
from plaintiff’s patented back telemetry system. (See,
generally Dkt. 613, Enhanced Damages Opp.).
In Polara I, a case similar to the instant case, a jury
found that the defendant, rather than use its “threewire design,” willfully infringed plaintiff’s patented
“2-wire push button station control system for a traffic
light controlled intersection.”27 237 F.Supp.3d at 98027

The Federal Circuit affirmed the district court’s denial
of judgment as a matter of law as to invalidity and willfulness,
i.e., it upheld the jury’s willful infringement verdict. Polara

101a
81. In finding that there was substantial evidence to
uphold the jury’s verdict, the Polara I court noted that
the defendant stated that it “needed a product that
would compete with Polara’s two-wire Navigator[,]”
and that it developed its infringing system in “response to Polara’s two-wire system” and that defendant “did not have the technology to compete with
Polara’s two-wire [system] when it was introduced[.]”
Id. at 980. The Polara I court stated that the “jury
could have relied on those statements to conclude that
[defendant] intentionally copied [plaintiff’s] two-wire
device.” Id. As in Polara I, the evidence here was
sufficient for the jury to find that Cochlear did not
have a product with the patented back telemetry
technology to compete with the Clarion when it was
introduced and that Cochlear’s response was to
infringe.28

Engineering Inc v. Campbell Company, 894 F.3d 1339, 1356 (Fed.
Cir. 2018) (“Polara II”). It vacated and remanded the award of
enhanced damages because the district court’s explanation as to
the fifth Read factor, the “closeness of the case,” was “insufficient
for [the Court] to determine why the [district] court viewed this
factor as ‘neutral.’” Id. at 1355.
28

In affirming the jury’s willfulness finding, the Federal Circuit stated that “[b]ased on the evidence adduced at trial, the
jury reasonably could have found that [defendant] intentionally
copied the ’476 patent despite a significant known risk that its
two-wire AAPS would infringe the ’476 patent. It is undisputed
that [defendant] was aware of the ’476 patent prior to developing
its AAPS. [Defendant’s] president testified that [defendant]
developed its AAPS to compete with [plaintiff’s] Navigator-2, and
that [defendant] did not have a product that could compete with
the Navigator-2 when [plaintiff] launched it in 2003.” Polara II,
894 F.3d at 1353-54. Here, as in Polara II, there was evidence
that Cochlear was aware of back telemetry technology in the ’616
patent prior to developing its Nucleus 24 and Cochlear did not

102a
The jury’s willfulness finding is also supported by
Cochlear’s failure to put forth good-faith pre-litigation,
noninfringement defenses. Plaintiff asserted in its
moving papers that
Cochlear never offered any evidence that it
had a good faith basis to believe that it did
not infringe claim 10. It is undisputed that
Cochlear’s purported defenses from its 2003
letter do not have even theoretical application
to claim 10. Cochlear’s expert, Dr. Stevenson,
admitted that the defenses stated in [the 2003
letter] did not apply to claim 10 of the ’616
patent.
(Dkt. 602, Enhanced Damages Motion at 11-12 (citing
Dkt. 497, January 21, 2014, A.M. Trial Tr. at 125)).
Other than asserting that Cochlear’s “letter to AMF
after its initial investigation gives several reasons why
it did not believe there was infringement, including:
the Nucleus implant has a single coil to exchange
signals with an external speech processor; and the
Nucleus implant communicates in a manner very
similar to the prior art references cited in the patent,”
(Dkt. 613 at 7) (internal quotation marks omitted),
Cochlear did not respond to plaintiff’s unequivocal
assertion relating to whether Cochlear had a goodfaith, non-infringement defense with respect to claim
10. (See, generally, id. at 6-7). The court construes
Cochlear’s failure to respond to plaintiff’s argument
with respect to claim 10 as a concession that its 2003
non-infringement arguments did not relate to claim
10. See GN Resound A/S., 2013 WL 1190651, at *5
(stating, when plaintiff failed to oppose a motion as to
have a product to compete with the Clarion when it was launched
in 1997.

103a
a particular issue, that “the Court construes as a
concession that this claim element [is] not satisf[ied]”);
Hall, 2011 WL 4374995, at *5 (“Plaintiff does not
oppose Defendants’ arguments regarding the statute
of limitations in his Opposition. Plaintiff’s failure to
oppose . . . on this basis serves as a concession[.]”). The
lack of a pre-suit, non-infringement defense to claim
10 supports the jury’s finding that Cochlear infringed
the ’616 patent with a subjective belief that it was
infringing a valid patent.
Finally, willfulness may be shown by an infringer’s
refusal to stop using the patented technology even
after being notified of its infringement. See i4i Ltd.,
598 F.3d at 859-60 (defendant knew its product
practiced the patent but “did not cease its infringing
activity or attempt to design around”). As discussed
below, Cochlear kept infringing even after it received
the 2003 letter from the Foundation and continued
infringing the patent until it expired in March 2014.
See infra at § III.B.
In sum, the jury’s verdict must be upheld if there is
“such relevant evidence as reasonable minds might
accept as adequate to support” a finding of willfulness
by a preponderance of the evidence. See Maynard, 37
F.3d at 1404. “Based on its own assessment of the
evidence and [Cochlear’s] defenses, the jury was free
to decide for itself whether [Cochlear] reasonably
believed there were any substantial defenses to a
claim of infringement.” i4i Ltd., 598 F.3d at 860.
Reviewing the record in the light most favorable to
plaintiff, the court finds there was more than
sufficient evidence for a reasonable jury to have found
that Cochlear’s infringement was willful.

104a
B. Enhanced Damages.
Having concluded that substantial evidence supports the jury’s finding of willful infringement, the
court turns to whether enhanced damages should be
awarded under 35 U.S.C. § 284. See WesternGeco LLC,
837 F.3d at 1364 (“[The second question is,] if the
jury’s finding of willful infringement is sustained, []
whether enhanced damages should be awarded.”).
Enhanced damages “are not to be meted out in a
typical infringement case, but are instead designed as
a punitive or vindictive sanction for egregious infringement behavior.” Halo, 136 S.Ct. at 1932 (internal quotation marks omitted). “The Supreme Court
described ‘the sort of conduct warranting enhanced
damages as . . . willful, wanton, malicious, bad-faith,
deliberate, consciously wrongful, [or] flagrant. . . . .’”
Alfred Mann, 841 F.3d at 1346 (quoting Halo, 136
S.Ct. at 1932).
The question of enhanced damages is left to the
district court’s discretion. See Halo, 136 S.Ct. at 1934.
“None of this is to say that enhanced damages follow a
finding of egregious misconduct. As with any exercise
of discretion, courts should continue to take into
account the particular circumstances of each case in
deciding whether to award damages, and in what
amount.” Id. at 1933; see Polara II, 894 F.3d at 1355
(“In exercising its discretion, the district court must
take into account the particular circumstances of each
case, and consider all relevant factors in determining
whether to award enhanced damages[.]”) (citation and
internal quotation marks omitted).
“The principal considerations in enhancement of
damages are the same as those of the willfulness
determination, but in greater nuance as may affect the
degree of enhancement. Thus egregiousness of the

105a
infringer’s conduct may receive greater emphasis, as
may any mitigating factors.” SRI Int’l v. Advanced
Technology Laboratories, 127 F.3d 1462, 1469 (Fed.
Cir. 1997). In determining whether to exercise its
discretion to award enhanced damages and the
amount thereof, courts usually consider the nine
factors set forth in Read. “Although the district court
is not required to discuss the Read factors, it is
obligated to explain the basis for the [enhanced
damages] award, particularly where the maximum
amount is imposed.” Polara II, 894 F.3d at 1355
(citation and internal quotation marks omitted).
The first Read factor is “whether the infringer
deliberately copied the ideas of another[.]” Read, 970
F.2d at 827. As discussed above, the record contains
evidence that Cochlear was aware of and that it
deliberately copied the Foundation’s back telemetry
technology set forth in the ’616 patent. See supra at
§ III.A. In other words, the evidence was sufficient for
the jury to conclude that Cochlear rejected Professor
McDermott’s single-electrode monitoring approach and
used the infringing duel-monitoring system instead.
“That [defendant] developed a very similar system
under these circumstances is strong evidence of copying and favors enhancing damages.” Georgetown Rail
Equipment Co. v. Holland, 2016 WL 3346084, *17
(E.D. Tex. 2016).
Further, the evidence that Cochlear had a noninfringing alternative, i.e., the McDermott approach,
which it could have implemented but chose not to,
also supports enhanced damages. As noted earlier,
Cochlear did not cite to any evidence describing the
steps it took to implement a non-infringing alternative
or how Professor McDermott’s system was different
from plaintiff’s invention, (see, generally Dkt. 613,

106a
Enhanced Damages Opp.), although there was evidence that the McDermott approach was less effective
and not well-received. (See, e.g., Dkt. 496, January 17,
2014, A.M. Trial Tr. at 28 (Exhibit 410 stating “competitor’s devices utilizing a ceramic capsula could
be perceived to be of a more appropriate high tech
construction” than Cochlear’s Nucleus 22, which was
developed with Professor McDermott’s collaboration)).
From this it can be inferred that Cochlear chose to
copy plaintiff’s patent because it did not want to give
up its market share by switching to the less desirable
alternative.29 In short, this factor weighs in favor of
enhanced damages. See WBIP, LLC v. Kohler Co., 829
F.3d 1317, 1325 & 1339-42 (Fed. Cir. 2016) (affirming
enhancement where defendant introduced an infringing product with the same features found in plaintiff’s
product).
The second factor is “whether the infringer, when he
knew of the other’s patent protection, investigated the
scope of the patent and formed a good-faith belief that
it was invalid or that it was not infringed[.]” Read, 970
F.2d at 827. As noted above, Cochlear did not respond
to plaintiff’s unequivocal assertion relating to whether
29

For example, as noted earlier, after the FDA approved the
Clarion, the first commercial cochlear implant with back telemetry, in March 1996, Cochlear’s market dominance suffered
tremendously. The newly-introduced Clarion took a significant
30% of Cochlear’s market share. (See Dkt. 465, January 16, 2014,
P.M. Trial Tr. at 17). The Clarion enjoyed significant sales growth
until 1998 when the FDA approved Cochlear’s Nucleus 24, which
was the first Cochlear implant with back-telemetry capability.
(See id. (Ms. Elsten’s testimony that “in ‘98 the infringement
started, and that stabilized the market share loss for Cochlear”);
Dkt. 493, January 14, 2014, A.M. Trial Tr. at 70 (stipulated fact
that Cochlear’s Nucleus 24 received FDA approval on June 25,
1998)).

107a
Cochlear had a good-faith, non-infringement defense
with respect to claim 10, an independent method
claim, and the resulting inference must be that it did
not.
In any event, Cochlear’s only defense to this Read
factor is that it explained to plaintiff, in response to
plaintiff’s 2003 letter, why it believed that it did not
infringe. (Dkt. 613, Enhanced Damages Opp. at 12).
According to defendant, its “letter to AMF after its
initial investigation [gave] several reasons why it did
not believe there was infringement, including: the
Nucleus implant has a single coil to exchange signals
with an external speech processor; and the Nucleus
implant communicates in a manner very similar to the
prior art references cited in the patent.” (Id. at 7)
(internal quotation marks omitted). However, as noted
above, Cochlear’s 2003 response had no bearing with
respect to the infringement of claim 10.30 Thus, the fact
that plaintiff did not respond to Cochlear’s 2003 letter
for three years is irrelevant as it relates to claim 10
and, in any event, the jury considered this evidence
but found it unpersuasive.
Moreover, the fact that AMF did not respond to
Cochlear’s 2003 letter for three years, (see Dkt. 613,
Enhanced Damages Opp. at 12), did not eliminate or
suspend Cochlear’s obligation to investigate the scope
of the patent and determine whether there was a good30

In Polara II, the Federal Circuit affirmed the district court’s
rejection of defendant’s reliance on opinion of counsel as basis
for a good-faith belief that the subject patent was invalid or
not infringed because “[t]he only written opinion of counsel
[defendant] received that it alleges shows its good faith only
substantively discusses claim 11, which is not at issue in this
case.” 894 F.3d at 1354. Here, Cochlear’s letter never addressed
claim 10 even though it was clearly at issue.

108a
faith basis to conclude that the patent was invalid
or not infringed. “The law of willful infringement
does not search for minimally tolerable behavior, but
requires prudent, and ethical, legal and commercial
actions.” SRI Int’l, 127 F.3d at 1465. Without any
evidence as to what investigation Cochlear conducted
during the relevant time period relating to the scope
of the patent, Cochlear’s reliance on plaintiff’s delay in
responding to its 2003 letter is an insufficient basis for
Cochlear to believe that it had the right to practice the
technology covered by the ’616 patent.
Even assuming it was proper for Cochlear to
“believe[] there was no infringement[,]” because of
plaintiff’s failure to respond to the 2003 letter, (Dkt.
613, Enhanced Damages Opp. at 12), that belief was
clearly dispelled by plaintiff’s 2006 letter, more than a
year before filing suit, that set forth plaintiff’s view
that Cochlear was continuing to infringe and noted
Cochlear’s inability to articulate a defense. (See Dkt.
605-11, Lyons Decl., Exh. 30, Letter from Defense
Counsel to Plaintiff’s Counsel of October 24, 2006)
(referencing letter from plaintiff’s counsel of August
28, 2006). Cochlear has not cited or pointed to any
evidence that, after the second letter, it asserted a
good-faith, non-infringement defense to claim 10. (See,
generally, Dkt. 613, Enhanced Damages Opp. at 6-7 &
12). It was not until after the lawsuit was filed that
Cochlear asserted any sort of noninfringement defense
to claim 10.
Other than the 2003 letter, there is no evidence –
and Cochlear has not cited to any – as to the nature,
scope and adequacy of any investigation Cochlear
conducted after it learned about the ’616 patent. (See,
generally, Dkt. 613, Enhanced Damages Opp. at 6-7 &
12). Indeed, it is disingenuous for Cochlear to claim

109a
that it investigated the scope of the patent and formed
a good-faith belief that the patent was invalid when
it is undisputed that Cochlear did not obtain the
’616 patent file wrapper until three years after being
notified that it was infringing the patent. (See Dkt.
605-11, Lyons Decl., Exh. 30, Letter from Defense
Counsel to Plaintiff’s Counsel of October 24, 2006)
(October 2006 admission by Cochlear that it was still
“in the process of obtaining the file wrappers”); see,
e.g., Arctic Cat, 198 F.Supp.3d at 1351 (“Indeed, it is
disingenuous at best for [defendant] to claim that it
subscribed to the good-faith belief that the patents
were invalid where, despite kn[owing] of both patents
within a month or so of their issuance, . . . no
[defendant] employee even took the time to review the
31 claims in the [subject] patent.”) (citations and
internal quotation marks omitted). It is also undisputed that Cochlear did not rely on the advice of
counsel in developing a good-faith belief of noninfringement. (See Dkt. 399, Final Pretrial Order,
Appx. A at ECF 16781).
Further, there is no evidence that Cochlear subjectively believed that the ’616 patent was not infringed
or invalid, or relied upon such belief in its business
decisions. For example, if, as Cochlear claims, it was
utilizing Professor McDermott’s design in its implants,
which had been available since 1988, (see Dkt. 613,
Enhanced Damages Opp. at 6 (“Dr. McDermott implanted a cochlear implant with back telemetry made
by Cochlear in 1988[.]”)), and if the technology worked
as well or better than the technology in the ’616
patent, then Cochlear should have been able to
produce a back-telemetry product long before the
Nucleus 24 was launched in 1998. It was only after the
Clarion was introduced that Cochlear introduced its
own product with back telemetry technology, albeit

110a
the technology set forth in the ’616 patent. Indeed,
the fact that Cochlear could have utilized Professor
McDermott’s less desirable alternative but chose not
to further undermines a finding that any reliance by
Cochlear on its invalidity defense would have been in
good faith.
In short, despite knowing about plaintiff’s patent,
Cochlear waited at least three years to investigate the
patent’s scope and never formed a good-faith belief of
noninfringement. Moreover, the only purported noninfringement defenses it raised in its 2003 letter do not
apply to claim 10 of the ’616 patent, which concerns a
“method of testing an implantable tissue stimulating
system[.]” (Dkt. 580-4, ’616 patent, col. 35; see Dkt.
605-12, Lyons Decl., Exh. 31, Reply Letter from
Cochlear of October 1, 2003 (stating that the “Nucleus
cochlear implant does not have a physician’s tester
that can be connected directly to an external coil of
a headpiece/transmitter”)). Under the circumstances,
the court finds that this factor weighs in favor of
enhanced damages. See, e.g., Arctic Cat, 198 F.Supp.3d
at 1350 (enhanced damages warranted where, among
other things, trial testimony established that defendant “failed to properly investigate the scope of the
patents and form a good-faith belief that the patents
were invalid and/or not infringed”).
Plaintiff identifies six instances of litigation misconduct to support the third Read factor, (see Dkt. 602,
Enhanced Damages Motion at 17-19), that is, “the
infringer’s behavior as a party to the litigation.” Read,
970 F.2d at 827. As to four of the six instances, the
court agrees with defendant that those instances are
insufficient to constitute litigation misconduct. However, the court did sanction Cochlear’s counsel for
failure to comply in good faith with the court’s case

111a
management order as it related to the preparation of
the pretrial conference order. (See Dkt. 349, December
19, 2013, Tr. at 55-56). Also, contrary to Cochlear’s
contention, (see Dkt. 613, Enhanced Damages Opp. at
13), the court never indicated that the stipulated facts
were not useful. Rather, the court noted that for the
jury to make proper use of the stipulated facts, a copy
of the stipulated facts should be provided to them. In
any event, the conduct of Cochlear’s counsel resulted
in increased costs and expenses for the parties.
The other instance of litigation misconduct relates
to Cochlear’s filing of an ex parte petition for reexamination of claims 1 and 10 of the ’616 patent in the
USPTO on June 19, 2014, after the patent expired and
after the jury rendered its verdict of infringement and
no invalidity on January 23, 2014. (See Dkt. 460, Jury
Verdict; Dkt. 605-24, Lyons Decl., Exh. 43, USPTO’s
Notice of Intent to Issue Ex Parte Reexamination
Certificate (“USPTO Notice”)). In its petition, Cochlear
raised the exact same arguments the jury rejected, (see
Dkt. 605-24, Lyons Decl., Exh. 43, USPTO Notice at
ECF 29091-93), and apparently attempted to block
plaintiff’s trial counsel from participating in the reexamination. (See Dkt. 605-23, Lyons Decl., Exh. 42,
Letter from Defense Counsel to Plaintiff’s Counsel of
August 7, 2014, at ECF 29084-85 (defense counsel’s
letter requesting plaintiff’s counsel to “[p]lease confirm that you and your colleagues have not and will
not violate the prosecution bar by participating in
either of the reexamination proceedings[]”)). These
efforts proved unsuccessful, as the USPTO’s reexamination only reconfirmed the validity of claims 1 and
10. (See Dkt. 605-24, Lyons Decl., Exh. 43, USPTO
Notice at ECF 29092 (“Claims 1 and 10 are confirmed.”)).

112a
Cochlear makes no effort to explain why it filed
the reexamination petition seven years after the case
was filed or why it did not file one earlier. (See,
generally, Dkt. 613, Enhanced Damages Opp. at 1314). Cochlear’s sole response to plaintiff’s assertion
that the filing of the petition constitutes litigation
misconduct is that “the filing of requests for ex parte
reexamination in the Patent Office has nothing to
do with the conduct of the litigation.” (Id. at 14).
Cochlear’s response is unpersuasive.
First, since the case was still pending, the filing of
the petition – after a jury verdict of infringement and
no invalidity – did nothing more than distract and
raise the costs for plaintiff to continue litigating this
case. Given that the jury issued a verdict against
Cochlear of more than $130 million, and the fact that
there would no doubt be post-trial motions and an
appeal, it was incumbent upon Cochlear to provide an
explanation as to why it believed it was appropriate to
file a petition31 – again, after the patent expired – that
raised the same arguments that were raised during
the trial.32 Cochlear’s failure to provide an explanation
is particularly troubling given its assertion – its only
substantive response to the sixth and seventh Read
factors discussed below – that it did not knowingly
31

For example, Cochlear should have explained what effect, if
any, a contrary finding by the USPTO would have on the jury’s
verdict and why it did not wait to file the petition until after the
appellate proceedings were completed.
32

Notably, Cochlear never responded to plaintiff’s assertion,
(see Dkt. 605-23, Lyons Decl., Exh. 42, Letter of August 7, 2014,
at ECF 29084-85), that Cochlear attempted to block plaintiff’s
counsel from participating in the reexamination. (See, generally,
Dkt. 613, Enhanced Damages Opp. at 13); see GN Resound A/S,
2013 WL 1190651, at *5; Hall, 2011 WL 4374995, *5.

113a
infringe the subject patent because, “[b]y the time the
Court ruled on the bench trial and post-trial motions
on March 31, 2015 and Cochlear knew that the defense
would not stand as to claim 10 of the ’616 patent, the
’616 patent had expired.” (Dkt. 613, Enhanced
Damages Opp. at 15). If Cochlear could not have
knowingly infringed the subject patent because it had
expired by the time the court ruled on the bench trial
and post-trial motions, then why was it necessary to
file a petition for reexamination of an expired patent?
In any event, the only inference that can be drawn is
that Cochlear intended to distract and raise plaintiff’s
costs of litigating the case.
Second, even assuming, as Cochlear contends, that
the filing of the petition had “nothing to do with the
conduct of the litigation[,]” (Dkt. 613, Enhanced
Damages Opp. at 14), it does constitute post-filing
conduct that the court may consider for both willful
infringement and enhanced damages. In Mentor
Graphics Corp. v. EVE-USA, Inc., 851 F.3d 1275 (Fed.
Cir. 2017), the Federal Circuit noted that after the
Halo decision, rigid rules surrounding the award of
enhanced damages are inappropriate. See id. at 129596; Halo, 136 S.Ct. at 1934 (“[W]e eschew any rigid
formula for awarding enhanced damages under
§ 284[.]”). Under Halo, district courts have discretion
to award enhanced damages in “egregious cases typified by willful misconduct” where a plaintiff demonstrates “subjective willfulness . . . at the time of
the challenged conduct.” 136 S.Ct. at 1933-34; see
PersonaWeb Technologies v. Int’l Business Machines
Corp., 2017 WL 2180980, *20 (N.D. Cal. 2017)
(“District courts have, under § 284, the discretion to
punish the full range of culpable behavior and courts
should continue to take into account the particular
circumstances of each case.”) (internal quotation

114a
marks omitted). Because Halo eliminated any bright
line involving the award of enhanced damages, see
Mentor Graphics, 851 F.3d at 1295-96, the question is
simply whether the infringing conduct constitutes
“egregious misconduct,” irrespective of whether the
conduct occurs pre- or post-filing. In light of Cochlear’s
failure to explain why it filed the petition for reexamination: (1) after the patent expired; (2) seven years
after the lawsuit was filed; and (3) after the jury
rendered its verdict, the court finds, under the circumstances here, that the filing of the petition for
reexamination coupled with Cochlear’s attempt to
exclude plaintiff’s counsel constitute evidence of litigation misconduct. In short, the court finds that this
Read factor weighs in favor of enhancement.
The fourth factor is defendant’s “size and financial
condition.” Read, 970 F.2d at 827. A significant size
disparity between plaintiff and defendant supports
enhanced damages. See Radware, Ltd. v. F5 Networks,
Inc., 2016 WL 4427490,*8 (N.D. Cal. 2016) (finding
that large size of infringer weighed in favor of
enhanced damages). Plaintiff asserts that “Cochlear is
much larger than the Foundation and sought to use
this disparity to avoid accountability for its infringement.” (Dkt. 602, Enhanced Damages Motion at 19).
As of June 2012, Cochlear’s market capitalization was
$3.744 billion Australian dollars (“AUD”). (See Dkt.
605-26, Lyons Decl., Exh. 45, 2012 Cochlear Annual
Report at ECF 29140). By 2016, Cochlear’s market
capitalization had almost doubled to $6.935 billion
AUD, with annual revenue of $1.1 billion AUD (or
approximately $840 billion U.S. dollars). (See Dkt.
605-27, Lyons Decl., Exh. 46, 2016 Cochlear Annual
Report at ECF 29155).

115a
The Foundation, on the other hand, is a nonprofit
medical research entity that generates income by
licensing its advanced medical technologies to provide
significant improvements to the health, security and
quality of life for people suffering from debilitating
medical conditions. (See Dkt. 463, January 14, 2014,
P.M. Trial Tr. at 51 (Mr. Mann’s testimony that he had
been “very fortunate” and wanted to “give back to
humanity,” so he “decided to form [AMF] to try to
apply its resources to develop a product to incubate
products that are addressing unmet or poorly met
medical needs”); Dkt. 494, January 15, 2014, A.M.
Trial Tr. at 26-27 (Dr. Schindler’s testimony that he
met with Mr. Mann, who agreed to help develop
cochlear implants and that “[he] felt privileged to be
there and be a part of it, bringing hearing back to these
people”)). The Foundation has an endowment that has
fluctuated between a high of $122.6 million in 2010 to
less than $45 million in 2015. (See Dkt. 603, Declaration of Farah Boroomand33 in Support of Enhanced
Damages Motion (“Boroomand Decl.”) at ¶ 5).
As for AB, it was a fledgling company when it first
introduced the Clarion in 1996. (See Dkt. 463, January
14, 2014, P.M. Trial Tr. at 61 (Mr. Mann’s testimony
that AB was formed in 1993); id. at 105 (Mr.
Santogrossi’s testimony that the Clarion obtained
FDA market clearance in 1996)). Although it immediately gained a 30% market share when it introduced
the Clarion, its market share decreased significantly
when Cochlear introduced the Nucleus 24 in 1998.
(See Dkt. 465, January 16, 2014, P.M. Trial Tr. at 7071 (Ms. Elsten’s testimony that Cochlear’s market
share fell from 100% in 1996 to 70% in 1997)). Like the
33

Farah Boroomand has been AMF’s chief financial officer
since May 2010. (See Dkt. 603, Boroomand Decl. at ¶ 2).

116a
plaintiff in i4i Ltd., AB was “a small company
practicing its patent, only to suffer a loss of market
share, brand recognition, and customer goodwill as the
result of the defendant’s infringing acts.” i4i Ltd., 598
F.3d at 862. AB is much smaller than Cochlear with
implant revenues of approximately $147 million in the
year ending March 2013. (See Dkt. 605-30, Lyons
Decl., Exh. 49, 2012-13 Sonova Annual Report at ECF
29232).
Cochlear asserts two arguments as to why its size
and financial condition do not warrant enhanced
damages. First, Cochlear asserts that AMF’s assets
are understated and that they actually total $82
million instead of the $45 million plaintiff claimed in
its moving papers. (See Dkt. 613, Enhanced Damages
Opp. at 14-15). But even assuming Cochlear’s assertion is correct, there is still a significant disparity in
size and resources between Cochlear and AMF. As
plaintiff noted, using Cochlear’s own figures would
mean that “Cochlear is more than 60 times larger in
size, with annual revenues tenfold larger than everything the Foundation owns.” (Dkt. 620, Plaintiff’s
Reply to Opp. to Enhanced Damages Motion (“Enhanced Damages Reply”) at 16 n. 1). Indeed, after the
$130 million dollar verdict, Cochlear stated in its
annual report that the outcome of the case “will not
disrupt Cochlear’s business[.]” (Dkt. 605-27, Lyons
Decl., Exh. 46, 2016 Cochlear Annual Report at ECF
29156).
Second, Cochlear asserts that “simply looking at
AMF ignores the fact that plaintiff Advanced Bionics
is a subsidiary of Sonova, a large medical device
company with more than $2 billion/year in revenue.”
(Dkt. 613, Enhanced Damages Opp. at 15). However,
that AB is a subsidiary of Sonova is irrelevant since

117a
Sonova is not a party in this case. Further, Cochlear
failed to mention that AB was not acquired by Sonova
until 2009, years after the alleged infringement began.
(See Dkt. 620, Enhanced Damages Reply at 16 n. 1).
In evaluating this Read factor, the proper focus is on
the size and financial condition of the infringer and not
on the ability of a plaintiff to protect its patent. See i4i
Ltd., 598 F.3d at 859 (“Under the Read factors, the
district court properly considered Microsoft’s size and
financial condition as well as whether Microsoft investigated the patent.”); Omega Patents, 2017 U.S. Dist.
LEXIS 55846, at *25 (finding that the defendant
had “the financial wherewithal to endure the sanction
of enhanced damages”). There is no dispute that
Cochlear is a multi-billion dollar enterprise and the
market leader when it comes to hearing implants.
There is also no dispute that Cochlear generated
significant profits and revenue from selling the
infringing products – over $1.8 billion in revenue with
profit between 75% and 92%. (See Dkt. 495, January
16, 2014, A.M. Trial Tr. at 140 (Ms. Elsten’s testimony
that the infringing products “generated gross margins
of somewhere between 75 and 92 percent of sales”);
Dkt. 465, January 16, 2014, P.M. Trial Tr. at 23
(Ms. Elsten’s testimony that based on defendant’s
financial records, the infringing products generated
$1,809,247,456 in sales)). Thus, no matter how meritorious an infringement claim may be, the prospect of
squaring off in an American courtroom against an
infringer with Cochlear’s resources and market dominance remains a daunting and expensive one. (See
Dkt. 468, January 22, 2014, P.M. Trial Tr. at 86
(testimony of Mr. Hankin that, given AMF’s limited
resources, “litigation is something that not only do we
take very seriously, but we better be darn well sure
that we have the appropriate resources in order to

118a
sustain what has now turned into a seven-year
effort”)). “Where, as here, [Cochlear] is a multi-billion
dollar enterprise and the market leader – due in
significant part to sales of products found to willfully
infringe [AMF’s] patents – enhancement of damages is
particularly warranted.” Arctic Cat, 98 F.Supp.3d at
1351-52 (trebling damages where the defendant was
“a market leader” while the plaintiff, although it had
annual sales around $700 million, was “a fraction” of
the defendant’s size and “the smallest company in the
markets where the two compete”).
The fifth factor is the “[c]loseness of the case.” Read,
970 F.2d at 827. Plaintiff asserted infringement of
claims 1 and 10 of the ’616 patent and claims 6 and 7
of the ’691 patent. The jury found that defendants
infringed all four claims, (see Dkt. 460, Jury Verdict),
but the court invalidated three of the four claims. (See
Dkt. 539, Court’s Order of March 31, 2015, at 25-32).
The Federal Circuit affirmed the court’s invalidation
of two of the three claims and reversed this court’s
finding of indefiniteness as to Claim 1 of the ’616
patent. See Alfred Mann, 841 F.3d at 1341-45.
Cochlear asserts that this was a close case because
it “emerged from trial having invalidated three of the
four patent claims[,]” and “[a]s to the one patent claim
on which Cochlear lost at trial, the Court denied
summary judgment to both parties on that claim.”
(Dkt. 613, Enhanced Damages Opp. at 15). However,
Cochlear did not emerge from trial having invalidated
three patent claims. Plaintiff prevailed on all issues
before the jury; it was the court that invalidated the
three claims in response to post-trial motions. That is,
the jury found that each asserted claim was infringed
directly, contributorily, and willfully. (See Dkt. 460,
Jury Verdict). The jury also rejected Cochlear’s argu-

119a
ment that the patents were invalid and awarded $130
million in damages. (See id.).
In determining whether this was a close case, it is
relevant that the Federal Circuit upheld this court’s
finding that the asserted claims regarding the ’691
patent were invalid. See Alfred Mann, 841 F.3d
at 1344. However, the court also considers whether
infringement of the ’616 patent was a close case. As
discussed in connection with the second Read factor,
the evidence presented at trial established that
Cochlear failed to properly investigate the scope of, or
provide any good-faith, non-infringement defense to,
claim 10 of the ’616 patent. See, e.g., Arctic Cat, 198
F.Supp.3d at 1352 (finding Read factor 5 was not a
close case based in part on trial testimony that
established that defendant “failed to properly investigate the scope of the patents and form a good-faith
belief that the patents were invalid and/or not
infringed”). Further, the fact that the one claim –
claim 10 – survived summary judgment does not
necessarily mean that it was a close case, especially
where, as here, the jury soundly rejected defendant’s
invalidity and non-infringement arguments. See
Depuy Spine, Inc. v. Medtronic Sofamor Danek, Inc.,
567 F.3d 1314, 1337 (Fed. Cir. 2009) (“[T]he fact that
an issue was submitted to a jury does not automatically immunize an accused infringer from a finding of
willful infringement[.]”); SSL Services, LLC v. Citrix
Systems, Inc., 769 F.3d 1073, 1091 (Fed. Cir. 2014)
(stating, under the Seagate standard, that willfulness
finding could be sustained where “the district court did
not grant summary judgment[,]” but “the jury soundly
rejected [defendant’s] invalidity arguments and noninfringement arguments”). In short, the court finds
that this factor weighs slightly in favor of enhanced
damages.

120a
The sixth and seventh Read factors are, respectively, the “[d]uration of defendant’s misconduct” and
“[r]emedial action by the defendant.” Read, 970 F.2d
at 827. Continuing to sell infringing products after
receiving notice of infringement, during the course of
the litigation and/or after a finding of infringement
supports an enhancement of damages. See, e.g., PPC
Broadband, Inc. v. Corning Optical Communications
RF, LLC, 2016 WL 6537977, *8 (N.D. N.Y. 2016)
(“[C]ontinuing to sell the infringing products after
notice of infringement and during the course of
litigation supports enhancement.”); SynQor, Inc. v.
Artesyn Technologies, Inc., 709 F.3d 1365, 1385 (Fed.
Cir.), cert. denied, 571 U.S. 1024 (2013) (affirming
the district court’s award of enhanced damages based
on willfulness of post-verdict conduct). Cochlear’s
assertion – its only substantive response to the sixth
Read factor – that it did not knowingly infringe the
subject patent because, “[b]y the time the Court ruled
on the bench trial and post-trial motions on March 31,
2015 and Cochlear knew that the defense would not
stand as to claim 10 of the ’616 patent, the ’616 patent
had expired[,]” (Dkt. 613, Enhanced Damages Opp. at
15), is utterly meritless. Cochlear provides no authority for its implicit proposition that the clock on
infringing activity does not start until a trier of fact
definitively rules on whether the patent at issue has
been infringed. Under Cochlear’s approach, the sixth
Read factor is unnecessary, and large corporations
such as Cochlear would be incentivized to infringe a
smaller entity’s patent and run out the clock until the
patent expires.
In any event, Cochlear was given direct notice of the
’616 patent in July 2003, (see Dkt. 605-12, Lyons Decl.,
Exh. 31, Reply Letter from Cochlear of October 1,
2003), although evidence was presented that Cochlear

121a
had knowledge of AB (formerly Mini Med) and the
Clarion’s back-telemetry capabilities long before the
subject patent was issued.34 (See Dkt. 496, January 17,
2014, A.M. Trial Tr. at 28 (On cross-examination, after
being shown a document dated March 15, 1991, Mr.
Patrick admitted that he had been aware of Mini Med,
the Clarion, and its back-telemetry capabilities since
at least that date.); Dkt. 399, Final Pretrial Order,
Appx. A, at ECF 16767 (“On August 17, 1998, during
the prosecution of the ’691 patent, patent examiner
Carl H. Layno filed a Notice of References Cited that
disclosed 3 references (‘the 1998 Notice’). . . . The
McDermott patent was cited in the 1998 Notice.”));
Barry v. Medtronic, Inc., 250 F.Supp.3d 107, 114 (E.D.
Tex. 2017) (“[C]onduct before the patents issued can
be, and is, probative of copying under Read.”). Infringing product sales began in 1998, (see Dkt. 467, January
21, 2014, P.M. Trial Tr. at 89), and Jan Janss,
Cochlear’s senior vice president for design and development, confirmed that Cochlear continued to sell
these products, even after the lawsuit was filed in
2007; indeed, it continued to sell them through the
patent’s expiration in 2014. (See id. at 75). In other
words, there was substantial evidence that Cochlear
infringed for 11 years after it was directly notified of
the ’616 patent and seven years after this case was
filed.

34

“The USPTO issued the ’616 patent as a continuation of U.S.
Patent Application Ser. No. 23,584, filed on February 26, 1993,
which was a continuation of U.S. Patent Application Ser. No.
752,069, filed on August 29, 1991, which was a continuation in
part of U.S. Patent Application Ser. No. 411,563, filed on
September 22, 1989.” (Dkt. 399, Final Pretrial Order, Appx. A, at
ECF 16766).

122a
Finally, Cochlear provided no response to the
seventh Read factor. (See, generally, Dkt. 613,
Enhanced Damages Opp. at 15-16); see also GN
Resound A/S, 2013 WL 1190651, at *5 (stating, when
plaintiff failed to oppose a motion as to a particular
issue, that “the Court construes as a concession that
this claim element [is] not satisf[ied]”); Hall, 2011 WL
4374995, at *5 (“Plaintiff does not oppose Defendants’
arguments regarding the statute of limitations in his
Opposition. Plaintiff’s failure to oppose . . . on this
basis serves as a concession[.]). Nor did Cochlear
provide any evidence that it “voluntarily cease[d]
making or selling the infringing products at any point
or take steps to implement a non-infringing alternative.” Arctic Cat, 198 F.Supp.3d at 1353. In fact, not
only did Cochlear take no remedial action, such as
attempting to design around the patent, it also failed
to inquire about licensing the technology even after
plaintiff indicated in 2003 that it would like to explore
a license agreement with Cochlear. (Dkt. 539, Court’s
Order of March 31, 2015, at 10-11). The court finds it
significant that plaintiff tried to resolve the matter
without immediately resorting to litigation by contacting Cochlear and offering to license the patent. See,
e.g., SRI Int’l, 127 F.3d at 1465-69 (affirming district
court’s finding of willful infringement and award of
treble damages where infringer knew of patent and
possibility of infringement after, among other things,
having been offered a nonexclusive license to the
patent by the patentee).
United States patent law seeks to “promote [the]
Progress of Science and useful Arts,” U.S. Const., Art.
I, § 8, cl. 8, “[t]hrough a complex system of incentivebased laws . . . [that] helps to encourage the development of, disseminate knowledge about, and permit
others to benefit from useful inventions.” Halo, 136

123a
S.Ct. at 1937-38 (Breyer, J., concurring). Enhanced
damages are “a means to patent law’s ends[,]” but
their “role is limited” in their ability to prevent and
deter infringement. See id. at 1937. Despite a strong
incentive to speak, Cochlear remains silent as to what
remedial action it has taken for infringing virtually
the entire life of the patent-in-suit. By all indications,
Cochlear deliberately chose not to take remedial
action or cease making or selling the infringing
products, for, as Cochlear’s then-president and CEO,
Dr. Christopher Roberts, testified, three-fourths of
Cochlear’s cumulative implant sales through 2014
took place during the preceding ten-year period of
infringement. (See Dkt. 467, January 21, 2014, P.M.
Trial Tr. at 87 (Dr. Roberts stating in 2014 that
“around three-quarters of all the people who have ever
received one of our cochlear implants actually have
received it in the last ten years[]”)). In short, given the
duration of the infringement (11 years, using the 2003
date) and Cochlear’s failure to take any remedial
action, the court finds that these factors strongly
support enhanced damages. See, e.g., WBIP, LLC, 829
F.3d at 1340-41 (“But as the Supreme Court explained
in Halo, timing does matter. [The defendant] cannot
insulate itself from liability for enhanced damages
by creating an (ultimately unsuccessful) invalidity
defense for trial after engaging in the culpable conduct
of copying, or ‘plundering,’ [the plaintiff’s] patented
technology prior to litigation.”) (emphasis in original);
Novozymes A/S v. Genencor Int’l, Inc., 474 F.Supp.2d
592, 611 (D. Del. 2007) (“That Defendants failed to
take remedial action and continued to infringe until
after the liability trial also supports an enhanced
award.”); Arctic Cat, 198 F.Supp.3d at 1353 (trebling
damages where “[t]estimony [] established that
[defendant] had been selling potentially infringing

124a
products across their entire product line for at least a
half a decade”); Wright v. E-Systems, LLC, 2016 WL
7802996, *4-5 (N.D. Tex. 2016) (enhancement where
“[defendants] engage[d] in misconduct for a significant
period of time and took no remedial action that the
Court can discern from the record”); Omega Patents,
2017 U.S. Dist. LEXIS 55846, *25 (awarding treble
damages when defendant was aware of the patents
since at least 2010 and “[r]ather than take a license,
and choosing not design around Omega’s patents,
[defendant] elected to sell infringing products and
continues to do so to this day[]”).
The eighth factor is the infringer’s “motivation for
harm.” Read, 970 F.2d at 927. Cochlear asserts that
“[t]he best that can be inferred from Plaintiffs’ evidence is that Cochlear wanted to compete with
Advanced Bionics’ implant having back telemetry.”
(Dkt. 613, Enhanced Damages Opp. at 17). Cochlear’s
assertion is unpersuasive.
“[W]here, as here, the infringer engages in infringing conduct to gain an edge over the patentee in a
competitive market, this factor favors an award of
enhanced damages.” Funai Electric Co., Ltd. v.
Daewoo Electronics Corp., 593 F.Supp.2d 1088, 111617 (N.D. Cal. 2009), aff’d, 616 F.3d 1357 (Fed. Cir.
2010). Here, it is undisputed that AB and Cochlear are
direct competitors in a relatively small market for
hearing implants; infringement by a direct competitor
in such a market militates in favor of enhanced
damages. See TruePosition Inc. v. Andrew Corp., 611
F.Supp.2d 400, 412 (D. Del. 2009), aff’d, 389 Fed.Appx.
1000 (Fed. Cir. 2010).
The record reflects that when AB introduced the
first implant with back telemetry in 1997, its sales
increased 90%, (see Dkt. 463, January 14, 2014, P.M.

125a
Trial Tr. at 104-05 (Mr. Santogrossi’s testimony that
in 1997, AB’s sales growth over the prior year was
90%)), and it took a significant 30% of Cochlear’s
market share. (See Dkt. 465, January 16, 2014, P.M.
Trial Tr. at 70-71). After Cochlear introduced its
Nucleus 24 with the infringing technology, AB’s sales
fell from 90% in 1997 to 35.5% in 1998. (See Dkt. 463,
January 14, 2014, P.M. Trial Tr. at 104-05 (Mr.
Santogrossi’s testimony that sales growth was 90% in
1997 and 35.5% in 1998)). The dramatic drop in sales
was more than simple competition, especially when
one considers that Cochlear lost a significant percentage of its market share to AB after it introduced the
first implant with back telemetry in 1997, only to be
followed a year later with Cochlear’s own infringing
product. (See Dkt. 465, January 16, 2014, P.M. Trial
Tr. at 70-71 (Ms. Elsten’s testimony confirming that
Cochlear owned “just about” 100% of the market
during this period); Dkt. 496, January 17, 2014, A.M.
Trial Tr. at 20 (Mr. Patrick’s testimony that as early
as 1991, there were concerns that AB’s predecessor,
Mini Med, could challenge Cochlear “competitively for
the first time, and [that Cochlear’s] research and [its]
market leadership [were] at stake.”); id. at 50 (Mr.
Patrick’s testimony admitting that he thought “the
Clarion had the potential to perform better” than
Cochlear’s product, the Nucleus 22, “given its high
rate capacity”)). And, as noted earlier, there was
substantial evidence that Cochlear copied plaintiff’s
back telemetry technology. Also, the jury rejected
Cochlear’s claim that it was implementing noninfringing technology – the McDermott design, which,
in any event, was considered to be less desirable than
the back telemetry technology in the ’616 patent.
Cochlear chose not to implement the non-infringing
McDermott design because it was less effective than

126a
the ’616 patent. In short, the evidence in the record
indicates that Cochlear was motivated to leverage a
competitive advantage against plaintiff using plaintiff’s own design. In other words, “the evidence
supports the conclusion that [Cochlear] preferred
taking the risk of infringement over designing a noninfringing device, and that [Cochlear] did so to divert
business from [plaintiff.]” Polara I, 237 F.Supp.2d at
994. This factor also weighs in favor of enhanced
damages.
The ninth factor, the infringer’s attempt to conceal
misconduct, Read, 970 F.2d at 927, does not support
enhancement. The only evidence that plaintiff points
to is defendant’s refusal to produce discovery regarding its latest product, the Nucleus 5, which required
plaintiff to file a motion to compel. (See Dkt. 602,
Enhanced Damages Motion at 24). There is nothing to
indicate that this was anything more than a routine
discovery dispute.
C. Conclusion.
In summary, factors one, two, three, four, and eight
weigh in favor of enhanced damages; factors six and
seven weigh strongly in favor of enhanced damages;
factor five weighs slightly in favor of enhancement;
and factor nine weighs against enhanced damages.
Although the court “may increase the damages up to
three times the amount found or assessed,” 35 U.S.C.
§ 284, the court, having considered the jury’s verdict,
the Read factors and the high level of culpability of
Cochlear’s conduct, finds, in the exercise of its
discretion, that doubling the damages is sufficiently
punitive for Cochlear’s egregious conduct in this case.
In particular, the evidence that: (1) Cochlear infringed
the patent for at least 11 years after receiving direct
notice of infringement – although there was evidence

127a
that Cochlear had been infringing the patent throughout the patent’s life without making any remedial
efforts; (2) Cochlear never had a good-faith, noninfringement defense, at least as to claim 10; (3) a less
desirable, non-infringing alternative was available but
Cochlear, despite its massive resources, chose not to
use it or develop its own non-infringing alternative;
and (4) Cochlear had the motive to obtain a
competitive advantage using plaintiff’s technology,
support the enhancement of damages in this case.
“While the Read factors remain helpful to the
Court’s execution of its discretion [under Halo,] an
analysis focused on egregious infringement behavior is
the touchstone for determining an award of enhanced
damages rather than a more rigid, mechanical
assessment.” Imperium IP Holdings (Cayman), Ltd. v.
Samsung Electronics Co., Ltd., 203 F.Supp.3d 755, 763
(E.D. Tex. 2016). Here, “the egregiousness of the
defendant’s conduct based on all the facts and circumstances[]” overwhelmingly supports an enhancement
of damages. See Read, 970 F.2d at 826-27; see, e.g.,
Stryker Corp. v. Zimmer, Inc., 2017 WL 4286412, *7
(W.D. Mich. 2017)35 (trebling damages where, among
other things, defendant’s infringing conduct spanned
35

In Stryker, the district court found that the defendant had
engaged in “egregious infringement behavior” and trebled the $77
million lost profits and supplemental damages award, resulting
in enhanced damages of nearly $228 million. See 2017 WL
4286412, at *6-*7. As here, the Stryker court found that the
defendant had deliberately copied the plaintiff’s invention; that
it did not have a good faith belief it was not infringing; that given
the defendant’s financial size, damages required enhancement in
order to have a deterrent effect; that the defendant’s infringing
conduct spanned more than a decade; that there was no evidence
of remedial action; and that the defendant acted with motive to
harm its only market competitor. See id. at *4-*6.

128a
more than a decade; there was no evidence of remedial
action; and the defendant acted with motive to harm
its only market competitor); Arctic Cat, 198 F.Supp.3d
at 1353 (trebling damages where “[t]estimony [] established that [defendant] had been selling potentially
infringing products across their entire product line for
at least a half a decade”); Wright, 2016 WL 7802996,
at *4-5 (enhancement where “[defendants] engage[d]
in misconduct for a significant period of time and took
no remedial action that the Court can discern from
the record”); Omega Patents, 2017 U.S. Dist. LEXIS
55846, *25 (awarding treble damages when defendant
was aware of the patents since at least 2010 and
“[r]ather than take a license, and choosing not design
around Omega’s patents, [defendant] elected to
sell infringing products and continues to do so to
this day”); PPC Broadband, 2016 WL 6537977, at *7
(trebling damages because defendant “has substantial
resources,” noting that “[a]t trial, [defendant] reported
having annual revenues of approximately two billion
dollars and, therefore, can afford to pay the enhanced
damages up to the statutory amount[]”). Cochlear’s
conduct was more flagrant than most and Cochlear is
the type of egregious infringer Congress had in mind
during its discussion associated with the passage of
the Patent Reform Act of 2011 (Leahy-Smith America
Invents Act of 2011):
It is not uncommon that a manufacturer
will find itself in a situation where it feels
great pressure to copy a competitor’s patented
invention. In a typical scenario, the sales staff
report that they are losing sales because the
competitor’s product has a particular feature.
The manufacturer’s engineers discover that
the feature is protected by a valid patent, and
they find that they are unable to produce the

129a
same feature without infringing the patent.
The company then has two choices. It can
choose to continue to try to reproduce or
substitute for the patented feature, and as it
does so, continue to lose market share, and in
some cases, lose convoyed sales of associated
products or services. Or it can choose to
infringe the competitor’s patent.
Treble damages are authorized in order
to deter manufacturers from choosing the
second option. Absent the threat of treble
damages, many manufacturers would find
that their most financially reasonable option
is simply to infringe patents. Lost-profits
damages are often hard to prove or unavailable. The patent owner is always entitled to a
reasonable royalty, but under that standard,
the infringer often can keep even some of the
profits produced by his infringing behavior.
Without treble damages, many companies
would find it economically rational to infringe
valid patents. Section 284’s authorization of
treble damages is designed to persuade these
companies that their best economic option is
to respect valid patents.
157 CONG. REC. 3412, 3427 (2011) (statement of Sen.
Kyl).
“The evidence at trial revealed a degree of dismissiveness of [plaintiff’s] patent rights and disrespect
of the value the law places on protection of intellectual
property that was exceptional. Enhanced damages are
merited to punish this conduct and deter similar
behavior, and to promote appropriate regard for
patent rights.” Applera Corp., 372 F.Supp.2d at 247.
As discussed above, Cochlear’s internal communica-

130a
tions demonstrated its awareness as early as 1991
that plaintiff was developing technology with the
potential to render its Nucleus device “obsolete,” and
that Cochlear viewed this competition as a serious
threat. Cochlear was already under great pressure
to fulfill on its promises – approximately 13 years’
worth – to deliver an innovative new product.36 (See
Dkt. 496, January 17, 2014, A.M. Trial Tr. at 47
(admission by Mr. Patrick that by 1998, Cochlear had
not launched a new product since 1984 and had been
telling the FDA since 1994 it would bring a product
with back telemetry to market)). The record indicates
that after the Clarion took nearly a third of Cochlear’s
market, Cochlear’s engineers still could not make
viable use of McDermott’s patent to create a competitive product. By that point, Cochlear’s options were to
approach AMF, and hope for a reasonable licensing
deal, or infringe under the pretense of the ’844 patent.
The record reveals that Cochlear chose the second
option.
While the jury’s $130 million verdict is significant
and may sound large in the abstract, it may not
be enough without enhancement to deter infringing
conduct given the context of this case. See Halo, 136
S.Ct. at 1932 (enhanced damages are “designed as a
punitive or vindictive sanction for egregious infringement behavior”) (internal quotation marks omitted).
The evidence presented during the trial indicates that
Cochlear’s infringing products generated $1.8 billion
in revenues with gross profit margins between 75%
36

Perhaps Cochlear was also under great pressure to meet
corporate and shareholder profit expectations, as its board
favored a “dividend payout ratio of 70% of net profit.” (Dkt. 60527, Lyons Decl., Exh. 46, 2016 Cochlear Annual Report at ECF
29154).

131a
and 92%. (See Dkt. 495, January 16, 2014, A.M. Trial
Tr. at 140 (Ms. Elsten’s testimony that the infringing
products “generated gross margins of somewhere
between 75 and 92 percent of sales”); Dkt. 465,
January 16, 2014, P.M. Trial Tr. at 23 (Ms. Elsten’s
testimony that based on defendant’s financial records,
the infringing products generated $1,809,247,456 in
sales)). Indeed, Cochlear has publicly stated that the
jury’s verdict in this case “will not disrupt Cochlear’s
business or customers in the United States.” (Dkt. 60527, Lyons Decl., Exh. 46, 2016 Cochlear Annual Report
at ECF 29156).
IV. SUPPLEMENTAL DAMAGES AND PLAINTIFF’S MOTION TO STRIKE.
The Court’s Order of April 13, 2017, (Dkt. 593),
directed the parties to meet and confer “to discuss and,
if possible, resolve the calculation of damages assuming the jury had been given defendants’ revenue and
sales data” from January 1, 2014, to March 11, 2014,
(“relevant time period”). (Id. at ¶¶ 2-3) (emphasis
added). The parties were allowed to file concurrent
supplemental briefs only if they were unable to come
to an agreement regarding the calculation of damages.
(See id. at ¶ 4).
Although there can be a “fundamental difference . . .
between a reasonable royalty for pre-verdict infringement and damages for post-verdict infringement,”
Amado v. Microsoft Corp., 517 F.3d 1353, 1361 (Fed.
Cir. 2008), it appears that plaintiff was willing to
stipulate to the royalty rate – 7.5% – found by the jury
in the interest of not “wasting the Court’s time and
wasting the parties’ time and . . . belaboring these
disputes.” (Dkt. 616-1, Motion to Strike, Exh. A, May
19, 2017, Meet-and-Confer Tr. at 24). Thus, the parties
agreed that the additional amount to be awarded for

132a
the two-month time period following the jury’s verdict
is $2,812,214. (See Dkt. 616, Motion to Strike at 2; Dkt.
609, Plaintiff’s Notice Re: Calculation of Damages at
1; Dkt. 610, Defendant’s Supplemental Brief Re:
Damages from January 1, 2014 to March 11, 2014
(“Defendant’s Supp. Br.”) at 3 (“Using the new sales
data in the same manner as at trial, the parties
reached the agreed calculation of $2,812,214.”)).
Although the Court’s Order of April 13, 2017, simply
requested a calculation of the amount of damages for
the two months following the jury’s verdict “assuming
the jury had been given defendants’ revenue and sales
data,” (Dkt. 593, Court’s Order of April 13, 2017, at 1)
(emphasis added), defendant filed a Supplemental
Brief Regarding Damages from January 1, 2014 to
March 11, 2014, (Dkt. 610, Defendant’s Supp. Br.),
arguing that Cochlear’s supplemental briefing was
warranted because “[t]he parties could not . . . reach
an agreement that [the $2,812,214] represented damages for the relevant time period.” (Id. at 2) (internal
quotation marks omitted). According to Cochlear’s
attorney, Bruce Chapman, Cochlear “has a different
interpretation of the Court’s Order [of April 13, 2017]”
and that “is why Cochlear asked for clarification at the
status conference[.]”37(Id. at 4). Given that the Court’s
37

Cochlear quotes from the transcript of the status conference
where the court responded to defense counsel Chapman’s
question:
MR. CHAPMAN: I just have a question about the
procedure you just mentioned, Your Honor. For the
supplemental damages, what you’re asking for, if I
understand, is a calculation of what that amount
would be not – I think Cochlear can agree to that;
agreeing that it’s a correct amount of damages would
be more difficult.

133a
Order of April 13, 2017, was not issued until after the
status conference, attorney Chapman’s assertions
relating to a “different interpretation” or “clarification” of the court’s order is disingenuous.38 Moreover,
even assuming the court had issued its order before the
status conference, nothing in the court’s response
supports defendant’s assertion that the court gave
Cochlear the authority to file a supplemental brief
raising issues or arguments beyond the calculation of
the amount of damages “assuming the jury had been
given [Cochlear’s] revenue and sales data.” (Dkt. 593,
Court’s Order of April 13, 2017, at 1). In short, the
Court’s Order of April 13, 2017, was clear and the
filing of the supplemental brief was not authorized.
Even assuming the court had allowed Cochlear to
file a supplemental brief that addressed issues beyond
“assuming the jury had been given defendants’
revenue and sales data for the relevant time period,”
(Dkt. 593, Court’s Order of April 13, 2017, at 1),
Cochlear has waived the arguments it raised in its
supplemental brief. Defendant argues that the royalty
base should be different for the ’616 patent, (Dkt. 610,
Defendant’s Supp. Br. at 4), and that its expert did not
agree to the royalty based calculated by plaintiff’s
expert. (See id. at 3 & n. 1). However, Cochlear did not
raise any of these specific arguments during the trial
or in any of its post-trial, pre-appeal motions. (See,

THE COURT: Okay. Well, I mean, that’s what you
need to discuss in the briefing.
(Dkt. 610, Defendant’s Supp. Br. at 4-5).
38

Of course, if attorney Chapman believed there was any
confusion or ambiguity as to what the Court’s Order of April 13,
2017 required, then he should have filed a request for
clarification.

134a
generally, Dkt. 426, Defendant’s Pre-Verdict Rule
50(a) JMOL; Dkt. 511-2, Joint Post-Verdict JMOL).
Moreover, Cochlear’s claims as to why it did not
waive these arguments are utterly meritless. First,
Cochlear never explains or points out where in
Cochlear’s post-verdict papers he raised the subject
arguments. (See, generally, Dkt. 610, Defendant’s
Supp. Br. at 3-5). Cochlear does state that is
supplemental “[b]riefing [i]s [p]roper,” (id. at 4) (bold
omitted), based on the court’s response – which was
not a verbal court order – to a question he asked at a
status conference. But as noted above, this assertion
is frivolous because the court issued its order after the
status conference. Second, Cochlear cites a statement
made by attorney Chapman during a January 9, 2014,
pretrial conference as proof that it “explicitly refused
during trial to stipulate that the total sales were a
correct base for calculation of damages.” (See Dkt. 622,
Motion to Strike Opp. at 5). Setting aside the fact that
Cochlear never challenged the damages base during
the jury trial, attorney Chapman’s statements during
a pretrial conference held several days before trial are
not evidence and are plainly insufficient to establish
that it somehow preserved this argument.
Third, as to defendant’s argument that the royalty
base is an inadequate measure of damages for
infringement of the ’616 patent alone, (Dkt. 610,
Defendant’s Supp. Br. at 4), the court rejected this
argument above for several reasons, not the least of
which being that defendant’s argument constituted a
new damages theory that should have been raised
earlier. See supra at § II.C. Fourth, defendant’s
assertion that its expert did not agree that the royalty
base calculated by plaintiff’s expert was the “correct
amount of damages,” (Dkt. 610, Defendant’s Supp. Br.

135a
at 4 & 5), is not supported by the evidence. As noted
above, Cochlear’s expert testified that Ms. Elsten’s
royalty was “the only royalty base that [he] could come
up with.”39 See supra at § II.D.2. In short, Cochlear’s
kitchen-sink approach throughout this case has been
to raise arguments – many of which are unsupported
or mischaracterize the record – that could have been
raised earlier, with no effort to explain why they were
not and why it is appropriate to raise them now.
Raising untimely and unwarranted arguments only
delays the case, increases the parties’ costs, and
depletes the court’s limited resources. Contrary to
what Cochlear may believe with respect to the court’s
availability to address any and all arguments it finds
in its kitchen-sink on any given day, “[t]he court is not
obligated to give parties and their counsel several
opportunities to raise facts and legal arguments that
could have been asserted earlier. The papers filed with
this court are not first drafts, subject to revision and
resubmission at the litigant’s pleasure. In short, the
court will disregard any arguments and evidence in
[Cochlear’s] supplemental papers . . . that are merely
a rehash or attempt to re-frame arguments that were
either presented or could or should have been
presented in [Cochlear’s] earlier submissions.”
American Rena Int’l Corp. v. Sis-Joyce Int’l Co., Ltd.,
2015 WL 12732433, *34 (C.D. Cal. 2015).

39

Of course, if attorney Chapman believed there was any
confusion or ambiguity as to what the Court’s Order of April 13,
2017 required, then he should have filed a request for clarification.

136a
CONCLUSION
Based on the foregoing, IT IS ORDERED THAT:
1. Defendant’s Renewed Motion for Judgment as a
Matter of Law of No Infringement of Claim 1 of the
’616 Patent (Document No. 580) is denied.
2. Plaintiff’s Motion for Judgment Entering the
Jury’s Damages Award (Document No. 579) is
granted. The jury’s damages award is hereby
reinstated. Cochlear shall pay supplemental damages
to plaintiff in the amount of $2,812,214, for January 1,
2014, to March 11, 2014.
3. Plaintiff’s Motion for Enhanced Damages
(Document No. 602) is granted. The jury’s damages
award, including the supplemental damages, shall be
doubled.
4. Plaintiff’s Motion to Strike Defendant’s Supplemental Brief Regarding Damages from January 1,
2014 to March 11, 2014 (Document No. 616) is
granted. Page 2, line 18 (beginning with the sentence,
“The parties could not. . . .”) through page 5, line 7 of
defendant’s Supplemental Brief (Dkt. No. 610) is
hereby stricken.
5. No later than three business days after the filing
date of this Order, plaintiff shall lodge a proposed form
of judgment.
Dated this 4th day of November, 2018.
/s/
Fernando M. Olguin
United States District Judge

137a
APPENDIX D
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
[Filed May 18, 2020]
————
2019-1201
————
ALFRED E. MANN FOUNDATION FOR SCIENTIFIC
RESEARCH, ADVANCED BIONICS, LLC,
Plaintiffs-Appellees,
v.
COCHLEAR CORPORATION, COCHLEAR LTD.,
Defendants-Appellants.
————
Appeal from the United States District Court
for the Central District of California in
No. 2:07-cv-08108-FMO-SH,
Judge Fernando M. Olguin.
————
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, LINN*,
DYK, MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, and HUGHES, Circuit Judges1.
Per Curiam.
*

Circuit Judge Linn participated only in the decision on the
petition for panel rehearing.
1

Circuit Judge Stoll did not participate.

138a
ORDER
Appellants Cochlear Corporation and Cochlear Ltd.
filed a petition for rehearing en Banc. The petition was
first referred as a petition for rehearing to the panel
that heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 26, 2020.
FOR THE COURT
May 18, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

